<html>
<title> - MEMBER DAY: TESTIMONY AND PROPOSALS ON THE OPIOID CRISIS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




        MEMBER DAY: TESTIMONY AND PROPOSALS ON THE OPIOID CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                           Serial No. 115-64


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
27-598 PDF                WASHINGTON : 2018                 


































                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                         Subcommittee on Health

                       MICHAEL C. BURGESS, Texas
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    ELIOT L. ENGEL, New York
FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
JOHN SHIMKUS, Illinois               G.K. BUTTERFIELD, North Carolina
TIM MURPHY, Pennsylvania             DORIS O. MATSUI, California
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         KURT SCHRADER, Oregon
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             ANNA G. ESHOO, California
MARKWAYNE MULLIN, Oklahoma           DIANA DeGETTE, Colorado
RICHARD HUDSON, North Carolina       FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)

                                  (ii)


























                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     3

                               Witnesses

Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon.........................................................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey............................................     7
    Prepared statement...........................................     8
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan.......................................................     9
    Prepared statement...........................................    10
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey..................................................    11
    Prepared statement...........................................    12
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California..................................................    13
    Prepared statement...........................................    14
Hon. Gus M. Bilirakis, a Representative in Congress from the 
  State of Florida...............................................    15
    Prepared statement...........................................    16
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina........................................    17
    Prepared statement...........................................    18
Hon. Larry Bucshon, a Representative in Congress from the State 
  of Indiana.....................................................    19
    Prepared statement...........................................    20
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio........................................................    20
    Prepared statement...........................................    22
Hon. Bill Johnson, a Representative in Congress from the State of 
  Ohio...........................................................    23
    Prepared statement...........................................    24
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont........................................................    24
    Prepared statement...........................................    25
Hon. Susan W. Brooks, a Representative in Congress from the State 
  of Indiana.....................................................    26
    Prepared statement...........................................    27
Hon. Ben Ray Lujan, a Representative in Congress from the State 
  of New Mexico..................................................    28
    Prepared statement...........................................    30
Hon. Nancy Pelosi, a Representative in Congress from the State of 
  California.....................................................    31
    Prepared statement...........................................    32
Hon. Markwayne Mullin, a Representative in Congress from the 
  State of Oklahoma..............................................    33
    Prepared statement...........................................    34
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York.......................................................    35
    Prepared statement...........................................    37
Hon. Richard Hudson, a Representative in Congress from the State 
  of North Carolina..............................................    38
    Prepared statement...........................................    39
Hon. Joseph P. Kennedy, III, a Representative in Congress from 
  the Commonwealth of Massachusetts..............................    40
Hon. Bob Goodlatte, a Representative in Congress from the 
  Commonwealth of Virginia.......................................    41
    Prepared statement...........................................    42
Hon. Tim Walberg, a Representative in Congress from the State of 
  Michigan.......................................................    43
    Prepared statement...........................................    44
Hon. Harold Rogers, a Representative in Congress from the 
  Commonwealth of Kentucky.......................................    45
    Prepared statement...........................................    46
Hon. Earl L. ``Buddy'' Carter, a Representative in Congress from 
  the State of Georgia...........................................    47
    Prepared statement...........................................    48
Hon. Cheri Bustos, a Representative in Congress from the State of 
  Illinois.......................................................    49
    Prepared statement...........................................    50
Hon. Michael R. Turner, a Representative in Congress from the 
  State of Ohio..................................................    51
    Prepared statement...........................................    52
Hon. Roger W. Marshall, a Representative in Congress from the 
  State of Kansas................................................    53
    Prepared statement...........................................    54
Hon. Steve Stivers, a Representative in Congress from the State 
  of Ohio........................................................    55
    Prepared statement...........................................    56
Hon. Bradley Scott Schneider, a Representative in Congress from 
  the State of Illinois..........................................    58
    Prepared statement...........................................    59
Hon. Hakeem S. Jeffries, a Representative in Congress from the 
  State of New York..............................................    60
    Prepared statement...........................................    61
Hon. Evan H. Jenkins, a Representative in Congress from the State 
  of West Virginia...............................................    62
    Prepared statement...........................................    63
Hon. Brad R. Wenstrup, a Representative in Congress from the 
  State of Ohio..................................................    64
    Prepared statement...........................................    65
Hon. Katherine M. Clark, a Representative in Congress from the 
  Commonwealth of Massachusetts..................................    66
    Prepared statement...........................................    67
Hon. Elizabeth H. Esty, a Representative in Congress from the 
  State of Connecticut...........................................    67
    Prepared statement...........................................    68
Hon. Mia B. Love, a Representative in Congress from the State of 
  Utah...........................................................    70
    Prepared statement...........................................    71
Hon. Bill Pascrell, Jr., a Representative in Congress from the 
  State of New Jersey............................................    71
    Prepared statement...........................................    72
Hon. Thomas MacArthur, a Representative in Congress from the 
  State of New Jersey............................................    73
    Prepared statement...........................................    74
Hon. Tom O'Halleran, a Representative in Congress from the State 
  of Arizona.....................................................    75
    Prepared statement...........................................    76
Hon. Bruce Poliquin, a Representative in Congress from the State 
  of Maine.......................................................    77
    Prepared statement...........................................    78
Hon. David Rouzer, a Representative in Congress from the State of 
  North Carolina.................................................    79
    Prepared statement...........................................    80
Hon. David Young, a Representative in Congress from the State of 
  Iowa...........................................................    81
    Prepared statement...........................................    82
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon......................................................    83
    Prepared statement...........................................    84
Hon. Karen C. Handel, a Representative in Congress from the State 
  of Georgia.....................................................    84
    Prepared statement...........................................    85
Hon. Charlie Crist, a Representative in Congress from the State 
  of Florida.....................................................    86
    Prepared statement...........................................    87
Hon. John J. Faso, a Representative in Congress from the State of 
  New York.......................................................    88
    Prepared statement...........................................    89
Hon. John Katko, a Representative in Congress from the State of 
  New York.......................................................    90
    Prepared statement...........................................    91
Hon. William R. Keating, a Representative in Congress from the 
  Commonwealth of Massachusetts..................................    92
    Prepared statement...........................................    94
Hon. Erik Paulsen, a Representative in Congress from the State of 
  Minnesota......................................................    95
    Prepared statement...........................................    96
Hon. Lisa Blunt Rochester, a Representative in Congress from the 
  State of Delaware..............................................    97
    Prepared statement...........................................    98
Hon. Judy Chu, a Representative in Congress from the State of 
  California.....................................................    98
    Prepared statement...........................................    99
Hon. Jackie Walorski, a Representative in Congress from the State 
  of Indiana.....................................................   100
    Prepared statement...........................................   101
Hon. Daniel M. Donovan, Jr., a Representative in Congress from 
  the State of New York..........................................   102
    Prepared statement...........................................   102
Hon. Vicky Hartzler, a Representative in Congress from the State 
  of Missouri....................................................   103
    Prepared statement...........................................   104
Hon. Brian K. Fitzpatrick, a Representative in Congress from the 
  Commonwealth of Pennsylvania...................................   104
    Prepared statement...........................................   104
Hon. Ryan A. Costello, a Representative in Congress from the 
  Commonwealth of Pennsylvania...................................   106
    Prepared statement...........................................   107
Hon. Keith J. Rothfus, a Representative in Congress from the 
  Commonwealth of Pennsylvania...................................   108
    Prepared statement...........................................   109

                           Submitted Material

Statement of Hon. Wm. Lacy Clay, a Representative in Congress 
  from the State of Missouri, submitted by Mr. Burgess...........   110
Statement of Hon. Anna G. Eshoo, a Representative in Congress 
  from the State of California, submitted by Mr. Burgess.........   111
Statement of Hon. Alcee L. Hastings, a Representative in Congress 
  from the State of Florida, submitted by Mr. Burgess............   111
Statement of Hon. David P. Joyce, a Representative in Congress 
  from the State of Ohio, submitted by Mr. Burgess...............   112
Statement of Hon. Ann M. Kuster, a Representative in Congress 
  from the State of New Hampshire, submitted by Mr. Burgess......   114
Statement of Hon. Stephen F. Lynch, a Representative in Congress 
  from the Commonwealth of Massachusetts, submitted by Mr. 
  Burgess........................................................   125
Statement of Hon. David B. McKinley, a Representative in Congress 
  from the State of West Virginia, submitted by Mr. Burgess......   126
Statement of Hon. Richard M. Nolan, a Representative in Congress 
  from the State of Minnesota, submitted by Mr. Burgess..........   131
Statement of Hon. Niki Tsongas, a Representative in Congress from 
  the Commonwealth of Massachusetts, submitted by Mr. Burgess....   131
Article of August 17, 2017, ``Wilson sees 2 recent heroin, opioid 
  overdose deaths,'' by Olivia Neeley, The Wilson Times, 
  submitted by Mr. Butterfield...................................   133
Article of August 23, 2017, ``As overdoses surge, agencies 
  joining forces to help heroin, opioid addicts,'' by Olivia 
  Neeley, The Wilson Times, submitted by Mr. Butterfield.........   134
Article of May 30, 2015, ``A Choice for Recovering Addicts: 
  Relapse or Homelessness,'' by Kim Barker, The New York Times, 
  submitted by Mr. Green.........................................   136
News release of the Department of Justice, U.S. Attorney's 
  Office, Southern District of Florida, ``Owner Sentenced to More 
  than 27 Years in Prison for Multi-Million Dollar Health Care 
  Fraud and Money Laundering Scheme Involving Sober Homes and 
  Alcohol and Drug Addiction Treatment Centers,'' May 17, 2017, 
  submitted by Mr. Green.........................................   158

 
        MEMBER DAY: TESTIMONY AND PROPOSALS ON THE OPIOID CRISIS

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2017

                   House of Representatives
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
room 2322, Rayburn House Office Building, Hon. Michael C. 
Burgess (chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Guthrie, Barton, 
Upton, Shimkus, Lance, Bilirakis, Bucshon, Brooks, Mullin, 
Hudson, Collins, Carter, Walden (ex officio), Green, 
Butterfield, Matsui, Lujan, Kennedy, Eshoo, and Pallone (ex 
officio).
    Staff present: Adam Buckalew, Professional Staff Member, 
Health; Kelly Collins, Staff Assistant; Zack Dareshori, Staff 
Assistant; Jordan Davis, Director of Policy and External 
Affairs; Paul Eddatel, Chief Counsel, Health; Adam Fromm, 
Director of Outreach and Coalitions; Caleb Graff, Professional 
Staff Member, Health; Jay Gulshen, Legislative Clerk, Health; 
Zach Hunter, Communications Director; Katie McKeogh, Press 
Assistant; Alex Miller, Video Production Aide and Press 
Assistant; Christopher Santini, Counsel, Oversight and 
Investigations; Kristen Shatynski, Professional Staff Member, 
Health; Jennifer Sherman, Press Secretary; Jeff Carroll, 
Minority Staff Director; Waverly Gordon, Minority Counsel, 
Health; Tiffany Guarascio, Minority Deputy Staff Director and 
Chief Health Advisor; Jourdan Lewis, Minority Staff Assistant; 
Jessica Martinez, Minority Outreach and Member Services 
Coordinator; Samantha Satchell, Minority Policy Analyst; Andrew 
Souvall, Minority Director of Communications, Member Services, 
and Outreach; Kimberlee Trzeciak, Minority Senior Health Policy 
Advisor; and C.J. Young, Minority Press Secretary.
    Mr. Burgess. Subcommittee will come to order, and I will 
recognize myself for an opening statement.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    United States of America is in the midst of a fierce battle 
against an epidemic brought to us by opioids. It does not 
matter where you live. This crisis has touched every corner of 
American society.
    While New England and the Ohio Valley regions represent 
States hardest hit by the epidemic, health officials from the 
South and reaching across the West all report a growing number 
of overdose deaths in those counties.
    The latest figures from the Center for Disease Control and 
Prevention are astounding. Ninety-one Americans die every day 
from an overdose.
    Now, more than ever, we must come together and strengthen 
our commitment to fight this malady. I expect today's Members 
Day will bring to the forefront key insights and potential 
solutions on this critical issue.
    In the previous Congress, the Energy and Commerce Committee 
led several bipartisan initiatives to help address the opioid 
epidemic.
    The Comprehensive Addiction Recovery Act and the 21st 
Century Cures Act are now law and providing resources at the 
State and local levels.
    Much-needed policy changes are being implemented the 
passage of both CARA--with the passage of both CARA and Cures.
    In fact, as a result of CARA, patients suffering from 
substance abuse now have greater access to evidence-based 
treatment, addiction treatment services, and overdose reversal 
therapies.
    Cures, on the other hand, provided $1 billion in grants for 
States to support an array of prevention treatment and recovery 
services. I believe these initiatives are making a significant 
difference.
    At the same time, other issues have emerged in this fight. 
Earlier this year, our committee responded to reports of people 
overdosing on heroin laced with synthetic opioids--fentanyl, 
carfentanyl--which are 100 to 10,000 times more potent than 
morphine.
    The ready availability of these synthetic opioids have 
become a public health threat and illegal online pharmacies, 
primary operating in foreign countries, are exacerbating this 
epidemic every day for our State and Federal officials.
    Today's hearing will allow us to gain Member perspective on 
potential ways to complement existing policies and Federal 
regulations to combat the opioid epidemic.
    Representatives both on and off the Energy and Commerce 
Committee will testify about the opioid epidemic, share their 
stories, and propose legislative solutions for our 
consideration.
    In advance, I want to thank House Members for participating 
in this important discussion, and we look forward to hearing 
from everyone who's going to be before us today.
    Let me yield what little time I have left to the vice 
chairman of the Health Subcommittee, Mr. Guthrie.
    Mr. Guthrie. Thank you very much. Obviously, I am going to 
be brief.
    So many families have been devastated by this, and in 
``Dreamland,'' which is a book that I read about the opioid 
crisis--an important book that I read about the opioid crisis--
had all these different scenarios.
    But when you see it in reality, I was in Owensboro one 
evening and met a mom. The mom was the mother of an athletic 
student--an athlete and an honor student--who had her ACL torn 
playing soccer, was prescribed painkillers.
    After her recovery she was addicted to pain killers. Since 
she couldn't have access to them, turned to heroin, and passed 
away due to an overdose.
    This is a sad story that is repeated through all groups and 
all areas and it's something that I am looking forward to 
hearing all the testimony today to look for ideas to further do 
what Congress has done through CARA and moving forward as well.
    So I thank you, Mr. Chairman, for yielding and I yield back 
the balance of my time.
    Mr. Burgess. The Chair now recognizes the ranking member of 
the subcommittee, Mr. Green, 3 minutes for an opening 
statement, please.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman.
    The Centers for Disease Control and Prevention has called 
for prescription drug overdose abuse in the United States an 
epidemic, has found drug overdose to be the leading cause of 
injury death in the United States.
    Between 1999 and 2010, the death rate from prescription 
painkillers more than quadrupled and only continues to rise. In 
2015, more than 52,000 people died of drug overdoses in America 
and about two-thirds of those were linked to opioids.
    The toll is only rising. The New York Times' analysis of 
preliminary data found that 59,000 to 65,000 likely died from 
overdoses in 2016.
    Today, it's estimated that more than 2 million have use 
disorder and too few of these people are in treatment. The rate 
of heroin overdoses had increased dramatically in recent years.
    Its rise is directly linked to the opioid epidemic. In 
2010, approximately 3,000 drug-poisoning deaths were connected 
to heroin. In 2013, the number jumped to a total of 8,000 
overdose deaths and only continues to rise.
    There is no community that has not been touched by this 
crisis and some have been ravaged by it. This committee has 
taken steps to address the crisis but so much is needed to 
combat it when families and communities across the country are 
being torn apart.
    Included in the 21st Century Cares, or the State-targeted 
response to the opioid crisis grant program, it provided a 
billion dollars over 2017 to 2018 to States to address the 
opioid epidemic.
    Extending this money is a crucial part of any continued 
Federal efforts to respond to the epidemic. We need an approach 
that employs proven health--public health strategies and spans 
the entire spectrum from prevention to treatment and recovery.
    These include robust funding to support prevention, crisis 
response and expanded access to treatment and long--lifelong 
recovery tools.
    The Affordable Care Act is a vital part of our efforts to 
fight against the opioid epidemic. More than 1.5 million 
Americans with substance abuse use disorders have access to 
treatment through Medicaid that doesn't--that didn't before the 
ACA, thanks to the Medicaid expansion.
    Unfortunately, Americans fighting addiction that live in 
States that refuse to expand their Medicaid programs like Texas 
were left out in the cold.
    For those in the individual market, all plans must include 
services for substance abuse disorders and mental health, and 
consumers cannot be denied coverage because of a history of 
substance abuse, all thanks to the ACA.
    This is not a small feat. Prior to the ACA, roughly a third 
of all individual market policies didn't cover substance abuse 
treatment.
    Repealing the mental substance abuse disorder coverage 
provision of the ACA will remove at least $5.5 billion annually 
from the treatment of low-income people with mental and 
substance abuse disorders.
    Going even further is to gut the traditional Medicaid or 
scrap the Medicaid expansion in States that took the money 
would be absolutely devastating to our fight against 
prescription drug and heroin addiction crisis.
    We are in the midst of the largest public health crisis 
that our country has known and this is not time to cut health 
care safety nets that serve those in recovery.
    I am pleased that we have the opportunity to hear from our 
colleagues about their proposals and to combat the prescription 
drug epidemic.
    We need a comprehensive solution to the crisis that 
includes real dollars and targets the entire spectrum of 
addiction, prevention, crisis response for those who fall 
through the cracks, and expanding access to treatment and 
proving support for recovery.
    We must be guided by science and avoid stigmas and not fall 
into traps, misconceptions about proven treatment strategies.
    I thank the chairman for having this conversation and look 
forward to advancing new strategies and funding to turn the 
side of this growing crisis and really help families and 
communities that desperately need it.
    And I yield back my time.
    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman. I will just make an organizational note before we 
move to our first panel.
    We are going to be hearing from Energy and Commerce members 
at the outset. Energy and Commerce members are welcome to give 
their testimony from the witness table or from the dais, 
whichever they prefer.
    We are going to move to our first panel, which will consist 
of Chairman Walden, Ranking Member Pallone, Chairman Upton, Ms. 
Eshoo, and Chairman Latta, and again, you are welcome to 
testify either from the table or from the dais.
    So, with that, the Chair recognizes the chairman of the 
full committee, Mr. Walden.

  STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman.
    I come here today on behalf of my constituents like I do 
every day, but I think especially today, with our opportunity 
for all Members to make their case to the Energy and Commerce 
Committee, first we want to welcome them.
    And I think as our colleagues on both sides of the aisle 
have already said, all of us in all of our communities face 
these challenges related to drug overdoses.
    I held a round table the day before yesterday in Bend, 
Oregon, where I learned a lot about the problems they're facing 
and some of the successes they are having, and the importance 
of the work that we are doing here.
    It is a heartbreaking epidemic that has been featured on 
the front pages of our local newspapers, on national 
television, as part of the stories from our friends and family 
members, and with good reason.
    Conservative estimates forecast that more than 90 Americans 
die from opioid abuses overdoses each day--90 a day, Mr. 
Chairman, while more than a thousand are treated each day for 
abusing opioids.
    In 2016 alone, more than 64,000 Americans died from drug 
overdoses and in Oregon alone, more people died last year from 
drug overdoses than from car accidents.
    I recently held round tables in southern and central Oregon 
to discuss how we can better combat this crisis. Meeting with 
the people on the front lines of this fight in our communities 
to find out what is working, what more can be done, is crucial 
to our efforts to end this scourge.
    The Energy and Commerce Committee has led a number of 
bipartisan initiatives to help address the opioid epidemic, 
from groundbreaking initiatives that are now law like the 
Comprehensive Addiction and Recovery Act--CARA--and the 21st 
Century Cures Act.
    Resources are become available and important policy changes 
are being implemented to stem the tide of opioids.
    CARA established a comprehensive strategy for improving 
evidence-based treatment for patients with substance abuse 
disorders and it made significant changes to expand access to 
addiction treatment and services and overdose reversal 
medications.
    The new law also included criminal justice and law 
enforcement-related provisions. The 21st Century Cures Act 
provided a billion dollars in grants for States, the first half 
of which was made available in April of 2017 to be administered 
by the Substance Abuse and Mental Health Services 
Administration, or SAMHSA.
    My State of Oregon received $6.5 million in grants to help 
combat the epidemic that has plagued our great State. However, 
so much more work needs to be done.
    Since the passage of CARA and the 21st Century Cures Act, 
other issues have emerged in the fight against opioids such as 
the proliferation of fentanyl and its analogs, and then there 
are allegations of pill dumping and the practice of patient 
brokering.
    In my own district, I've heard the all-too-familiar tale of 
the mother whose oldest son was first prescribed opioids after 
injuring his ankle playing basketball. It didn't take long for 
him to become addicted.
    Another parent shared with me the story of his sister and 
nurse who died of an overdose after years of suffering from 
addiction and bounding between pharmacies, passing off forged 
prescriptions.
    He spoke about how better tracking and treatment could have 
helped catch his sister's problem earlier and perhaps made 
counseling more effective.
    As it was, she was the--she was only caught because two 
pharmacies in the small town happen to check with each other. 
You see, by then it was too late, though.
    These two stories may have come from Oregon, but they're 
not exclusive to the Beaver State. They're why we are here 
today.
    Addressing the opioid epidemic requires an all hands on 
deck effort. Today we'll be hearing testimony and stories from 
our colleagues both on and off the Energy and Commerce 
Committee about what more can be done and I am looking forward 
to hearing feedback and input from both sides of the aisle to 
hear about what is working and what is not and find ways to 
complement our existing law and to address emerging issues.
    So with that, Mr. Chairman, I appreciate everyone here 
today with us, taking time to participate. I look forward to 
hearing from all my colleagues, and together we must continue 
to fight this opioid crisis in America, and I yield back.
    [The prepared statement of Mr. Walden follows]:

                 Prepared statement of Hon. Greg Walden

    It's great to see so much activity in our hearing room 
today. While there are a lot of familiar faces, there are 
plenty that we don't see in here on a regular basis. For those 
folks, I'd like to say welcome to Energy and Commerce. I'm glad 
you could join us for this important opportunity to highlight 
the opioid crisis.
    The heartbreaking epidemic has been featured on the front 
pages of our local newspapers, on national television, and as 
part of stories from our friends and family members. And with 
good reason--conservative estimates forecast more than 90 
Americans die from opioid overdoses each day, while more than 
1,000 are treated each day for abusing opioids. In 2016 alone, 
more than 64,000 Americans died from drug overdoses, and in 
Oregon alone, more people died last year from drug overdoses 
than from car accidents.
    I recently held roundtables in southern and central Oregon 
to discuss how we can better combat the crisis. Meeting with 
the people on the front lines of this fight in our communities 
to find out what is working, and what more can be done, is 
crucial to our efforts to end this scourge.
    The Energy and Commerce Committee has led a number of 
bipartisan initiatives to help address the opioid epidemic. 
From groundbreaking initiatives that are now law, like the 
Comprehensive Addiction and Recovery Act (CARA) and the 21st 
Century Cures Act, resources are becoming available and 
important policy changes are being implemented to stem the tide 
of opioids.
    CARA established a comprehensive strategy for improving 
evidencebased treatment for patients with substance-use 
disorders and made significant changes to expand access to 
addiction treatment services and overdose reversal medications. 
The new law also included criminal justice and law enforcement-
related provisions.
    The 21st Century Cures Act provided $1 billion in grants 
for States, the first half of which was made available in April 
2017, to be administered by the Substance Abuse and Mental 
Health Services Administration (SAMHSA). Oregon received $6.5 
million in grants to help combat the epidemic that has plagued 
our great State.
    However, more work needs to be done.
    Since the passage of CARA and the 21st Century Cures Act, 
other issues have emerged in the fight against opioids, such as 
the proliferation of fentanyl and its analogues, allegations of 
pill dumping, and the practice of patient brokering.
    In my own district, I've heard the all too familiar tale of 
the mother whose oldest son was first prescribed opioids after 
injuring his ankle playing basketball. It didn't take long for 
him to become addicted. Another parent shared with me the story 
of his sister, a nurse, who died of an overdose after years of 
suffering from addiction and bouncing between pharmacies 
passing off forged prescriptions. He spoke about how better 
tracking and treatment could have helped catch his sister's 
problem earlier and perhaps made counseling more effective. As 
it was, she was only caught because two pharmacies in a small 
town happened to check with each other. You see, by then it was 
too late.
    Those two stories may have come from Oregon, but they're 
not exclusive to my home State. And they're why we're here 
today.
    Addressing the opioid epidemic requires an all-hands-on-
deck effort. Today we will be hearing testimony and stories 
from our colleagues both on and off the Energy and Commerce 
Committee about what more can be done. I'm looking forward to 
hearing feedback and input from both sides of the aisle--to 
hear about what's working and what's not, find ways to 
complement existing law, and to address emerging issues.
    I appreciate everyone here with us today taking the time to 
participate, and I look forward to hearing from my colleagues 
on both side of the aisle. Together, we must continue to fight 
to combat the opioid crisis.

    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman.
    And again, just to reiterate the format for today, members 
on the Energy and Commerce Committee are invited to either give 
testimony from the witness table or from the dais, whichever 
they prefer.
    So at this time I will recognize the ranking member of the 
full committee, Frank Pallone from New Jersey, for 5 minutes, 
please.

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Burgess.
    Today's Member Day provides us the opportunity to hear from 
our colleagues about how the epidemic is uniquely affecting 
their districts as well as to hear their ideas of additional 
efforts and funding that is needed to help individuals, 
families, and communities affected by this crisis.
    Like all communities across the country, the opioid 
epidemic is having devastating consequences in my home State. 
Drug overdoses are the leading causes of accidental death in 
New Jersey.
    According to the Centers for Disease Control and 
Prevention, there were--there was a 16 percent increase in drug 
overdose deaths in New Jersey between 2014 and 2015, and last 
year drug overdose deaths topped more than 2,000.
    And unfortunately, we are continuing to see increased 
deaths from this tragic epidemic. I am proud of the steps this 
committee has taken to respond to this tragic epidemic that is 
taking the lives of 91 Americans every day.
    I am pleased that we worked together in a bipartisan 
fashion to pass the Comprehensive Addiction and Recovery Act, 
or CARA. We also worked together to create the State-targeted 
response to the opioid crisis grant program as part of the 21st 
Century Cures Act and this grant program provides a billion to 
States to address the opioid epidemic.
    There were positive and--well, these were positive and 
bipartisan laws that we produced in 2016 during the last year 
of the Obama administration. That was 2016. Two thousand 
seventeen has been much different.
    Congressional Republicans have spent much of this year 
trying to repeal the Affordable Care Act, which would have 
prevented millions of Americans from getting the help that they 
need to treat opioid use disorders and the repeal legislation 
passed here in the House would have allowed insurers to once 
again discriminate against people with preexisting conditions 
such as opioid use disorders.
    The Republican-passed bill would also have allowed States 
to waive essential health benefits including mental health and 
substance use treatment.
    But, thankfully, those repeal efforts have failed to date. 
So as we move forward, what is clear is that individuals with 
substance use disorder, their families, and their communities 
need us to work together to do more.
    Despite some progress here in Washington, the epidemic has 
shown no signs of relenting and that is why we must continue to 
support and increase funding for proven health--public health 
approaches spanning the entire spectrum from crisis to 
recovery, including expanding access to medication-assisted 
treatment.
    Those efforts should include more funding and we should 
extend the State-targeting response to the opioid crisis grant 
program so that we can expand even further people's access to 
opioid abuse treatment, prevention, and recovery support 
services.
    So I look forward to hearing from my House colleagues and 
continuing to work together in a bipartisan fashion to help our 
country respond to this crisis.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Chairman Burgess. Today's Member Day provides us 
the opportunity to hear from our colleagues about how the 
epidemic is uniquely affecting their districts as well as to 
hear their ideas of additional efforts and funding that is 
needed to help individuals, families, and communities affected 
by this crisis.
    Like all communities across the country, the opioid 
epidemic is having devastating consequences in my home State. 
Drug overdoses are the leading cause of accidental death in New 
Jersey. According to the Centers for Disease Control and 
Prevention, there was a 16 percent increase in drug overdose 
deaths in New Jersey between 2014 and 2015. Last year, drug 
overdose deaths topped more than 2,000. And unfortunately, we 
are continuing to see increased deaths from this tragic 
epidemic.
    I am proud of steps this committee has taken to respond to 
this tragic epidemic that is taking the lives of 91 Americans 
every day. I am pleased that we worked together in a bipartisan 
fashion to pass the Comprehensive Addiction and Recovery Act 
(CARA). We also worked together to create the State Targeted 
Response to the Opioid Crisis grant program as part of the 21st 
Century CURES Act. This grant program provides $1 billion to 
States to address the opioid epidemic.
    These were positive and bipartisan laws that we produced in 
2016 during the last year of the Obama administration. That was 
2016--2017 has been much different. Congressional Republicans 
have spent much of this year trying to repeal the Affordable 
Care Act, which would have prevented millions of Americans from 
getting the help that they need to treat opioid use disorders.
    The repeal legislation passed here in the House would have 
allowed insurers to once again discriminate against people with 
preexisting conditions, such as opioid use disorders. The 
Republican passed bill would also have allowed States to waive 
essential health benefits, including mental health and 
substance use treatment. Thankfully, repeal efforts have failed 
to date.
    As we move forward, what's clear is that individuals with 
substance use disorder, their families, and their communities 
need us to work together to do more. Despite some progress here 
in Washington, the epidemic has shown no signs of relenting. 
That is why we must continue to support and increase funding 
for proven public health approaches spanning the entire 
spectrum from crisis to recovery, including expanding access to 
medication-assisted treatment. Those efforts should include 
more funding. We should extend the State Targeting Response to 
the Opioid Crisis grant program so that we expand even further 
people's access to opioid abuse treatment, prevention, and 
recovery support services.
    I look forward to hearing from my House colleagues and 
continuing to work together in a bipartisan fashion to help our
    I yield back.

    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman.
    Chair recognizes the chairman of the Energy Subcommittee, 
Mr. Upton, for 3 minutes.

STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    This is very important, this Member Day, as we are able to 
all share our personal experiences on a crisis that has been 
plaguing our Nation over the last couple of years--opioid 
addiction and abuse.
    This silent epidemic has for sure torn through families, 
neighbourhoods, and communities, both certainly in my home 
State of Michigan. But we know across the country as well.
    In fact, in 2015, there were nearly 2,000 opioid abuse-
related deaths in Michigan alone. Even more tragically, more 
than 22,000 babies are born every year across the country with 
neonatal opioid withdrawal syndrome.
    This terrible epidemic has hit home both in my community 
and, yes, even in my extended family. So this is very personal 
to me as it is with so many throughout our communities.
    In the last couple of years, I have been meeting with first 
responders, crisis center employees, advocacy groups, and yes, 
individuals suffering.
    All of these folks have said that, tragically, the death 
toll continues to rise. That is why we have been taking 
concrete steps here in this committee to combat the widespread 
epidemic.
    Just last year, the President signed into his sweeping 
package aimed at attacking the opioid epidemic from all sides.
    As part of 21st Century Cures, a bill that every one of our 
committee members supported, an additional $1 billion was 
allocated to the States like Michigan to address opioid 
addiction, treatment and prevention.
    This year the first round of funding was delivered. We 
received $16 million and that grant funding will make a real 
difference. It will.
    To those suffering I just say help is on the way, and as a 
result of this legislation as well as administrative action, 
NIH Director Francis Collins is helping to lead the charge.
    This summer, the NIH started meeting with experts in 
academia and the biopharmaceutical industry to talk about 
innovative ways in which Government and industry can work 
together to address the crisis.
    I strongly support that work and look forward to seeing the 
results of the research that NIH is doing with its industry 
partners.
    There are also things that we in Congress can help NIH with 
in these endeavors. First, we need the NIH to develop more 
options for overdose reversals.
    Second, we need the evidence that the NIH can develop an 
effective therapy for addiction, and finally, we must 
accelerate the development of nonaddictive pain medicines.
    The sooner that we in Congress supply the resources 
necessary to conduct that work, the sooner that we can supply 
powerful new tools for every community.
    These efforts can't happen fast enough and these are some 
of the many reasons that I continue to support robust NIH 
funding.
    There is more work to be done, and here in Congress we will 
continue to take steps to address that epidemic and in this 
committee we are on the front lines to advance meaningful 
bipartisan legislation that indeed will make a difference. 
Together, we will bring it out of the shadows.
    I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Mr. Chairman, thank you for holding this very important 
Member Day hearing on a crisis that has been plaguing our 
Nation over the last several years--opioid addiction and abuse, 
This silent epidemic has torn through families, neighborhoods, 
and communities both in my home State of Michigan and indeed 
across the entire country. In fact, in 2015, there were nearly 
2,000 opioid abuse related deaths in Michigan alone.
    In the last few years I have been meeting with first 
responders, crisis center employees, advocacy groups, and yes--
individuals suffering. All of these folks have said that, 
tragically, the death toll continues to rise.
    This is why we have been taking concrete action here in the 
Energy and Commerce Committee to combat this widespread 
epidemic. Just last year, the president signed into law a 
sweeping package aimed at attacking the opioid epidemic from 
all sides.
    As part of my landmark, bipartisan 21st Century Cures Act, 
an additional $1 billion was allocated to States, like 
Michigan, to address opioid addiction treatment and prevention. 
Just this year, the first round of that funding was delivered.
    Michigan received more than $16 million. This grant funding 
will make a real difference. To those suffering, I just say 
this: Help is on the way.
    As a result of my legislation as well as administrative 
action, my good friend Dr. Francis Collins is helping to lead 
the charge in his position as director of the National 
Institutes of Health. This summer, the NIH started meeting with 
experts in academia and the biopharmaceutical industry to talk 
about innovative ways in which Government and industry can work 
together to address this crisis. I strongly support this work 
and look forward to seeing the results of the research NIH is 
doing with its industry partners.
    There are also things we in Congress can help NIH with in 
these endeavors. First, we need NIH to develop more options for 
overdose reversal. Second, we need the evidence NIH can develop 
on effective therapies for addiction. And finally, we must 
accelerate the development of nonaddictive pain medicines. The 
sooner we in Congress supply the resources necessary to conduct 
this work, the sooner we can supply powerful new tools for our 
communities. These efforts can't happen fast enough, and these 
are some of the many reasons that I continue to support robust 
NIH funding.
    There is more work to be done. Clearly. And here in 
Congress we will continue to take steps to address this 
epidemic. Here in this committee, we're on the front lines in 
advancing meaningful, bipartisan legislation that will make a 
difference. Together, we can take this ``silent epidemic'' and 
bring it out of the shadows.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    Chair recognizes the gentleman from New Jersey, Mr. Lance, 
3 minutes, please.

 STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you, Mr. Chairman, and I must say this is 
the first time I've been on this side of the dais and what a 
fine looking group.
    Mr. Green. It is more fun being over here, as you know.
    Mr. Burgess. If it makes the gentleman more comfortable, we 
can swear you in.
    [Laughter.]
    Mr. Lance. That means I would be under oath.
    Mr. Burgess. Yes.
    Mr. Lance. Thank you, Chairman Burgess, for organizing this 
conversation today. The opiate crisis is devastating families 
and communities across New Jersey, the State I represent.
    In 2015, the Garden State's death rate was two and a half 
times the skyrocketing U.S. rate. We are making progress with 
the implementation of the Comprehensive Addiction Recovery Act 
of 2016, but more work needs to be done.
    I acknowledge the efforts of one of my constituents, 
Basking Ridge resident Clodette Sabatelle. Clodette has done 
critical work and has made a positive difference in the lives 
of those suffering from drug addiction.
    Her advocacy group, Community in Crisis, helps equip the 
loved ones of those in pain. None of the progress we have made 
so far in this fight against drug addiction and opiate abuse 
would have been possible without the work of people like 
Clodette and organizations like Community in Crisis. Their 
efforts are efforts that we should make sure Congress 
understands and applauds.
    I worked closely with Clodette on the issue of over 
prescription. In 2012, health care providers wrote 259 million 
prescriptions for opiates.
    The CARA provisions I authored addressed that issue by 
reforming and improving the medical drug approval and label 
process at the Food and Drug Administration.
    For the first time, Congress has required the agency to 
work closely with expert advisory committees before making 
critical product approval and labeling decisions and to make 
recommendations regarding educational programs for prescribers 
of extended release and long-acting opiates.
    CARA also encourages the development and approval of 
opiates with abuse-deterrent properties. We also have to make 
sure resources such as the State-targeted response to the 
opiate crisis grants administered by the Substance Abuse and 
Mental Health Services Administration continue to give States 
the tools they need to experiment and test best practices.
    New Jersey recently secured a $13 million Federal grant 
from the Substance Abuse and Mental Health Services 
Administration to focus on this crisis.
    The Drug-Free Community Support program in the White House 
Office of National Drug Control Policy also recently awarded 
Community in Crisis and two other able organizations Hunterdon 
Prevention Resource and EmPoWER Somerset, each with a $125,000 
grant to assist addressing the problem of opiate and heroin 
abuse, provide education, and implement prevention measures.
    Community in Crisis Hunterdon Prevention Resource and 
EmPoWER Somerset are great partners in connecting people with 
the resources and support they need.
    These investments are not only the right thing to do but 
help lessen the significant strain on law enforcement 
resources. I commend each group on its important work.
    Mr. Chairman, I stand ready to work with you and colleagues 
on both sides of the aisle to continue this work. Thank you for 
calling this hearing today.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you, Chairman Burgess, for organizing this 
conversation today.
    The Energy and Commerce Committee has done a lot right in 
the fight against drug addiction. Last year's landmark 
legislation set up lanes for success but it is going to be up 
to this committee to make sure the administration, the 
respective agencies and all stakeholders continue this effort 
to implement the Comprehensive Addiction and Recovery Act of 
2016 and do all we can for those in need. I think today's 
Member Day demonstrates we are committed to doing that.
    The opioid crisis is devastating families and communities 
across the Garden State. In 2015, New Jersey's heroin death 
rate was two-and-one-half times the skyrocketing U.S. rate. We 
are making progress with CARA's implementation but there is 
much more work to be done. Too often we are hearing about 
another life cut short from the scourge of drug addiction. This 
is not just a New Jersey problem, but an epidemic facing the 
entire country. We need to be working together and empowering 
the groups and organizations that are succeeding in turning the 
tide against drug abuse.
    I would like to acknowledge the efforts of one of my 
constituents, Basking Ridge resident Clodette Sabatelle. 
Clodette has done critical work and has made a difference in 
the lives of those suffering from drug addiction. Her advocacy 
group, Community in Crisis, helps empower and equip the loved 
ones of those in pain. None of the progress we have made so far 
in this fight against drug addiction and opioid abuse would 
have been possible without the work of people like Clodette and 
organizations like Community in Crisis. Their efforts equipped 
Congress to act and helped craft and champion the CARA 
legislation.
    I worked closely with Clodette on the issue of over 
prescription. In 2012, health care providers wrote 259 million 
prescriptions to people for opioids. The CARA provisions I 
authored address that issue by reforming and improving the 
medical drug approval and label process within the Federal Food 
and Drug Administration. For the first time, Congress has 
required the agency to work closely with expert advisory 
committees before making critical product approval and labeling 
decisions and to make recommendations regarding education 
programs for prescribers of extended-release and long-acting 
opioids. CARA also encourages the development and approval of 
opioids with abuse-deterrent properties.
    We also have to make sure resources such as the State 
Targeted Response to the Opioid Crisis Grants administered by 
the Substance Abuse and Mental Health Services Administration 
continue to give States the tools they need to experiment and 
test best practices. New Jersey recently secured a $13 million 
Federal grant from the Substance Abuse and Mental Health 
Services Administration to prioritize five specific strategies: 
strengthening public health surveillance, advancing the 
practice of pain management, improving access to treatment and 
recovery services, targeting availability and distribution of 
overdose-reversing drugs and supporting cutting-edge research.
    The Drug-Free Communities Support Program the White House 
Office of National Drug Control Policy also recently awarded 
Community in Crisis and two other very able organizations, 
Hunterdon Prevention Resource and Empower Somerset, each with a 
$125,000 grant to assist addressing the problem of opioid and 
heroin abuse, provide education and implement prevention 
measures. Community in Crisis, Hunterdon Prevention Resource 
and Empower Somerset are great partners in connecting people 
with the resources and support they need. These investments are 
not only the right thing to do, but help lessen the significant 
strain on law enforcement resources. I commend each group on 
its important work.
    Mr. Chairman, I stand ready to work with you and colleagues 
on both sides of the aisle to continue this work. Thank you for 
calling this hearing today.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back. And the Chair wants to thank this panel.
    We will move to our second panel. Members identified 
wishing to speak in the second panel: Mr. Butterfield of North 
Carolina, Ms. Matsui in California, and Mr. Bilirakis of 
Florida.
    Again, Members are advised they may either speak from the 
witness table or from the dais, whichever is their preference.
    So the Chair recognizes Ms. Matsui of California for 3 
minutes.

STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for inviting us today 
to testify about proposals to address our Nation's opioid 
epidemic.
    We all have heartbreaking stories of constituents whose 
lives were lost too soon to an opioid overdose. In my home 
district of Sacramento, they have experienced a particularly 
deadly overdose crisis last year due to pills contaminated with 
fentanyl, which is as much as 50 times stronger than heroin.
    Addiction is a devastating disease that knows no bounds and 
we must come together to provide solutions in a comprehensive 
manner. In this committee, we took a step forward by passing 
the Comprehensive Addition and Recovery Act into law last year.
    We need to build on these efforts. Understanding addiction 
and its consequences are multipronged and we need a 
multipronged solution.
    I look at this problem as I do any other health care 
problem, which means I examine it holistically across the 
spectrum from prevention to early intervention to treatment.
    In the case of the opioid epidemic there is a lot we can do 
at each of these stages, all of which rest on truly building up 
our Nation's mental health system and integrating behavior 
health care with physical health care.
    Historically, mental health and addiction have bee treated 
as character flaws and therefore not addressed with evidence-
based medical treatment. We can reverse that course by making 
treatment more available, bolstering our mental health work 
force, and reducing stigma.
    In 2012, Representative Lance and Senators Stabenow, Blunt, 
and I passed the Excellence in Mental Health Demonstration 
Project into law. This project is allowing States to 
demonstrate that building up Community-Based Behavioral Health 
Clinics improves access to care.
    Last week, we introduced legislation to extend the years of 
the program and expand it to more States. We should strongly 
consider this as one way to help address the opioid crisis.
    We also need to enforce mental health parity laws to make 
sure health insurers are offering mental health benefits equal 
to physical health benefits.
    However, this work on parity is irrelevant if mental health 
benefits are not offered in the first place. There have been 
proposals which included provisions that allow States to waive 
essential health benefits, meaning insurance once again not be 
required to cover mental health and addiction treatments. 
That's not good.
    Cutting billions from the Medicaid program would also mean 
loss of coverage from millions suffering from substance use 
disorder. We cannot take these steps backward.
    I am encouraged by steps being taken across the health care 
sector to address the crisis including the limiting of opioid 
prescriptions for prescribes and insurers.
    We need to build on these efforts. That includes 
considering proposals in Congress to provide resources and 
training for State and local enforcement and bolstering a 
mental health workforce, educating the public, addressing 
availability of a range of treatment options from outpatient to 
inpatient to residential care and more.
    And I do look forward to continuing to work with the 
committee on these policy proposals to address this pressing 
issue.
    Thank you, and I yield back.
    [The prepared statement of Ms. Matsui follows:]

               Prepared statement of Hon. Doris O. Matsui

    Thank you, Mr. Chairman, for inviting us to testify today 
about proposals to address our Nation's opioid epidemic. We all 
have heartbreaking stories of constituents whose lives were 
lost too soon to an opioid overdose. In my home district of 
Sacramento, we experienced a particularly deadly overdose 
crisis last year due to the introduction of pills contaminated 
with fentanyl, which is as much as 50 times stronger than 
heroin.
    Addiction is a devastating disease that knows no bounds and 
impacts us all, and we must come together to provide solutions 
in a comprehensive manner.
    In this committee, we took a first step by passing the 
Comprehensive Addiction and Recovery Act, or CARA, into law 
last year. We need to build on those efforts; understanding 
addiction and its consequences are multipronged, we need a 
multipronged solution.
    I look at this problem as I do any other health care 
problem or disease, which means I examine it holistically 
across the spectrum from prevention to early intervention to 
treatment.
    In the case of the opioid epidemic, there is a lot we can 
do at each of these stages, all of which rest on truly building 
up our Nation's mental health system and integrating behavioral 
health care with physical health care.
    If people are able to get behavioral health treatment when 
they need it in their communities, we can start to address the 
root causes of addiction and prevent and catch issues earlier. 
Historically, mental health and addiction have been treated as 
character flaws and therefore not addressed with evidence-based 
medical treatment. We can reverse that course by making 
treatment more available, bolstering our mental health 
workforce, and reducing stigma.
    In 2012, Rep. Lance and Senators Stabenow, Blunt, and I 
passed the Excellence in Mental Health Demonstration project 
into law. This project is allowing States and local communities 
to demonstrate that building up Community-Based Behavioral 
Health Clinics, in coordination with physical health clinics 
and community resources, will improve access to care. This 
project is currently in eight States, and last week we 
introduced the Excellence in Mental Health and Addiction 
Treatment Expansion Act to extend the years of the demo and 
expand it to more States. We should strongly consider this 
project and legislation as a way to build up community care to 
address the opioid crisis.
    We also need to ensure that mental health parity is truly 
achieved. When an insurance company offers mental health 
benefits, they should be equal to physical health benefits 
offered. We need to ensure that this rule is being followed 
across the country. However, the rule is irrelevant if mental 
health benefits are not offered in the first place. Trumpcare 
proposals have included provisions that allow States to waive 
essential health benefits, meaning insurers would once again 
not be required to cover mental health and addiction treatment. 
Cutting billions of dollars from the Medicaid program would 
also mean loss of coverage for millions of Americans suffering 
from substance use disorder. We cannot take these steps 
backward.
    I am encouraged by steps that are being taken across the 
health care sector to address the crisis. Prescribers and 
insurers are limiting opioid prescriptions , such as for pain 
following a surgery, to seven days. This prevents bottles of 
extra unused pills from sitting in people's medicine cabinets, 
as do prescription drug ``take back'' days where people can 
turn in unused pills to the DEA.
    We need to build on these efforts and work together across 
the system. That includes considering proposals in Congress 
that provide resources and training for State and local law 
enforcement, bolstering our mental health workforce, educating 
the public on what they can do to prevent or react to a crisis, 
addressing the availability of a range of treatment options 
from outpatient to inpatient to residential care, and more. I 
look forward to continuing to work with the committee on policy 
proposals to address this pressing issue.

    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back.
    Chair recognizes the gentleman from Florida, Mr. Bilirakis, 
for 3 minutes, please.

    STATEMENT OF HON. GUS M. BILIRAKIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Bilirakis. Thank you, Mr. Chairman.
    The United States is in the midst of an opioid overdose 
epidemic. Sadly, 91 Americans die every day due to opioid 
overdoses. Nearly half of all opioid overdose deaths involve a 
prescription opioid.
    In 2010, in response to the opioid crisis in Florida's pill 
mill problem, Florida's legislature enacted statewide tracking 
of painkiller prescriptions coupled with law enforcement using 
drug trafficking laws to prosecute providers caught over 
prescribing. Within 3 years, Florida saw a decrease of more 
than 20 percent in overdose deaths.
    Despite this positive trend, opioid abuse continues to 
plague my district. In fact, my district had the second-highest 
prescription drug death rate in Florida in 2014.
    In response, I worked last Congress to ensure that Pasco 
County was included as a high-intensity drug trafficking area, 
enabling law enforcement to receive additional resources to 
combat the spread of drug-related crime.
    I want to applaud the committee for including my bills, the 
Medicare Patient Safety and Drug Abuse Prevention Act and the 
Promise Act in CARA, which passed last Congress.
    The Medicare Patient Safety and Drug Abuse Prevention Act 
created a pharmacy and physician block-in program within the 
Medicare Advantage and Medicare Part D, giving CMS the tools to 
crack down on this abuse in the Medicare program and it's 
important for us to maintain oversight, of course, as you know, 
on this program as CMS is developing the rules.
    The Promise Act will increase safety for opioid therapy and 
pain management by requiring the VA and DoD to update their 
clinical practice guidelines for managing of opioid therapy for 
chronic pain, requiring the VA opioid prescribes to have the 
enhanced pain management and safe opioid prescribing education 
and training and encourage the VA to increase information 
sharing with State licensing boards. I think that is critical.
    As part of the 21st Century Cures Act, Florida has received 
over $27 million in grants to help fight the opioid epidemic by 
increasing access to treatment and recovery services, 
strengthening public health surveillance, and improving pain 
management practices.
    These critical funds are supporting Florida's all-hands-on-
deck approach across the State to curb opioid abuse and save 
lives.
    I am pleased the administration and this committee are 
leading the charge on this critical issue and I look forward to 
working together to help save lives and prevent addiction.
    I yield back, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Bilirakis follows:]

              Prepared statement of Hon. Gus M. Bilirakis

    Thank you Mr. Chairman for hosting today's Member Day to 
discuss the impact of opioid abuse in our communities.
    The United States is in the midst of an opioid overdose 
epidemic. According to the Centers for Disease Control and 
Prevention, more citizens died from drug overdoses in 2015 than 
any other year on record. Of those deaths, six out of ten 
involve opioids. Last year, an estimated 60,000 Americans died 
due to drug overdoses, more than all the Americans who died in 
the Vietnam War. Sadly, 91 Americans die every day due to 
opioid overdoses. Nearly half of all opioid overdose deaths 
involve a prescription opioid.
    Florida has been in the crosshairs of this epidemic. In 
2010, in response to the opioid crisis and Florida's `pill 
mill' problem, Florida's legislature enacted statewide tracking 
of painkiller prescriptions coupled with law enforcement using 
drug trafficking laws to prosecute providers caught 
overprescribing. Within 3 years, Florida saw a decrease of more 
than 20 percent in overdose deaths.
    Despite this positive trend, opioid abuse continues to 
plague my district--Florida's 12th District. Pasco and Pinellas 
counties had some of the highest oxycodone-caused deaths-almost 
200 in 2014. In fact, my district had the second-highest 
prescription drug death rate in Florida in 2014. In response, I 
worked last Congress to ensure that Pasco County was included 
as a High Intensity Drug Trafficking Area (HIDTA), which has 
enabled law enforcement to receive additional resources to 
combat the spread of drug-related crime.
    Additionally, I invited the head of the Office of National 
Drug Control Policy to visit my district last year. We toured 
local facilities and met with law enforcement, key health care 
providers, patients, and experts to determine the next steps in 
addressing this problem. I want to applaud the committee for 
including my bills, the Medicare Patient Safety and Drug Abuse 
Prevention Act and PROMISE Act in the Comprehensive Addiction 
and Recovery Act which passed last Congress. The Medicare 
Patient Safety and Drug Abuse Prevention Act created a pharmacy 
and physician lock-in program within Medicare Advantage and 
Medicare Part D. Private insurance was already using this 
strategy against doctor and pharmacy shopping, and States had 
adopted it as part of the Medicaid program. This gives CMS the 
tools to crackdown on this abuse in the Medicare program, and 
it's important for us to maintain oversight on this program as 
CMS is developing the rules. Furthermore, the PROMISE Act will 
increase safety for opioid therapy and pain management by 
requiring the VA and DOD to update their Clinical Practice 
Guidelines for Management of Opioid Therapy for Chronic Pain, 
requiring VA opioid prescribers to have enhanced pain 
management and safe opioid prescribing education and training, 
and encourages the VA to increase information sharing with 
State licensing boards.
    As part of the 21st Century Cures Act this Congress, 
Florida has received over $27 million in grants to help fight 
the opioid epidemic by increasing access to treatment and 
recovery services, strengthening public health surveillance, 
and improving pain management practices. These critical funds 
are supporting Florida's all-hands-on-deck approach across the 
State to curb opioid abuse and save lives.
    Now the rise in fentanyl and its various derivatives have 
presented new challenges to my State. However, we remain 
optimistic with Florida's recent legislative initiatives 
including:
    <bullet> Requiring doctors to log prescriptions in a 
statewide painkiller database by the end of the next business 
day to curb `doctor shopping';
    <bullet> And setting aside State funds for medications that 
can help reduce opioid dependency, most of which will be spent 
in the State prison system.
    We need to continue to work closely with local law 
enforcement, medical professionals, addiction treatment 
specialists, and those impacted by addiction. I am pleased the 
administration and this committee are leading the charge on 
this critical issue, and I look forward to working together to 
help save lives and prevent addiction. Thank you and I yield 
back the remaining balance of my time, Mr. Chairman.

    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman.
    Chair recognizes the gentleman from North Carolina, Mr. 
Butterfield, for 3 minutes, please.

    STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Burgess, and to 
my fellow colleagues. Thank you for opportunity to address the 
committee today about the state of the opioid epidemic in my 
home State of North Carolina.
    And let me just begin, Mr. Chairman, by crediting my friend 
and our former colleague, Mary Bono, who was also up from 
Florida--Mr. Bilirakis, who talked so incessantly about this 
issue because it was very dear to her and she knew the impact 
that it was having on her State.
    Ms. Mack brought this important topic to the forefront of 
our subcommittee some years ago. She was the chairman of the 
subcommittee, and I was the ranking member.
    At first, Mr. Chairman, I thought Mary was a little bit 
overreacting to the opioid crisis in Florida because it had 
touched her family personally.
    But after we had hearings and after I looked into it, I 
came to the conclusion that she was not overreacting--that it 
was indeed an epidemic not just in Florida but all across the 
country.
    Just last year, I worked with many of my colleagues in this 
room on the Comprehensive Addiction and Recovery Act that was 
passed into law. That bill included, roughly, 20 different 
legislative proposals to help slow the epidemic. As part of the 
21st Century Cures Act, this committee approved $500 million.
    The American people need to know that, Mr. Chairman. We 
approved $500 million in supplemental funding to address opioid 
abuse.
    Despite the investments and attention from Congress, we are 
still feeling the opioid crisis very close to home. During the 
August work period I saw the effects of the epidemic on my 
small community in Wilson, North Carolina. Just in August 
alone, there were two deaths because of the opioid abuse in the 
community.
    According to reports in the Wilson Times--and I have a copy 
of that with me today--medics in Wilson County administered the 
appropriate drug in response to opioid crisis 28 times by mid-
August, when they usually administered the treatment 30 times 
per quarter.
    According to Chris Parker with the Wilson County Emergency 
Medical Services, there is a definite increase in opioid use 
and abuse in our county.
    North Carolina has a real problem on its hands. America has 
a real problem on its hands. By July of this year, there were 
more than 500 diagnoses for emergency department visits, up 
from 410 at the same point last year.
    Regrettably, Mr. Chairman, in my humble opinion, the 
administration is not taking this situation seriously. The 
budget offered by the current administration cuts HHS funding 
by 16 percent, the CDC by 17 percent, the National Institutes 
of Health by 19 percent.
    I am also very concerned about the proposals to get the 
Medicaid program that we have considered in this committee. The 
Center for Budget and Policy Priorities estimates that nearly 
100,000 people with an opioid use disorder have gained coverage 
through Medicaid expansion under ACA.
    Congress must do all that it can to help stop this epidemic 
from devastating more lives, more families, and communities.
    Congress should provide certainty--certainty and funding to 
combat this epidemic, which is why I am the original cosponsor 
of H.R. 3495, the Opiate and Heroin Abuse Crisis Investment Act 
of 2017 that was introduced by Mr. Lujan.
    We must also protect existing fundings for research in 
opioid use disorder coverage, provide tools to communities to 
address this epidemic, and reduce the stigma for those needing 
treatment.
    So I want to thank you for convening this hearing. I want 
to thank Mr. Latta, Mr. Bucshon, Mr. Bilirakis, and all of you 
for your time, your attention, and your energy to this issue 
because it is an emergency in our country.
    Thank you. I yield back.
    [The prepared statement of Mr. Butterfield follows:]

              Prepared statement of Hon. G.K. Butterfield

    Chairman Burgess, thank you for the opportunity to address 
the committee today about the state of the opioid epidemic in 
North Carolina.
    I credit my friend and colleague Mary Bono Mack with 
bringing this important topic to the forefront of this 
committee's work to protect public health. As ranking member of 
the subcommittee previously known as Subcommittee on Commerce, 
Manufacturing and Trade, I worked closely with Representative 
Bono Mack to ensure the supply chain for potentially dangerous 
narcotics is airtight.
    Just last year, I worked with many of my colleagues in this 
room on the Comprehensive Addiction and Recovery Act that was 
passed into law. That bill included roughly twenty different 
legislative proposals to help slow the opioid epidemic. As part 
of the 21st Century Cures Act, this committee approved $500 
million in supplemental funding to address opioid abuse.
    Despite the investments and attention from Congress, we are 
still feeling the opioid crisis close to home in North 
Carolina. During the August work period, I saw the effects of 
the epidemic on my community in Wilson, North Carolina.
    Just in August alone, there were two deaths because of 
opioid abuse in Wilson. According to reports in The Wilson 
Times, medics in Wilson County administered Naloxone in 
response to opioid crises 28 times by mid-August, when they 
usually administer the treatment 30 times per quarter. 
According to Chris Parker with Wilson County Emergency Medical 
Services, ``there is a definite increase in opiate use in 
Wilson County.''
    North Carolina has a real problem on its hands. By July of 
this year, there were more than 500 opioid diagnoses for 
emergency department visits, up from 410 at the same point in 
2016.
    Clearly, the administration is not taking this situation 
seriously. The budget offered by the Trump administration cuts 
HHS by 16 percent, the CDC by 17 percent, and that National 
Institutes of Health by 19 percent. I am also very concerned 
about the proposals to gut the Medicaid program that we have 
considered in this very committee. The Center for Budget and 
Policy Priorities estimates that nearly 100,000 people with an 
opioid use disorder have gained coverage through Medicaid 
Expansion under the ACA.
    Congress must do all it can to help stop this epidemic from 
devastating more lives, families, and communities. Congress 
should provide certainty in funding to combat this epidemic, 
which is why I am original cosponsor of H.R. 3495, the Opioid 
and Heroin Abuse Crisis Investment Act of 2017, that was 
introduced by my friend Ben Ray Lujan. We must also protect 
existing funding for research and opioid use disorder coverage, 
provide tools to communities to address this epidemic, and 
reduce stigma for those needing treatment.
    I ask unanimous consent to submit two articles from The 
Wilson Times for the record. I yield back.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Chair recognizes the gentleman from Indiana, Mr. Bucshon, 
for 3 minutes, please.

 STATEMENT OF HON. LARRY BUCSHON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Bucshon. Chairman Burgess, Ranking Member Green, thank 
you for holding this important hearing today.
    Opioid abuse disorder has ravaged our communities, and 
while it is important to look forward and address what else 
needs to be done to combat this terrible disease, we need to 
ensure the legislation we have already passed is being properly 
implemented and is working as Congress intended.
    In July 2016, the Comprehensive Addiction and Recovery 
Act--CARA--landmark legislation addressing the opioid abuse 
crisis was passed into law. I spent months convening 
stakeholder round tables and working on bipartisan language 
which became Section 303 of CARA.
    Section 303 updates the Controlled Substances Act and 
office-based opioid addiction treatment laws by ensuring that 
patients are offered and physicians are trained on all FDA-
approved treatments.
    Under previous law, prior to CARA millions of opioid-
addicted patients had their treatment determined based on their 
setting of care.
    With the passage of CARA, patients in these settings must 
now be offered a full range of treatment options based on their 
individual clinical needs and individualized treatment plan.
    Unfortunately, 15 months after the legislation was signed 
into law, Section 303 still has not been implemented. I urge 
the committee to conduct strong oversight to ensure SAMHSA will 
be properly implementing the law.
    Every day that this law goes unimplemented is one more day 
that our family members, friends, and colleagues are battling a 
disease with fragmented and incomplete treatment options.
    Specifically, SAMHSA should send a dear colleague letter to 
notify physicians that they must offer all anti-addiction 
medicines based on a patient's clinical needs.
    Additionally, curriculum for doctors, PAs, and nurse 
practitioners should be updated to include training on all FDA-
approved opioid addiction medications.
    Moreover, all of SAMHSA's public-facing material, including 
their Web site, should be modernized to reflect this patient-
centered approach.
    According to the Evansville Courier and Press, 55 people in 
Vanderbergh County, Indiana, have died of a drug overdose in 
the first nine months of this year, which is more than all of 
2016.
    The availability of all medication-assisted treatments 
regardless of where a patient chooses to seek them will help to 
stem the tide of these unnecessary deaths.
    It is vital that as the committee moves forward in the 
fight against opiate abuse disorder that we ensure CARA is 
properly implemented and helping people combat this terrible 
disease.
    Mr. Chairman, again, thank you for this hearing, and I 
yield back my time.
    [The prepared statement of Mr. Bucshon follows:]

                Prepared statement of Hon. Larry Bucshon

    Chairman Burgess and Ranking Member Green, thank you for 
holding this important hearing today, Opioid abuse disorder has 
ravaged our communities. and while I it is important to look 
forward and address what else needs to be done to combat this 
terrible disease. we also need to ensure that the legislation 
we have already passed is being properly implemented. and is 
working as intended by Congress,
    In July, 2016, the Comprehensive Addiction and Recovery 
Act, landmark legislation addressing the opioid abuse crisis, 
was passed into law,
    I spent months convening stakeholder roundtables and 
tweaking language on a bipartisan agreement, which became 
section 303 of CARA,
    In particular, Section 303 updates the Controlled 
Substances Act and Office-Based Opioid Addiction Treatment laws 
by ensuring that patients are offered, and physicians are 
trained, on all FDA-approved treatments, Under previous law, 
prior to CARA, millions of opioidaddicted patients had their 
treatment determined based on their setting of care, With the 
passage of CARA, patients in these settings must now be offered 
the full range of treatment options based on their 
individualized clinical needs,
    Unfortunately, 15 months after the legislation was signed 
into law, Section 303 still has not been implemented. I urge 
the committee to conduct strong oversight to ensure SAMHSA will 
be properly implementing the law, Every day that this law goes 
unimplemented, is one more day that our family members, 
friends, and colleagues are battling a disease with fragmented 
and incomplete treatment options,
    Specifically, SAMHSA should send a Dear Colleague letter to 
notify physicians that they must offer all anti-addiction 
medicines based on a patient's clinical needs, Additionally, 
curriculum for doctors, PAs, and nurse practitioners should be 
updated to include training on all FDA-approved opioid 
addiction medications, Moreover, all of SAMHSA's public facing 
material should be modernized to reflect this patient-centered 
approach,
    According to the Evansville Courier and Press, 55 people in 
Vanderburgh County, IN have died of a drug overdose in the 
first nine months of this year, which is more than all of 2016. 
The availability of all medication-assisted treatments, 
regardless of where a patient chooses to seek them, will help 
to stem the tide of these unnecessary deaths.
    It's vital that as the committee moves forward in the fight 
against opioid abuse disorder that we ensure the hard work that 
the committee has already accomplished is implemented and 
working.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman and recognizes the gentleman from Ohio, Mr. Latta, 
for 3 minutes, please.

STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you, Mr. Chairman, and again, thank 
you for holding this hearing today.
    Opioid abuse and addiction has caused devastation in every 
community across our Nation and Ohio has been especially hard 
hit. In Ohio, in 2015, 3,050 people lost their lives from 
unintentional drug overdose.
    In 2016, that number increased to 4,050. That's a 32 
percent increase from the previous year and that means 11 
deaths a day. For comparison, in 2016, there were 1,133 traffic 
fatalities in Ohio.
    That means that drug overdoses cause nearly four times as 
many deaths compared to traffic accidents. These figures are 
heartbreaking and sad to know that this problem isn't getting 
any better.
    Many county coroners in Ohio say that 2017's overdose 
fatalities are outpacing 2016's. This problem knows no limits 
and has affected husbands, wives, children, brothers, sisters, 
fathers, and mothers. It has destroyed marriages, ruined 
careers, and cut too many lives short.
    When I read through the obituaries in my local newspapers 
over the past year or two I have noticed more younger 
individuals without a cause of death being listed.
    Unfortunately, in too many of instances it is because of 
drug overdoses. Across my district in northwest and west 
central Ohio, I have heard how opioid addiction impacts our 
communities.
    I have toured businesses and met with community leaders and 
spoke with families to hear how substance use disorders have 
directly affected their lives.
    It is because of these stories that I plan to introduce 
legislation that would direct the Department of Health and 
Human Services to create a public electronic database of 
information relating to nationwide efforts to combat the opioid 
crisis.
    The database would serve as a central location of 
information for the public and others to track Federal funding 
allocations made available for research and treatment of opioid 
abuse, find research relating to opioid abuse from all Federal 
agencies, State, local, and Tribal governments as well as 
nonprofits, law enforcement, medical experts, public health 
educators, and research institutes.
    Furthermore, the legislation would charge HHS to evaluate a 
myriad of issues relating to pain management, addiction, 
prescription guidelines, treatments, trends and patterns, and 
effective solutions to problems used across the country.
    These findings would be available on the database as well 
and HHS would be instructed to offer recommendations for 
targeted areas of improvement.
    I believe that with the help of HHS and other relevant 
agencies this database will allow for easier access of 
information, funding streams, and relevant data that can help 
to combat the opioid abuse epidemic across our Nation.
    With 11 people dying every day in Ohio and over 91 
Americans dying nationwide every day, we have run out of time 
to find a solution to this crisis. We need action now.
    I appreciate the committee for holding this forum to 
express creative ideas and solutions and hope it leads to more 
lives being saved.
    Mr. Chairman, I appreciate the opportunity to be here, and 
I yield back the balance of my time.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Opioid abuse and addiction has caused devastation in every 
community, and Ohio has been hit especially hard.
    In 2016, Ohio lost at least 4,050 people from unintentional 
drug overdose. That's a 32 percent increase from the previous 
year and 11 deaths a day.
    For comparison, in 2016, there were 1,133 traffic 
fatalities in my State. That means drug overdoses caused nearly 
4 times as many deaths compared to traffic accidents.
    These figures are heartbreaking and it's sad to know that 
this problem isn't getting any better. Many coroners say that 
2017's overdose fatalities are outpacing 2016's.
    This problem knows no limits and has affected husbands, 
wives, children, brothers, sisters, fathers, and mothers. It 
has destroyed marriages, ruined careers, and cut lives far too 
short.
    I frequently read obituaries in my local newspaper, and 
over the past year or two I started to notice a pattern of 
younger individuals without a cause of death. I soon realized 
that no cause was listed because they had died from a drug 
overdose. This happens far too often.
    All across my district in Northwest and West Central Ohio, 
I've heard how opioid addiction impacts our communities. I've 
toured businesses, met with community leaders, and spoke with 
families to hear how substance use disorders have directly 
affected their lives.
    It's because of these stories that I plan to introduce a 
bill that will direct the Department of Health and Human 
Services to create a public electronic database of information 
relating to nationwide efforts to combat the opioid crisis.
    The database would serve as a central location of 
information for the public and others to:
    <bullet> Track Federal funding allocations made available 
for research and treatment of opioid abuse; and,
    <bullet> Find research relating to opioid abuse from all 
Federal agencies, State, local, and Tribal governments, as well 
as nonprofits, law enforcement, medical experts, public health 
educators, and research institutes.
    Furthermore, my bill would charge HHS to evaluate a myriad 
of issues relating to pain management, addiction, prescription 
guidelines, treatments, trends and patterns, and effective 
solutions and programs used across the country.
    These findings would be available on the database as well 
and HHS would be instructed to offer recommendations for 
targeted areas of improvements.
    I hope that with the experts at HHS, and other relevant 
agencies, this database will allow for easier access of 
information, funding streams, and relevant data that can help 
to combat the opioid abuse epidemic across our country.
    With 11 people dying every day in my home State of Ohio, 
and over 91 Americans dying every day nationwide, we have run 
out of time to find a solution to this crisis. We need action 
now.
    I appreciate the committee for holding this forum to 
express creative ideas and solutions, and hope it leads to 
lives being saved.

    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    The Chair wants to thank all the Members on this panel for 
your testimony. You are now excused, and we will seek the next 
panel, and I----
    Mr. Butterfield. Mr. Chairman, a parliamentary inquiry. 
Did----
    Mr. Burgess. The gentleman will state his parliamentary 
inquiry.
    Mr. Butterfield. I am not sure that is the right 
terminology. But I wanted to include into the record two 
newspaper articles that I referenced.
    Have I lost my right to do that?
    Mr. Burgess. Is the gentleman asking unanimous consent?
    Mr. Butterfield. I am. Yes, sir.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Butterfield. Thank you.
    Mr. Burgess. And the Chair now would ask that the next 
panel, which is Mr. Johnson, Mr. Welch, Leader Pelosi, and Mrs. 
Brooks.
    And, again, members of the committee are welcome to provide 
their testimony from their seated position on the dais or from 
the witness table, whichever is your preference.
    And, Mr. Johnson, I will recognize you for 3 minutes.

 STATEMENT OF HON. BILL JOHNSON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Johnson. Thank you, Mr. Chairman. I appreciate this 
discussion about an issue that is so vitally important.
    It is no secret that America is in the midst of an opioid 
crisis. Last year, in my home State of Ohio alone, about 86 
percent of overdose deaths involved an opioid.
    This epidemic can be felt in virtually every community 
across the country and today I want to share a story that will 
shed some light on some of the good work being done by people 
in my district to help combat the opioid epidemic and to 
perhaps let everyone know about some of the positive things 
that are taking place.
    Recently, I had the honor of visiting Field of Hope, a 
faith-based nonprofit treatment facility in southeastern Ohio 
that assist area families ravaged by poverty and drug abuse.
    Field of Hope Recovery House was founded by a man named 
Kevin Dennis after he witnessed his own daughter become 
addicted to opioids after she had knee surgery from a high 
school athletic injury.
    Her prescriptions ran out before her pain was managed. But, 
unfortunately, by that point, she was addicted. She ended up in 
prison several times for theft and checked into numerous rehab 
facilities before she fully recovered from addiction.
    She is now a recovery counselor at Field of Hope and is 
happily married with a child. I heard some incredibly powerful 
and touching stories during my visit to the Field of Hope 
Campus and I witnessed the good work they are doing firsthand.
    We, in Congress, and especially in this committee have an 
important role to play in supplementing and enabling the work 
being done by organizations like Field of Hope.
    On the front end, we need to develop prevention policies 
that steer people like Kevin's daughter away from opioids in 
the first place. Innovative nonopioid nonaddictive treatments 
exist today and more are on the way. But this--these innovative 
treatments are not always covered by Federal programs like 
Medicare and Medicaid.
    We should closely examine the reimbursement policies in 
place to ensure that patients have access to effective 
alternatives for pain management without the risk of addiction.
    I've also been encouraged by recent efforts by private 
payers, providers, pharmacists, and patient groups to address 
the addiction crisis through increased awareness, prescribing 
guidelines, and new treatment options. I believe Congress can 
play a role in ensuring that all prescribers are equipped with 
education in pain management so they can provide effective pain 
treatments for patients and timely intervention for those who 
are addicted.
    I look forward to continuing to work with my colleagues on 
the committee and in the House to find effective solutions to 
this scourge.
    Mr. Chairman, it is a national crisis. We need to act, and, 
with that, I yield back the balance of my time.
    [The prepared statement of Mr. Johnson follows:]

                Prepared statement of Hon. Bill Johnson

    It is no secret that the United States is in the midst of 
an opioid epidemic. Last year, in my home State of Ohio alone, 
about 86 percent of overdose deaths involved an opioid. This 
epidemic can be felt in virtually every community across the 
country; and today, I want to share a story that will shed some 
light on some of the good work being done in my district to 
help combat the opioid epidemic, and to let people know about 
some of the positives taking place.
    I had the honor of visiting Field of Hope, a faith-based, 
nonprofit, treatment facility in Southeastern Ohio that assists 
area families ravaged by poverty and drug abuse. Field of Hope 
recovery house was founded by a man named Kevin Dennis, after 
he witnessed his own daughter become addicted to opioids after 
she had knee surgery from a high school athletic injury. Her 
prescriptions ran out, but she was addicted. She ended up in 
prison several times for theft, and checked into numerous rehab 
facilities before she fully recovered from addiction. She is 
now a recovery counselor at Field of Hope, and is happily 
married with a child. I heard some incredibly powerful and 
touching stories during my visit to the Field of Hope campus, 
and I witnessed the good work they are doing firsthand.
    We in Congress, and especially in this committee, have an 
important role to play in supplementing and enabling the work 
being done by organizations like Field of Hope. On the front 
end, we need to develop prevention policies that steer people, 
like Kevin's daughter, away from opioids in the first place. 
Innovative nonopioid treatments exist today, and more are on 
the way, but are not always covered by Federal programs like 
Medicare and Medicaid. We should closely examine the 
reimbursement policies in place to ensure that patients have 
access to effective alternatives for pain management without 
the risk of addiction.
    I've also been encouraged by recent efforts by private 
payers, providers, pharmacists, and patient groups to address 
the addiction crisis through increased awareness, prescribing 
guidelines, and new treatment options. I believe Congress can 
play a role in ensuring that all prescribers are equipped with 
an education in pain management so they can provide effective 
pain treatments for patients and timely intervention for those 
who are addicted.
    I look forward to continuing to work with my colleagues on 
the committee and in the House to find effective solutions to 
this scourge.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    The Chair is then pleased to recognize the entire Vermont 
delegation. Mr. Welch, you are recognized for 3 minutes.

  STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VERMONT

    Mr. Welch. We don't have the numbers of Texas, but I 
appreciate the recognition.
    First of all, Dr. Burgess, thank you, and Mr. Green, thank 
you--your taking time to focus attention and demonstrate the 
urgency of this challenge.
    Second, this so affects us all. I mean, it's heartbreaking 
and it doesn't matter whether it's a red district or a blue 
district. It doesn't matter what your view is on the size and 
scope of Government. This is hurting people in your district, 
Dr. Burgess and Mr. Green, and in my district and my 
colleagues' here.
    In Vermont, our Governor dedicated his entire State of the 
State Address to this epidemic in 2014, and I remember at that 
time many of my colleagues asked the question, ``Peter, isn't 
this going to do bad things for the reputation of Vermont,'' 
but then acknowledged that what he was saying was true in their 
own State--in their own districts.
    So you focussing attention on it, Mr. Chairman, thank you. 
That is step number one. I can give you some statistics in 
Vermont but they would be very similar to Mr. Johnson.
    I mean, our prescription drug problems with individuals 
increased from 2,477 in 2012 by 80 percent. Heroin went from 
913 in 2012 and increased to 3,488--a 380 percent increase. 
Every one of those stories is a story of family heartache.
    I mean, I got a letter from a mom whose 27-year-old son 
became addicted to heroin and just the story about him being 
homeless, him going from being a full time working person to 
being out on the street, him--her having to call her daughters, 
saying that their brother may soon be dead--all of that is real 
and all to vivid.
    So this is an enormous challenge. Our job in Congress is to 
come up with some policies that are going to help people help 
themselves and I would like to make a few suggestions of things 
that we need to do.
    Number one, we do have to have funding. We have to have 
full funding for the Comprehensive Addiction and Recovery Act, 
and we've got to find the money in order to allow our 
communities to do that work.
    Two, we have to have more research into alternative 
treatment. I am working with Mr. McKinley to try to get the 
Comprehensive Addiction and Recovery Act to find better 
alternatives to treat pain.
    Three, let us allow for partial filling of opioid 
subscriptions. Many of us have signed letters that would allow 
that to happen.
    Four, let's support the recent action by Commissioner 
Gottlieb. He has done some good things. Immediate release--he 
is trying to get immediate release opioid manufacturers to 
follow a more stringent set of REMS requirements which includes 
training doctors to safely prescribe these drugs.
    So this hearing is tremendous--focusing attention. The next 
step is to put this into legislative action.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Welch follows:]

                 Prepared statement of Hon. Peter Welch

    First of all, Dr. Burgess, thank you, and Mr. Green, thank 
you, you're taking time to focus attention and demonstrate the 
urgency of this challenge. Second, this so affects us all, I 
mean it's heartbreaking, and it doesn't matter if it is a red 
district or a blue district, it doesn't matter what your view 
is on the size and scope of Government. This is hurting people 
is your district Dr. Burgess and Mr. Green, and in my district 
and my colleagues' here.
    In Vermont, our Governor dedicated his entire State of the 
State address to this epidemic in 2014, and I remember at that 
time many of my colleagues asked the question `Peter, isn't 
this going to do bad things for the reputation of Vermont?' but 
then acknowledged that what he was saying was true in their own 
State, in their own districts. So you focusing attention on it 
Mr. Chairman, thank you, that is step number one.
    I can give you some statistics in Vermont, they would be 
very similar to Mr. Johnson. I mean our prescription drug 
problems with individuals increased from 2,477 in 2012 by 80 
percent, heroin went from 913 in 2012 and increased to 3,488, a 
380 percent increase. Every one of those stories is a story of 
family heartache. I mean, I got a letter from a mom whose 27-
year-old son became addicted to heroin, and just the story 
about him being homeless, him going from being a full time 
working person to being out on the street, her having to call 
her daughters saying that their brother may soon be dead. All 
of that is real and all too vivid. So this is an enormous 
challenge.
    Our job in Congress is to come up with some policies that 
will help people help themselves. And I'd like to make a few 
suggestions of things that we need to do. Number one, we do 
have to have funding. We have to have full funding for the 
Comprehensive Addiction and Recovery Act. And we have got to 
find the money to in order allow our communities to do that 
work. Two, we have to have more research into alternative 
treatment. I'm working with Mr. McKinley to try to get the 
Comprehensive Addiction and Recovery Act to find better 
alternatives to treat pain. Three, let's allow for partial 
filling of opioid prescriptions. Many of us have signed letters 
that would allow that to happen. Four, let's support the recent 
action by commissioner Gottlieb. He's done some good things. He 
is trying to get immediate release opioid manufacturers to 
follow a more stringent set of REMS requirements, which 
includes training doctors to safely prescribe these drugs. So, 
this hearing is tremendous, focusing attention. The next step 
is to put this into legislative action.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    The Chair recognizes the gentlelady from Indiana, Mrs. 
Brooks, for 3 minutes, please.

STATEMENT OF HON. SUSAN W. BROOKS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mrs. Brooks. Thank you, Mr. Chairman, and thank you, 
Ranking Member Green, for hosting this incredibly important 
hearing.
    Too many Americans are struggling with the crippling 
effects of drug abuse and addiction and the statistics, as we 
know, are devastating.
    According to the Indiana State Department of Health, every 
2 1A\1/2\ hours, a Hoosier is sent to the hospital for an 
opioid overdose.
    Across our State there are enough bottles of painkillers in 
circulation for nearly every Hoosier to have their own and the 
number of infants born addicted to opioids is increasing at an 
alarming rate with health care costs for these babies costing 
Indiana more than $64 million in 2014 alone.
    And as we know, like so many other States, Hoosiers are now 
more likely to die from a drug overdose than a car accident.
    When I came to Congress in 2013, I had been very focussed 
on our communities and families that this epidemic has swept 
up. And like so many of my colleagues, we have held round 
tables. We have held meetings. We have met with addicted 
individuals' families. We have been on the front line with 
prescribers, health care workers. We all agree this is a 
Federal problem and a local problem.
    Last year, we passed CARA, which included my bill to 
establish an interagency task force to review, modify, and 
update the best practices for pain management and prescribed 
pain medicine.
    HHS has already taken steps informing this task force, but 
more needs to be done. In my view, it is critical to ensure 
that the medical professionals have continuing medical 
education for the prescribing of DEA-controlled substances that 
have such a high risk of abuse.
    I am exploring options to ensure that physicians and other 
medical professionals who prescribe these schedule drugs have 
more and better education linked to the application and renewal 
of their DEA licenses.
    Professionals who prescribe and dispense opioid medications 
must have better training so that they fully understand those 
patients who, sadly, have gotten the onset of addiction due to 
what they've been prescribed and now they need even better 
education to help prevent that onset and then to help them with 
the addiction.
    Indiana is tackling our problems head on and in fact just 
yesterday Indiana University announced a new initiative called 
Responding to the Addictions Crisis. It is being led by IU's 
Dean of Nursing, Robin Newhouse. IU is committing $50 million 
over the next 5 years to collaborate with State and community 
partners to tackle this crisis.
    It is going to be one of the most comprehensive State-based 
responses and every IU campus in the State is going to be 
involved.
    It is going to focus on training and education, data 
collection and analysis, policy analysis and development, 
addiction sciences, community and workforce development.
    So major steps are being taken across our State because 
everyone has a role to play, from our prescribers to our 
medical, to our higher ed institutions.
    And I want to remind folks that DEA has a national 
prescription drug take-back day. It is approaching on October 
28th.
    It provides that safe, convenient, responsible way to 
dispose of excess prescriptions drugs so that people can get 
those drugs out of their medicine cabinets and out of our kids' 
reach. And not just kids--to adults. So there are going to be 
locations all across the country and I really encourage 
everyone because everyone has a role to play. And so October 
28th is National Take-Back Day and I hope that we get that word 
out.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mrs. Brooks follows:]

               Prepared statement of Hon. Susan W. Brooks

    Thank you, Mr. Chairman.
    Too many Americans are struggling with the crippling 
effects of drug addiction and abuse and too many families are 
grieving the loss of a loved one to an overdose. Since I joined 
Congress in 2013, I have been committed to helping people 
overcome this sweeping epidemic. According to the Indiana State 
Department of Health, every 2 1A\1/2\ hours, a Hoosier is sent 
to the hospital for an opioid overdose. Across the State there 
are enough bottles of painkillers in circulation for nearly 
every Hoosier to have their own. The number of infants born 
addicted to opioids is increasing at an alarming rate, costing 
Indiana more than $64 million in 2014 alone. Hoosiers are now 
more likely to die from a drug overdose than a car accident; 
Indiana is one of four States where the fatal drug overdose 
rate has quadrupled since 1999, ranking us 15th in the country 
in overdose fatalities.
    At home in the district, I have pursued answers to this 
epidemic through roundtables and meetings with individuals and 
families on the front lines of this crisis, prescribers and 
health workers and first responders, and community leaders. I 
have visited the neonatal intensive care unit (NICU) at Saint 
Vincent's Hospital in Indianapolis to see firsthand the 
devastating effects of infants born addicted to opioids and who 
must already fight for survival through withdrawal in their 
very first days on this earth. I meet with juvenile court 
judges and social workers whose caseloads have doubled as more 
and more children are being removed from their parents' care 
because their parents are more concerned about where to find 
their next high than the welfare of their child and it is no 
longer safe for them in their home. Indiana first responders 
tell me they are overwhelmed with the unprecedented increase in 
drug overdoses.
    Last year Congress passed the Comprehensive Addiction and 
Recovery Act which included significant resources and reforms 
to combat this crisis; the measure included my bill to 
establish an inter-agency task force to review, modify, and 
update best practices for pain management and prescribe pain 
medicine. Although we've made great strides to turn the tide of 
the epidemic, we need to do more to bring prescribers in as 
part of the solution and help educate people struggling with 
substance abuse and their families.
    Just a few months ago, I met with the Grant County 
Substance Abuse Task Force at Marion General Hospital and heard 
from community leaders how important it is to fight this crisis 
at a Federal AND local level. In order to do this, it is 
critical that our first responders have the equipment they need 
to safely respond to situations where toxic substances are 
present. We must also educate the youngest members of our 
communities of the dangers of substance abuse, and ensure our 
kids do not have access to harmful prescription drugs. As part 
of my ongoing effort to combat this crisis, I will be 
participating in the DEA's National Prescription Drug Take Back 
Day on October 28. This provides a safe, convenient, and 
responsible way to dispose of excess prescription drugs, while 
also providing an opportunity to raise awareness of the opioid 
crisis and to educate our friends, family members, and 
neighbors about the potential for abuse of medications.
    Indiana is tackling the problem head-on. I trust our State 
and local partners to do what's necessary to address this 
crisis and it is a priority for Governor Holcomb. He recently 
established a Commission to Combat Opioid Abuse and, just 
yesterday, Indiana University announced it committing an 
investment of $50 million to collaborate with State and 
community partners to tackle this crisis, making it one of the 
Nation's largest and most comprehensive State-based responses. 
Major steps are being taken across the State, proving that it 
will take everyone--from the Federal Government to individuals 
in our communities--do their part to combat this crisis.
    Thank you, Mr. Chairman, and I yield back.

    Mr. Burgess. Very well, and of course, I thank the 
gentlelady for providing the date. This hearing is being 
streamed on Facebook Live, so your information now has been 
distributed to everyone who's been tuning in this morning. So 
that is a good thing, and perhaps we can each individually try 
to make that date part of our discussions as we go through the 
rest of the month.
    I want to thank this panel for being here. You all are 
excused. I have a panel identified of Mr. Lujan, Markwayne 
Mullin of Oklahoma, Mr. Tonko, Mr. Hudson, and Mr. Kennedy.
    Again, Energy and Commerce members are advised that they 
may present from the dais or from the witness table, whichever 
is your preference.
    If you are seated at the table, we will provide a name tag 
for you. So, whenever you are ready, Mr. Lujan, you are 
recognized for 3 minutes, please.

 STATEMENT OF HON. BEN RAY LUJAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Thank you, Mr. Chairman. I thank the chairs and 
ranking members for the opportunity to discuss how New Mexico 
has been impacted by the opioid crisis.
    Five hundred and one New Mexicans died of drug overdose 
deaths in 2015. Across this country, there were 52,404 deaths 
in 2015 and more than 560,000 deaths between 1999 and 2015--a 
half a million people who missed Thanksgiving dinner or their 
daughter's softball game, who weren't able to help their son 
with math homework or kiss their spouse good night.
    That's brothers and sisters, parents and friends and 
children that we have lost too soon because in part Congress 
has not responded forcefully enough to the crisis.
    Last Congress, we did important work by passing the 
Comprehensive Addiction and Recovery Act--CARA--and 21st 
Century Cures Act. These were steps in the right direction but 
these efforts alone are not enough.
    I have heard from my community that the funding passed in 
Cures is helpful but hard to use. In part, this is because of 
the short funding period which impacts communities' ability to 
plan for the long-term and expand capacity.
    We know that in two many areas like New Mexico there are 
simply not enough people and resources. Many want help and 
can't get it.
    I am reminded of a story relayed to me by one of my 
constituents, Jay, who have stopped using heroin on his own--
who felt as if he was going into relapse and sought help at a 
local treatment facility.
    Jay was told, come back when you are using. He was turned 
away and told to come back only if he started using again 
because they lacked the capacity to treat patients who were not 
active drug users. That's simply not right.
    To really expand the treatment prevention and wraparound 
services that our constituents need, we must increase funding 
and create stability. We need to give local governments and 
organizations the ability to plan and not fear losing vital 
support from Congress.
    Most of all, we need to give constituents like Jay a place 
to go after he's fought a tough fight on his own. That's why I 
introduced the Opioid and Heroin Abuse Crisis Investment Act to 
continue the funding to combat the opioid epidemic we passed in 
21st Century Cures for an additional 5 years.
    I would welcome my colleagues' support because we 
absolutely must extend this funding for an additional 5 years 
and beyond.
    However, this still isn't enough, which is why we must look 
at new efforts to drive vital investments to help those in need 
and address the barriers to appropriate quality and accessible 
treatment.
    These barriers include a decaying rural mental health and 
substance abuse treatment infrastructure, lack of regional 
coordination of treatment resources, lack of support for rural 
physicians providing substance abuse treatment, administrative 
barriers against the most effective form of opioid abuse 
treatment, and a shortage of rural physicians who provide 
medication-assisted treatment.
    We as a committee must recognize that hoping for the best 
is not valid public policy--there is a quick fix to solve the 
opioid crisis. That is simply not true.
    We need to advance serious legislation that takes into 
account long-term planning for the Federal Government and for 
States and communities. We need to bring it to the floor of the 
House, send it to the Senate, get it passed, and to the 
president's desk.
    I fear that until we recognize this fact we will continue 
to lose brother's and sisters, parents and friends, and 
children.
    Mr. Chairman, I thank you for holding this important 
hearing and finding a way for us to work in a bipartisan 
fashion to address this important issue.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Lujan follows:]

                Prepared statement of Hon. Ben Ray Lujan

    I thank the chairs and ranking members for the opportunity 
to discuss how New Mexico has been impacted by the opioid 
crisis.
    Five hundred and one New Mexican died of drug overdoses 
deaths in 2015.
    Across this county, there were 52,404 deaths in 2015 and 
more than 560,000 deaths between 1999 and 2015.
    A half million people who missed Thanksgiving dinner, or 
their daughter's softball game. Half-a-million who weren't able 
to help their son with their math homework or kiss their spouse 
goodnight.
    That's brothers, sisters, parents, friends, and children 
that we lost too soon because, in part, Congress has not 
responded forcefully enough to this crisis.
    Last Congress, we did important work by passing the 
Comprehensive Addiction and Recovery Act (CARA), and 21st 
Century Cures Act.
    These were steps in the right direction, but these efforts 
alone are not enough.
    I've heard from my community that the funding passed in 
21st Century Cures is helpful, but hard to use. In part, this 
is because of the short funding period, which impacts 
communities' ability to plan for the long-term and expand 
capacity.
    We know that in too many areas like New Mexico, there are 
simply not enough people and resources. Many want help and 
can't get it.
    I am reminded of a story relayed to me by one of my 
constituents, Jay, who had stopped using heroin on his own, but 
felt as if he was going to relapse and sought help at a local 
treatment facility.
    Jay was turned away and told to come back only when he 
started using again, because they lacked the capacity to treat 
patients who were not active drug users. That's simply not 
right.
    To really expand the treatment, prevention, and wrap around 
services that our constituents need, we must increase funding 
and create stability.
    We need to give local governments and organizations the 
ability to plan--and not fear losing vital support from 
Congress. Most of all we need to give Jay a place to go after 
he's fought a tough fight on his own.
    That is why I introduced the Opioid and Heroin Abuse Crisis 
Investment Act to continue the funding to combat the opioid 
epidemic we passed in 21st Century Cures for an additional 5 
years. I would welcome my colleagues support because we 
absolutely must extend this funding for an additional 5 years 
and beyond.
    However, this still isn't enough, which is why we must look 
at new efforts to drive vital investments to help those in need 
and address the barriers to appropriate, quality, and 
accessible treatment.
    These barriers include a decaying rural mental health and 
substance abuse treatment infrastructure, lack of regional 
coordination of treatment resources, lack of support for rural 
physicians providing substance abuse treatment, administrative 
barriers against the most effective form of opioid abuse 
treatment, and a shortage of rural physicians who provide 
Medication Assisted Treatment.
    We as a committee must recognize that `hoping for the best' 
is not valid public policy. There is no quick-fix to solve this 
opioid epidemic.
    We need to advance serious legislation that takes into 
account long-term planning for the Federal Government, and for 
States and communities. We need to bring it to the floor of the 
House, and we need to send it to the President's desk.
    I fear that until we recognize this fact, we will continue 
to lose brothers, sisters, parents, friends, and children.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    Mr. Mullin, you are going to be recognized for 3 minutes. 
After that, we will allow the Minority Leader to be seated at 
the table and hear her testimony.
    But Mr. Mullin, go ahead for 3 minutes, please.
    Mr. Mullin. OK. Mr. Chairman, I have no problem with 
letting Ms. Pelosi go next, if she would like to.
    Mr. Burgess. If the Minority Leader is ready, then, yes, we 
will recognize you for--you are recognized.

 STATEMENT OF HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Pelosi. Thank you, Mr. Chairman. Thank you, Rep. 
Mullin, for your courtesy. I really came to listen as well as 
to convey some thoughts.
    This is only the second time I've ever testified as Leader 
or as--in that capacity because this issue rises to the level, 
as you know, of life and death. And so, with gratitude to you 
and to the ranking member, Mr. Green, for bringing us together 
in a bipartisan way on this issue that is a matter of life and 
death.
    Thank you, Mr. Burgess.
    The opioid epidemic, again, is taking a savage daily toll 
on the American people. We know that, and regardless of who 
they are or where they live, they are in every district in the 
country, as we know.
    The scourge is tearing families apart, have an impact on 
the well-being of our children, hollowing out communities. It 
has claimed the lives of tens of thousands of Americans every 
year, on average robbing 91 people of their lives each day.
    Again, just to testify to that--I know it's a matter of 
your record here. Opioid addiction is a public health 
catastrophe and is growing more dire and deadly every day.
    And I believe that it is really important for us to respond 
to this national emergency with the seriousness and urgency it 
requires. Fortunately, we have had bipartisanship in passing 
legislation--the Comprehensive Addiction and Recovery Act.
    We all came together during the bipartisan legislation that 
was passed--the 21st Century Cures Act that people were so 
happy that the addiction language was in there. That day we 
heard the stories of families so affected--break your heart--
families who had lost a child, a young teenager or 21-year-old 
or whatever within a matter of days or weeks before that 
particular signing.
    President Obama signed that legislation. But it had the 
language. It just hasn't had the money to the adequate extent 
and that, Mr. Chairman, is my appeal to you for our Democrats 
and Republicans to work together to have the funding to fund 
the key initiatives authorized in the bill.
    I do want to make a pitch for Medicaid be built on the 
progress. The ACA's Medicaid expansion has provided a vital 
lifeline for tens of thousands of Americans struggling with 
addiction.
    As Governor of Ohio, our former colleague, John Kasich, 
noted, thank God we expanded Medicaid, because that Medicaid 
money is helping to rehab people.
    Yet 19 States have not taken that step. We stand ready to 
work with you, Mr. Chairman, in good faith with Republicans to 
update and improve the ACA but we remain vigilant against 
efforts to gut Medicaid because it will create even more of a 
problem in terms of opioids, just to name one thing.
    The opiate epidemic is a challenge to the conscience of the 
entire country. We must, again, act urgently and boldly to get 
America's families the prevention treatment and recovery 
resources they need, and in that regard I said we must work 
with providers in the pharmaceutical industry to push effective 
prevention measures so we can reduce unnecessary prescriptions 
and stop this epidemic at the source.
    Knowing of your busy schedule, I will submit my entire 
statement for the record. Again, thank you for the courtesy of 
being able to testify before your committee and thank you for 
your leadership on this important issue, and thank you, Mr. 
Green, as well.
    [The prepared statement of Ms. Pelosi follows:]

                Prepared statement of Hon. Nancy Pelosi

    Thank you all for being here to shine a light on the 
devastating epidemic of opioid addiction.
    Opioid addiction is inflicting a savage daily toll on 
Americans--regardless of who they are, where they live or how 
much money they make.
    This scourge is tearing apart families and hollowing out 
communities. It is claiming the lives of tens of thousands of 
Americans every year--robbing an average of 91 people of their 
lives each day and driving down the national life expectancy.
    Opioid addiction is a public health catastrophe. And it is 
growing more dire and deadly each day.

                         Serious, Urgent Action

    We must respond to this national emergency with the 
seriousness and urgency it requires.
    We must increase funding and improve capacity, so that 
health systems and providers can offer high-quality, evidence-
based opioid addiction treatment, including medication-assisted 
treatment and recovery support services.
    It is unacceptable that our Nation lacks the capacity to 
treat nearly half of the men and women who suffer from opioid 
use disorders;
    We must also improve access to treatment--combatting the 
stigmas, cost and misperceptions that prevent people from 
accessing care.
    And we must work with providers on effective prevention 
measures--so we can limit opioid supply, and stop this epidemic 
at the source.

                              CARA Funding

    Fortunately, Congress has already created the tools to 
improve prevention and expand access to care.
    Last year, Democrats and Republicans worked together to 
pass the Comprehensive Addiction and Recovery Act--a landmark 
bill to provide the full continuum of care to those suffering 
from opioid addiction.
    But, unfortunately, the Republican Congress has so far 
failed to adequately fund the key initiatives authorized by 
this bill.
    There is no room for politics in the life-or-death fight 
against opioid addiction. We cannot shortchange the resources 
needed to fight the tragedy of opioid addiction in our country.
    Congress is appropriating billions to rebuild communities 
after natural disasters--we must show a similar commitment to 
rebuilding communities ravaged by opioids.

                         ACA Medicaid Expansion

    We must also build on the progress of the ACA's Medicaid 
expansion, which has provided a vital lifeline for tens of 
thousands of Americans struggling with opioid addiction.
    As Ohio Governor John Kasich noted, ``Thank God we expanded 
Medicaid, because that Medicaid money is helping to rehab 
people.''
    Yet, 19 States still have not taken the step of extending 
the life-saving benefits of Medicaid coverage. We must work 
with States to expand Medicaid, so we can bring urgently needed 
care to men and women fighting for their lives.
    Democrats stand ready to work in good faith with 
Republicans to update and improve the ACA. But we will remain 
vigilant against any effort to gut Medicaid or create higher 
costs for less care for families.

                                 Close

    The opioid epidemic is a challenge to the conscience of the 
entire country.
    We must act urgently and boldly to get America's families 
the prevention, treatment and recovery resources they need. 
Thank you, all, for your leadership in this fight.

    Mr. Burgess. The Chair thanks the Minority Leader for being 
here today. You are welcome to stay and listen to the testimony 
of the other Members, but we also respect your schedule, and if 
you need to leave, that is certainly understandable as well.
    But in the meantime, I will recognize Mr. Mullin for 3 
minutes.
    Ms. Pelosi. Thank you for your hospitality. I will listen. 
I will listen.
    Mr. Burgess. Well, yes, I will recognize the gentleman from 
Texas.
    Mr. Green. Thank you, Leader, for being here. But before 
Mr. Mullin testifies, Mr. Chairman, I would like to thank him 
for his work.
    Literally, when the water was going down in Houston, you 
called me and said, ``I have some churches in Tulsa who want to 
partner with your churches.''
    So we did that, and instead of having one week's worth of 
your folks from your Cherokee Nation, I think they stayed a 
month, helping my seniors and disabled clean out their 3 or 4 
feet of water in their house, and I didn't realize they had 
that drywall skills. So thank you.
    Ms. Pelosi. As one with a daughter in Houston, and 
grandchildren, I thank you as well.
    Mr. Mullin. Thank you.

    STATEMENT OF HON. MARKWAYNE MULLIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Mullin. Mr. Green, thank you. Cherokee Nation called us 
right off the bat and said, ``How can we help?,'' and we had 
churches reach out to us, and we have been very fortunate to 
work together on multiple issues here in Congress. It has been 
a friendship that carried past that and it was a--it was an 
honor to be able to help your constituents.
    Thank you, Mr. Chairman and Mr. Green, for allowing us to 
talk about such an important epidemic that is going across our 
Nation. We talk often about the opioid epidemic. But what are 
we talking about as far as how did we get here and then how do 
we go back.
    We never want to talk about taking medicine backwards. But 
I stand--I sit in front of you, from a gentleman who's had 
surgeries since I was a little boy. I was born with my hips out 
and my feet in club--in the club feet position and I started 
having surgeries very young. I also built up a very large pain 
tolerance. And I have never been one to use pain medicine.
    Now, my wife says that I am different than most. I think 
most people in this room would probably agree with that. But I 
do understand pain, and I understand the need for medicine.
    But in '96 when pain became a sense and, in my opinion, we 
let the genie out of the bottle. We started treating it like it 
was something that can be treated like a cold or the flu, and 
all we do is mask it.
    And we've seen stronger and stronger drugs coming out. 
We've seen them become controlled substance--narcotics--that we 
send home simply in a bottle with a prescription and say that 
is--that is controlled.
    Now we've seen an epidemic spread from the middle class to 
the low class to the wealthy and to our mothers and our 
fathers, to our brothers and our sisters and our coworkers.
    When do we put the genie back in the bottle? How do we 
continue to allow drugs--addictive drugs--continue to be sent 
home with our loved ones? The highest percentage of death--of 
accidental opioid deaths--are mothers--middle-age women. Most 
of them got addicted to them after birth or an elective 
surgery.
    How is that possible? How do we let it continue to move 
down that path and not say that we have to do something bold 
about this? When it's a controlled substance, why do we allow 
it to go home? Wouldn't that be better treated in the hospital?
    We talk about a lot of remedies but we have got to go back 
to where it started, and it started when we started treating it 
like a sense.
    I am very proud to be on this subcommittee. I am very proud 
that, Chairman Burgess, you are taking a very heavy interest in 
this and I am proud that Chairman Murphy had took an interest 
in this, too.
    And that is why we are proud to be able to pick up one of 
his bills. It is H.R. 3545 that will at least allow doctors 
after surgery to be able to access records to know if that 
person has an addictive behavior so we are not sending those 
type of drugs home with them.
    I look forward to continuing to work with the committee. I 
look forward to finally being able to put some type of remedy 
in bringing this to a closure and quit hurting our families 
back home, and I hope that we can approach this in a bipartisan 
approach, put politics aside, and put families first.
    Thank you. I look forward to working with you. I yield 
back.
    [The prepared statement of Mr. Mullin follows:]

              Prepared statement of Hon. Markwayne Mullin

    It's so common to hear from the media about the dysfunction 
of Washington. It's so uncommon to hear the success stories. As 
a member of the Energy and Commerce Committee, I've been 
working on legislation related to opioid abuse since March of 
2015, when our committee led a number of bipartisan initiatives 
to help address the opioid epidemic. That year, we were 
successful in passing numerous pieces of legislation through 
committee and through the House.
    In July of 2016, President Obama signed the Comprehensive 
Addiction and Recovery Act, or CARA, into law--which included 
over a dozen bills passed by the Energy and Commerce Committee. 
Our committee is a productive one and the legislation passed 
helps fight the opioid epidemic from the ground up.
    The Comprehensive Addiction and Recover Act (CARA) and the 
21st Century Cures Act offered a truly comprehensive response 
to the opioid epidemic and touches on prevention, criminal 
justice reform, access to treatment, overdose reversal, and 
recovery. The final bill included an amendment that I offered, 
which ensures that the Attorney General considers the needs of 
Native Americans, rural communities, and communities heavily 
impacted by opioid overdose deaths when awarding grants.
    Overprescribing painkillers has been a significant driver 
in the opioid and heroin epidemic, which is why CARA and CURES 
created a task force to review best practices for chronic and 
acute pain management and prescribing pain medication. It 
improved access to the overdose treatment and the opioid 
reversal drug naloxone and it expanded NIH opioid research.
    Just last week in my district, the Claremore Police 
Department used the opioid reversal drug, Narcan, for the first 
time in the field. The victim, who was found unconscious and 
admitted to using opioids, was taken to the hospital for 
further treatment after police were able to administer the 
Narcan drug. These success stories are taking place nationwide, 
thanks to CARA and CURES. I am very proud to have worked on 
CARA and CURES, but there is still more work that needs to be 
done.
    Oklahoma has been hit hard by the epidemic. Our Attorney 
General has filed a suit against opioid manufacturers, Cherokee 
Nation has filed a suit against drug distributors and 
pharmacies, and our Governor has assembled an Oklahoma 
Commission on Opioid Abuse. In 2014, Oklahoma had the 10th-
highest drug overdose death rate in the Nation. More people 
died from overdoses than in car crashes. My district also has 
two of the five counties in the entire State that have the 
highest rates of unintentional painkiller overdoses--Coal and 
Muskogee.
    We can all agree that more needs to be done to address this 
crisis, which is why I have worked with my colleague Rep. 
Katherine Clark to introduced H.R. 3528, the Every Prescription 
Conveyed Securely (EPCS) Act. The EPCS Act would direct all 
States to employ electronic prescribing for controlled 
substances (EPCS) technology for Medicare Part D transactions 
by 2020. This is a step that seven States have already taken in 
an effort to combat the crisis and better secure the 
prescription distribution chain. So far all of our policy has 
been reactive, and this policy is proactive.
    This policy prevents large amounts of opiates from ever 
reaching the addicts hands and dramatically decreases doctor 
shopping. The EPCS Act will provide real-time reporting and 
ensure that the information gathered by electronic medical 
records can be used in a meaningful way. Electronic prescribing 
solutions, currently provided by more than 20 companies, are 
used like an app on the Electronic Health Records and give 
prescribers feedback on when prescriptions are filled and with 
what drug.
    According to the Department of Justice, most illegally 
obtained prescription opioids are obtained either through 
doctor shopping, forged prescriptions, and theft, which can be 
addressed by an EPCS regime. Another piece of legislation I am 
supportive of is H.R. 3545, the Overdose Prevention and Patient 
Safety Act, also known in the Senate as Jessie's Law. This 
legislation would help put the laws governing the medical 
records of those struggling with addiction into the 21st 
Century.
    Currently, a law that was passed in 1972 still governs how 
doctors and health care professionals share alcohol or 
substance use disorder treatment records. Under this law, when 
a patient goes to receive treatment at an addiction treatment 
facility, their medical records will remain segregated from the 
patient's overall medical record. This puts the patient at 
tremendous risk because doctors can no longer know their 
patient's substance use or history of care. In the case of 
Jessie Grubb, this outdated law was fatal.
    Jessie, who was in substance use recovery, went in for 
routine surgery, and providers were informed by her parents 
that she should not be given opioids except under strict 
supervision. However, upon discharge Jessie was prescribed 50 
oxycodone pills, and the hospital pharmacy filled the 
prescription because her substance use disorder treatment 
history was not in her medical record. That night, she died as 
the result of an overdose. Doctors cannot safely treat their 
patients if they don't know the whole story. H.R. 3545 would 
prevent tragedies like Jessie's and bring the Part 2 law into 
the 21st century.
    Our committee has done good work to combat the opioid 
epidemic, but our work isn't done. We can do more. We can 
inspire more success stories, but our work starts here. I urge 
my colleagues today to support these two bills and continue our 
dedication on this committee to combating the deadly opioid 
epidemic. I yield back the remainder of my time.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Chair recognizes the gentleman from New York, Mr. Tonko, 
for 3 minutes.

STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Chair Burgess and Ranking Member 
Green, and members of the subcommittee.
    We are a nation in crisis. The opioid epidemic is wreaking 
havoc in our communities at an unprecedented scale with CDC 
estimating 64,000 dead from drug overdoses in 2016--an 
astonishing 21 percent increase from the previous year.
    This public health disaster is costing us more lives 
annually than at the peak of the AIDS epidemic--as many lives 
as gun violence and traffic accidents combined.
    If this Congress doesn't find additional solutions to turn 
the tide on the opioid epidemic, we will be complicity in this 
American tragedy.
    I am here today to offer two such legislative solutions. 
First, I introduced the Addiction Treatment Access Improvement 
Act--H.R. 3692--with my good friend, Congressman Ben Ray Lujan.
    This legislation would expand access to medication-assisted 
treatment by allowing certified nurse midwives and other 
advanced practice registered nurses to prescribe buprenorphine 
and, in addition, this legislation would codify the 2016 rule 
that allowed physicians to treat up to 275 patients with 
buprenorphine and eliminate the sunset of a provision that 
allows nonphysician providers to prescribe MAT.
    The Addiction Treatment Access Improvement Act would 
particularly benefit pregnant and post-partum women who are 
struggling with addiction and improve outcomes for the over 
13,000 infants that are born each year with neonatal abstinence 
syndrome.
    Despite the expansion of medication-assisted treatment in 
the Comprehensive Addiction and Recovery Act, there is still a 
significant shortage in treatment capacity, resulting in 
individuals waiting months, if not years, to receive effective 
addiction treatment. Only 20 percent of patients who need 
treatment for opioid use disorder are currently receiving it.
    Let me repeat that. Only 20 percent of patients who need 
treatment for opioid use disorder are currently receiving it. 
The Addiction Treatment Access Improvement Act would address 
this treatment gap and save lives.
    This committee should act on this bipartisan legislation 
without delay.
    The second bill I'd like to discuss is the Medicaid Reentry 
Act--H.R. 4005. This legislation is a targeted attempt to 
address the problem of overdose deaths that occur post-
incarceration.
    Studies have shown that individuals who are released back 
into the community post-incarceration are, roughly, eight times 
more likely to die of an overdose in the first two weeks post-
release compared to other times.
    The risk of overdose is elevated during this period due to 
reduced physiological tolerance for opioids amongst the 
incarcerated population, a lack of effective addiction 
treatment options while incarcerated, and poor care transitions 
back into the community.
    The Medicaid Reentry Act would grant States flexibility to 
restart Medicaid coverage for Medicaid-eligible individuals 30 
days pre-release.
    By allowing the Medicaid benefit to restart prior to 
release, States would be able to more readily provide effective 
addiction treatment pre-release and would allow for smoother 
transitions to community care, reducing the risk of overdose 
deaths post-release, striking an overall wiser use of scarce 
Medicaid dollars.
    Let me be clear: This legislation that I've introduced 
would not expand Medicaid eligibility in any way. It would 
simply grant States new flexibility to restart an individual's 
Medicaid benefits 30 days earlier than allowed under current 
law.
    This increased flexibility would dovetail with innovative 
reentry programs already being championed by Republicans and 
Democrats in States across our country and would give 
individuals reentering society a fighting chance to live a 
healthier drug-free life.
    Let me just end with an urgent plea for action and 
bipartisanship. I know that many of the ideas that this 
committee will hear today would, in normal times, be met with 
the typical partisan objections and end up stuck in a 
procedural morass.
    These are not normal times. When your house is on fire you 
don't look to see whether the firefighter is wearing red or 
blue uniforms before they turn their hoses on.
    If we are truly going to make a difference in this crisis 
and save lives, we have to have a big heart and an open mind.
    I thank my colleagues for their time and for their 
consideration of this legislation that I have presented and, 
again, to the chair, ranking member, and members of the 
subcommittee, thank you for offering such, you know, attention 
to a crisis that has gripped this country in severe measure.
    Thank you. I yield back.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    Thank you, Mr. Chairman.
    We are a nation in crisis. The opioid epidemic is wreaking 
havoc in our communities at an unprecedented scale, with the 
CDC estimating 64,000 dead from drug overdoses in 2016, an 
astonishing 21 percent increase from the previous year.
    This public health disaster is costing us more lives 
annually than at the peak of the AIDS epidemic--as many lives 
as gun violence and traffic accidents combined.
    If this Congress doesn't find additional solutions to turn 
the tide on the opioid epidemic, we will be complicit in this 
American tragedy.
    I'm here today to offer two such legislative solutions.
    First, I introduced the Addiction Treatment Access 
Improvement Act, H.R. 3692, with my good friend Congressman Ben 
Ray Lujan. This legislation would expand access to medication-
assisted treatment by allowing certified nurse midwives and 
other advanced practice registered nurses to prescribe 
buprenorphine. In addition, this legislation would codify the 
2016 rule that allowed physicians to treat up to 275 patients 
with buprenorphine and eliminate the sunset of a provision that 
allows nonphysician providers to prescribe MAT.
    The Addiction Treatment Access Improvement Act would 
particularly benefit pregnant and postpartum women who are 
struggling with addiction and improve outcomes for the over 
13,000 infants that are born each year with neonatal abstinence 
syndrome.
    Despite the expansion of medication-assisted treatment in 
Comprehensive Addiction and Recovery Act, there is still a 
significant shortage in treatment capacity, resulting in 
individuals waiting months or years to receive effective 
addiction treatment. Only 20 percent of patients who need 
treatment for opioid use disorder are currently receive it.
    The Addiction Treatment Access Improvement Act would 
address this treatment gap and save lives. This committee 
should act on this bipartisan legislation without delay.
    The second bill I'd like to discuss is the Medicaid Reentry 
Act, which is a targeted attempt to address the problem of 
overdose deaths that occur post-incarceration.
    Studies have shown that individuals who are released back 
into the community post-incarceration are roughly 8 times more 
likely to die of an overdose in the first two weeks post-
release compared to other times. The risk of overdose is 
elevated during this period due to reduced physiological 
tolerance for opioids among the incarcerated population, a lack 
of effective addiction treatment options while incarcerated and 
poor care transitions back into the community.
    The Medicaid Reentry Act would grant States flexibility to 
restart Medicaid coverage for Medicaid-eligible individuals 30-
days pre-release. By allowing Medicaid benefits to restart 
prior to release, States would be able to more readily provide 
effective addiction treatment pre-release and would allow for 
smoother transitions to community care, reducing the risk of 
overdose deaths post-release.
    This legislation would not expand Medicaid eligibility in 
any way, it would simply grant States new flexibility to 
restart an individual's Medicaid benefits 30-days earlier than 
allowed under current law. This increased flexibility would 
dovetail with innovative reentry programs already being 
championed by Republicans and Democrats in States across the 
country and would give individuals reentering society a 
fighting chance to live a healthier, drug-free life.
    Let me just end with an urgent plea for action and 
bipartisanship. I know that many of the ideas that this 
committee will hear today would, in normal times, be met with 
the typical partisan objections and end up stuck in a 
procedural morass.
    These are not normal times. When your house is on fire, you 
don't look to see whether the firemen are wearing red or blue 
uniforms before they turn the hoses on.
    If we are truly going to make a difference in this crisis 
and save lives we have to have a big heart and an open mind.
    I thank my colleagues for their time and for their 
consideration of the legislation I have presented.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    Chair recognizes the gentleman from North Carolina, Mr. 
Hudson, for 3 minutes, please.

STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Hudson. Thank you, Chairman Burgess and Ranking Member 
Green, for giving me the opportunity to speak on behalf of my 
constituents.
    As has been noted, the opioid epidemic is not an isolated 
issue. It is a nationwide issue and it deserves our attention. 
The New York Times noted last month that the opioid epidemic is 
killing more people per year right now than the HIV epidemic 
did at its peak in the '90s.
    These drugs do not discriminate based on gender, race, 
social class, or age, and they destroy lives, families, 
marriages, and careers.
    In my home State of North Carolina, the opioid epidemic has 
really hit hard. North Carolina is home to four cities in the 
top 25 of worst cities affected by the crisis, one of which is 
in my district, Fayetteville, North Carolina.
    One particularly devastating story that stuck with me from 
a constituent I met while touring a treatment facility last 
year in my district, he was a police captain, the son of the 
police chief in the same town, and he injured his back on the 
job and was prescribed an opioid following his surgery.
    He told me he vividly remembers the moment he became 
addicted the first time he took one of these medications. 
Within a year, he was a full-blown heroin addict. He's since 
recovered and now mentors addicts through treatment.
    Unlike many stories, this is a story with a happy ending. 
Fayetteville has become home to soldiers and veterans--or is 
the home of soldiers and veterans who have become addicted 
after being prescribed opioids for injuries sustained in combat 
or training.
    The tragedy is that the VA does not have enough inpatient 
beds to treat every veteran and so oftentimes veterans go 
without help and are forced to self-medicate by using opioids 
found on the black market.
    This is outrageous and it is unacceptable. We need to find 
real solutions so we can put an end to this heartbreak.
    I am proud to have worked last Congress with this 
committee's investigation into opioid addiction which resulted 
in the passage of both the Comprehensive Addiction and Recovery 
Act and the 21st Century Cures Act.
    These laws have made huge steps forward in the treatment 
and prevention of opioid addiction but it is clear we have work 
left to do.
    One idea I am working on is expanding access to safe ways 
to dispose of prescription drugs, particularly opioids. 
DisposeRX is a company in my district that manufacturers a 
powder that mixes with water inside the pill bottle and renders 
any unused opioids not only inaccessible and inextricable but 
also biodegradable.
    It is innovation ideas like this that we need to explore 
and I look forward to working with my colleagues on the 
committee to help treat and prevent this opioid addiction.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Hudson follows:]

               Prepared statement of Hon. Richard Hudson

    Thank you, Chairman Walden and Chairman Burgess, for giving 
me the opportunity to speak on behalf of my constituents. As 
has been noted, the opioid epidemic is not an isolated issue. 
It is a nationwide issue and it deserves our attention. The New 
York Times noted last month that the opioid epidemic is killing 
more people per year right now than the HIV epidemic did at its 
peak in the nineties. These drugs do not discriminate based on 
gender, race, social class, or age and they destroy lives, 
families, marriages, and careers.
    In my home State of North Carolina, the opioid epidemic has 
really hit hard. North Carolina is home to four cities in the 
top 25 of worst cities affected by this crisis, one of which is 
in my district, Fayetteville. One particularly devastating 
story that has stuck with me was from a constituent I met while 
touring a treatment facility in my district. He was a police 
captain--the son of a police chief in the same town--and 
injured his back on the job and was prescribed an opioid 
following surgery. He told me he vividly remembers becoming 
addicted the first time he took one of these medications. 
Within a year, he was a full blown heroin addict. He's since 
recovered and now mentors addicts going through treatment, but 
his story has an unusually happy ending.
    Fayetteville is also home to soldiers and veterans who have 
become addicted after being prescribed opioids for injuries 
sustained in combat or training. One problem with this epidemic 
is the VA does not have enough inpatient beds to treat every 
veteran so oftentimes veterans go without help and are forced 
to self-medicate by using opioids acquired on the black market. 
We need to find real solutions so we can put an end to this 
heartbreak.
    I am proud to have worked last Congress on this committee's 
investigation into the opioid addiction which resulted in the 
passage of both the Comprehensive Addiction and Recovery Act 
and the 21st Century Cures act. These laws have made huge steps 
forward in the treatment and prevention of opioid addiction, 
but it is clear we have work left to do. One idea I am working 
on is expanding access to safe ways to dispose of prescription 
drugs, particularly opioids. DisposeRx, a company in my 
district, manufactures a powder that mixes with water inside 
the pill bottle and renders any unused opioids not only 
inaccessible and inextricable, but also bio-degradable. It is 
innovative ideas like this that we need to explore and I look 
forward to working with colleagues on committee to help treat 
and prevent opioid addiction.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    Chair recognizes the gentleman from Massachusetts, Mr. 
Kennedy, for 3 minutes, please.

 STATEMENT OF HON. JOSEPH P. KENNEDY, III, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Kennedy. Thank you, Mr. Chairman, and many thanks to 
the ranking member, Mr. Green, as well for convening this 
hearing and for bringing all of us together--our colleagues 
from across the country.
    I also want to thank my colleagues that have testified 
already. Their comments, I think, are right on. I think they 
show the depth of this epidemic across the country and how it's 
affected so many in our districts from around our Nation and 
the myriad ways in which our Federal Government can help 
respond to it.
    There is no silver bullet to this but there are ideas out 
there that are, I think, genuine that have widespread support 
and that I hope will deserve this committee's attention, going 
forward.
    Addiction, as many know, is not a disease that knows 
congressional districts or State borders or electoral college 
results. It is not one that cares about how much money is in 
your bank account or asks how many children you have.
    For patients and families on the front lines of this 
epidemic today it is personal, it is painful, and it is 
petrifying.
    The question, I think, before all of us isn't is there an 
epidemic. I think you've heard from everybody today saying that 
there is.
    The question is how do we go forward. My colleagues have 
outlined some of their solutions. I wanted to touch on a couple 
of broad themes as well.
    First and foremost is Medicaid. Medicaid, as of now, covers 
about 30 percent of all nonelderly adults with an opioid 
addiction in this country--30 percent--and the 20 percent of 
opioid addicts that do not have health insurance largely stems 
from individuals in States that did not take a Medicaid 
expansion.
    This is not enough. We need to strengthen our Medicaid 
programs to ensure that everybody gets the care that they need 
when they need it.
    That means not just ensuring access to Medicaid and 
eligibility but it means fleshing out the networks that 
Medicaid provides so that you don't have the stories that so 
many of us have heard from folks around the country of even if 
they are enrolled in Medicaid that there are not providers that 
will take it, and if providers do take it that they would have 
wait months in order to get a slot to get into treatment.
    There is complex reasons for that but, in my own opinion, a 
big portion of that comes through low Medicaid reimbursement 
rates that ends up putting the burden of treatment on the backs 
of providers rather than making sure that patients get the care 
that they need.
    Second is law enforcement. Folks, we lock people up in this 
country that are sick and we need to be doing an awful lot more 
not only to make sure that that safety net for our mental 
health system is not a criminal justice system but supporting 
our first responders and police officers who end up being on 
the front lines of this epidemic and addiction epidemic across 
the country and put in an impossible place of forcing to have 
to arrest people, forcing to put themselves in danger because 
our mental health system is not robust enough.
    I was a State prosecutor. We threw people in jail that were 
sick. They would break into homes and cars to try to satiate an 
opioid epidemic--an opioid addiction because they didn't have 
anywhere else to go.
    Finally--and I will be brief, Mr. Chairman--the medical 
community. You heard Mrs. Brooks talk about education. We have 
heard folks talk about prediction of drug monitoring programs. 
We have heard folks talk about prescription guidelines. All of 
those need to be on the table.
    I, like Mr. Mullin, have had surgery before. I got in an 
argument with a surgery technician on my hospital bed who was 
trying to prescribe me pain killers that I wouldn't take 
because I am so deathly afraid of these things. That part needs 
to change.
    I look forward to working with my colleagues in the weeks 
and months ahead to try to make sure that our Government does 
take the step forward we need.
    I yield back.
    Mr. Burgess. Chair thanks the gentleman.
    Chair thanks everyone on this panel. We will allow you to 
depart, and we have a panel that will be Mr. Costello of 
Pennsylvania, Mr. Walberg of Michigan, Mr. Carter of Georgia, 
and Chairman Goodlatte of Virginia.
    And Mr. Walberg, we are doing Energy and Commerce members 
first. But with your permission, I will go to the Chairman of 
the Judiciary Committee since he has made time to be with us 
this morning.
    And Chairman Goodlatte, you are recognized for 3 minutes.

 STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Goodlatte. Mr. Chairman, Ranking Member Green, members 
of the committee, thank you very much for the opportunity to 
testify about the opioid crisis in America.
    This crisis affects Americans across all socioeconomic 
levels in all regions of the country, including in my home 
district in Virginia, and has rightfully gained the attention 
of Congress.
    According to the Northern Shenandoah Valley Substance Abuse 
Coalition, they have seen 11 opioid overdoses resulting in four 
deaths since September 20th, making 33 deaths in that portion 
of my district so far this year.
    Just recently, I met with a mother in Roanoke whose 
daughter is an opioid addict living on the streets. Her concern 
for her daughter was heartbreaking to hear.
    Sadly, I know that every Member of Congress in this room 
has heard these stories of bright futures wasted away and lives 
taken too early.
    That is why we must act to provide more tools to help 
addicts reclaim and rebuild their lives, stop drug traffickers, 
and make our communities safer.
    We at the Judiciary Committee have been pleased to work 
with the committee on Energy and Commerce in this fight to 
combat this epidemic.
    Since last year, the Judiciary Committee has passed seven 
legislative measures that address the multifaceted nature of 
the opioid epidemic.
    Notably, the Judiciary and Energy and Commerce Committees 
worked collaboratively to see the Comprehensive Opioid Abuse 
Reduction Act--CARA--signed into law last year.
    This bipartisan legislation combats the opioid epidemic by 
establishing a streamlined comprehensive opioid abuse grant 
program including vital training and resources for first 
responders and law enforcement, criminal investigations for the 
unlawful distribution of opioids, drug and other alternative 
treatment courts, and residential substance abuse treatment.
    We have also targeted those who traffic in opioids. The 
Transnational Drug Trafficking Act, which is now law, improves 
law enforcement's ability to pursue international drug 
manufacturers, brokers, and distributors in source nations.
    Federal prosecutors can now use the important tools in that 
bill to pursue foreign drug traffickers who are poisoning 
American citizens.
    Additionally, in July of this year, the Judiciary Committee 
reported favorably the Stop the Importation and Trafficking of 
Synthetic Analogs Act. It is an unfortunate reality that 
synthetic drug use and the opioid epidemic are inextricably 
linked. Heroin is regularly laced with synthetic drugs such as 
fentanyl.
    This bill ensures that our laws keep pace with the creation 
of new chemically altered drugs and provides law enforcement 
with the tools needed to keep these drugs off of our streets.
    That legislation, I believe, is currently before the Energy 
and Commerce Committee. I hope you will take a very close look 
at it and if we can pass it out of the committee I am sure it 
will pass the House with a very strong vote.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to testify. My dedication to curtailing the opioid 
crisis is unwavering and I look forward to our continued work 
together to that end.
    Thank you.
    [The prepared statement of Mr. Goodlatte follows:]

                Prepared statement of Hon. Bob Goodlatte

    Chairman Walden and Ranking Member Pallone, thank you for 
the opportunity to testify about the opioid crisis in America. 
This crisis affects Americans across all socioeconomic levels 
in all regions of the country--including in my home district in 
Virginia--and has rightfully gained the attention of Congress.
    According to the Northern Shenandoah Valley Substance Abuse 
Coalition, they have seen 11 opioid overdoses resulting in four 
deaths since September 20th--making 33 deaths in that region so 
far this year. Just recently, I met with a mother in Roanoke 
whose daughter is an opioid addict living on the streets. Her 
concern for her daughter was heartbreaking to hear.
    Sadly, I know that every Member of Congress in this room 
has heard these stories of bright futures wasted away and lives 
taken too early. That is why we must act to provide more tools 
to help addicts reclaim and rebuild their lives, stop drug 
traffickers, and make our communities safer.
    The Committee on Energy and Commerce, as well as the House 
Judiciary Committee, of which I currently serve as chair, has 
been active in the fight to combat this epidemic. Since last 
year, the Judiciary Committee has passed seven legislative 
measures that address the multifaceted nature of the opioid 
epidemic.
    Notably, the Judiciary and Energy and Commerce Committees 
worked collaboratively to see the Comprehensive Opioid Abuse 
Reduction Act signed into law last year. This bipartisan 
legislation combats the opioid epidemic by establishing a 
streamlined, comprehensive opioid abuse grant program, 
including vital training and resources for first responders and 
law enforcement, criminal investigations for the unlawful 
distribution of opioids, drug and other alternative treatment 
courts, and residential substance abuse treatment.
    We have also targeted those who traffic in opioids. The 
Transnational Drug Trafficking Act, which is now law, improves 
law enforcement's ability to pursue international drug 
manufacturers, brokers, and distributors in ``source nations.'' 
Federal prosecutors can now use the important tools in that 
bill to pursue foreign drug traffickers who are poisoning 
American citizens.
    Additionally, in July the Judiciary Committee reported 
favorably the Stop the Importation and Trafficking of Synthetic 
Analogues Act. It is an unfortunate reality that synthetic drug 
use and the opioid epidemic are inextricably linked. Heroin is 
regularly laced with synthetic drugs, such as fentanyl. This 
bill ensures that our laws keep pace with the creation of new, 
chemically altered drugs and provides law enforcement with the 
tools needed to keep these drugs off of our streets.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to testify. My dedication to curtailing the opioid 
crisis is unwavering. I look forward to our continued work 
together to that end.

    Mr. Burgess. The Chair thanks the gentleman. Thanks for 
making time to be with us on our panel today. We sincerely 
appreciate you being here. We know we have got work to do, and 
we will work together on this.
    Mr. Goodlatte. Thanks for the opportunity.
    Mr. Burgess. Mr. Walberg, you are recognized for 3 minutes, 
please.

  STATEMENT OF HON. TIM WALBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Walberg. Thank you, Mr. Chairman, and I am always 
delighted to go behind the chairman of the Judiciary Committee, 
especially since there are some of my bills in this committee.
    But let me say, Chairman Burgess and Ranking Member Green, 
I want to thank you for holding today's hearing to receive 
input from members who represent different corners of our 
country and yet the very same problem.
    Since the heroin and opioid crisis came to the forefront, I 
have heard so many devastating stories about families losing 
loved ones. I have toured recovery centers, talked with 
survivors who continue to battle addiction and ridden along 
with law enforcement to understand the challenges that they 
face in keeping our neighbourhoods safe.
    I have also met a number of amazing compassionate 
individuals--fellow citizens who have stepped up and are 
leading the fight in their communities.
    A few weeks ago, I had the opportunity to meet with a 
constituent named George Barath from Monroe County. He 
established Ryan's Hope Foundation, a nonprofit organization 
named in honor of his son who died from a heroin overdose in 
2012.
    He was only 25. Ryan's Hope funds structured long-term 
residential treatment for addicts and so far they have helped 
nearly--helped nearly 40 addicts by sending them to rehab.
    To help cover these costs, Mr. Barath has also teamed up 
with local first responders to organize a charity hockey game 
called Hockey Against Heroin.
    In Lenawee County, my own home county, the Pathways 
Recovery Engagement Center just opened its doors last week. I 
got a chance to see the center in August when it was in the 
final stages of construction.
    This recovery-based program in downtown Adrian is the 
result of a community partnership between local police and the 
county sheriff's office, Rotary Clubs, and the local hospital 
system and mental health authority.
    Ryan's Hope and the Pathways Resource Center are just two 
shining examples of constituents in my district making a 
difference. We need more community-based initiatives like these 
to get resources to those in need.
    But Congress also has more to do. One example is Jessie's 
Law, a bipartisan bill I have introduced with Congresswoman 
Debbie Dingell. It seeks to ensure that medical professionals 
are equipped to safely treat their patients and prevent 
overdose tragedies.
    It is named after Jessie Grubb, who died last year of an 
opioid overdose. Jessie had battled a heroin addiction for 
nearly 7 years but had been clean for six months. She had made 
a new life for herself in Michigan and was training for a 
marathon when an infection related to a running injury required 
her to have surgery.
    Jessie's parents told doctors that she was a recovering 
addict and shouldn't be prescribed opioids. Unfortunately, 
Jessie's discharging physician didn't know her addiction 
history and sent Jessie home with a prescription for 50 
oxycodone pills. Jessie became a sad death by overdose 
statistic.
    Jessie's law will ensure that physicians and nurses have 
access to a consenting patient's complete health information 
when making treatment decisions.
    Such information is crucial to provide a patient-centered 
care, prevent relapses, and ultimately save lives. As we work 
together to address this crisis, it is my hope the stories and 
ideas shared today will inform our efforts and ensure we pursue 
meaningful solutions to remove obstacles to care and empower 
local communities to tackle the opioid crisis head on, and I 
thank you for listening to my story.
    [The prepared statement of Mr. Walberg follows:]

                 Prepared statement of Hon. Tim Walberg

    Chairman Burgess, Ranking Member Green, I want to thank you 
for holding today's hearing to receive input from Members who 
represent different corners of our country.
    Since the heroin and opioid crisis came to the forefront, I 
have heard so many devastating stories about families losing 
loved ones. I've toured recovery centers, talked with survivors 
who continue to battle addiction, and ridden along with law 
enforcement to understand the challenges they face in keeping 
our neighborhoods safe. I've also met a number of individuals 
who have stepped up and are leading the fight in their 
communities.
    A few weeks ago, I had the opportunity to meet with a 
constituent named George Barath from Monroe County. He 
established Ryan's Hope Foundation, a nonprofit organization 
named in honor of his son who died from a heroin overdose in 
2012. He was only 25. Ryan's Hope funds a structured, long-term 
residential treatment for addicts, and so far they have helped 
send nearly 40 addicts to rehab. To help cover these costs, Mr. 
Barath has also teamed up with local first responders to 
organize a charity hockey game called ``Hockey Against 
Heroin.''
    In Lenawee County, the Pathways Recovery Engagement Center 
just opened its doors last week. I got a chance to see the 
center in August when it was in the final stages of 
construction. This recovery-based program in downtown Adrian is 
the result of a community partnership between local police and 
the county sheriff's office, rotary, and the local hospital 
system and mental health authority.
    Ryan's Hope and the Pathways Recover Center are just two 
shining examples of constituents in my district making a 
difference. We need more community-based initiatives like these 
to get resources to those in need, but Congress also has more 
to do.
    One example is a Jessie's Law, a bipartisan bill I 
introduced with Congresswoman Debbie Dingell. It seeks to 
ensure that medical professionals are equipped to safely treat 
their patients and prevent overdose tragedies.
    It's named after Jessie Grubb, who died last year of an 
opioid overdose. Jessie had battled a heroin addiction for 
nearly 7 years but had been clean for six months. She had made 
a new life for herself in Michigan and was training for a 
marathon when an infection related to a running injury required 
her to have surgery.
    Jessie's parents told doctors that she was a recovering 
addict and shouldn't be prescribed opioids. Unfortunately, 
Jessie's discharging physician didn't know her addiction 
history and sent Jessie home with a prescription for 50 
oxycodone pills.
    Jessie's Law will ensure that physicians and nurses have 
access to a consenting patient's complete health information 
when making treatment decisions. Such information is crucial to 
provide patient-centered care, prevent relapses and ultimately, 
save lives.
    As we work together to address this crisis, it is my hope 
the stories and ideas shared today will inform our efforts and 
ensure we pursue meaningful solutions that remove obstacles to 
care and empower local communities to tackle the opioid crisis 
head on.

    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman, and I believe this concludes all the Energy and 
Commerce members seeking to give testimony. If any arrive, we 
will allow them to testify as they come in.
    But I think our panel now will be Chairman Rogers, Mr. 
Marshall of Kansas, Mr. Turner, mayor of Dayton, Ohio.
    Mrs. Bustos, if you wish to join us now, that would be good 
as well. And Chairman Rogers, thank you for being here and 
being part of this discussion this morning. You are recognized, 
sir.

 STATEMENT OF HON. HAROLD ROGERS, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Rogers. Well, thank you, Mr. Chairman, and colleagues. 
Thank you for hosting us on this very, very important topic.
    Over the past 15 years, many of you have heard me advocate 
for a holistic approach to the calamity that we face, including 
enforcement, prevention, and treatment measures like those 
successfully implemented by Operation Unite in Kentucky.
    We need to further encourage regional collaboration on this 
issue that ignores lines on a map, and I hope to work with the 
committee on this issue in the future.
    Today, however, Mr. Chairman, I would like to focus on 
treatment. Despite the light we've shown on addiction, only 10 
percent of those needing treatment for alcohol or drug-related 
addiction actually receive it--10 percent.
    Underlying challenges in the treatment workforce further 
compound this lack of access. There are simply not enough 
incentives for health professionals in training to specialize 
in addiction medicine.
    Treatment professionals work in stressful environments, 
receive relatively low pay, and turn over at rates much higher 
than other health professionals.
    NIH continually pioneers research on addiction science and 
new ways to treat this chronic disease. Yet, America has only 
half the number of practising addiction specialists needed to 
put their findings in practice.
    This is a patient safety and public health calamity. 
Patients in need of addiction treatment often have access to 
specialized care in every corner of the country.
    That is why I will soon be introducing legislation with my 
colleague, Katherine Clark, to create a student loan repayment 
program for qualified substance use disorder treatment 
professionals.
    This program will not only encourage health professionals 
to pursue careers in addiction medicine but steer them towards 
areas most in need of their services.
    Though it is not a silver bullet, this bill would be 
another substantial step in the right direction and I hope to 
work with each of you, Mr. Chairman and members, to this end 
and I thank you for allowing us here today.
    I yield.
    [The prepared statement of Mr. Rogers follows:]

                Prepared statement of Hon. Harold Rogers

    Thank you, Mr. Chairman. I appreciate you holding this 
hearing to discuss Congress' continued work on opioid misuse 
and abuse. Over the past 15 years, many of you have heard me 
advocate for a holistic approach to addiction, including 
enforcement, prevention, and treatment measures like those 
successfully implemented by Operation UNITE in Kentucky. We 
need to further encourage regional collaboration on this issue 
that ignores lines on a map. I hope to work with the committee 
on this issue in the future.
    Today, however, I'd like to focus on treatment. Despite the 
light we've shone on addiction, only 10 percent of those 
needing treatment for alcohol- or drug-related addiction 
actually receive it. Underlying challenges in the treatment 
workforce further compound this lack of access.
    There are simply not enough incentives for health 
professionals in training to specialize in addiction medicine. 
Treatment professionals work in stressful environments, receive 
relatively low pay, and turnover at rates much higher than 
other health professionals. NIH continually pioneers research 
on addiction science and new ways to treat this chronic 
disease, yet America has only half the number of practicing 
addiction specialists needed to put their findings in practice.
    This is a patient safety and public health calamity. 
Patients in need of addiction treatment ought to have access to 
specialized care in every corner of this country. That is why I 
will soon be introducing legislation with my colleague 
Katherine Clark to create a student loan repayment program for 
qualified substance use disorder treatment professionals. This 
program will not only encourage health professionals to pursue 
careers in addiction medicine, but steer them towards areas 
most in need of their services.
    Though it's not a silver bullet, this bill would be another 
substantial step in the right direction. I hope to work with 
each of you to this end and I thank the chairman for having me 
today.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Will the gentleman from Georgia, an Energy and Commerce 
member, wish to join us at the table and, Mr. Carter, if you 
are ready I will recognize you for 3 minutes.

STATEMENT OF HON. EARL L. ``BUDDY'' CARTER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Carter. Thank you, Mr. Chairman and Ranking Member 
Green.
    I want to start my testimony by thanking you for holding 
today's hearing for soliciting input from Members on how to 
continue to combat this growing epidemic.
    As a pharmacist, I have always made it a priority to advise 
and assist my patients with the medications they are 
prescribed. As a community pharmacist, I develop close bonds 
with people who are often my friends and neighbors. That bond 
pushes pharmacists to always act proactively in helping their 
patients.
    One of the largest concerns I have seen is the increased 
prescribing of opioids for pain relief. We need to look at 
other options and other outlets for the treatment of pain and 
find a good medium. I believe we can work with the FDA to 
prioritize nonopioid treatments for patients and create a 
channel for the approval of those therapies.
    In addition, as it currently stands, prescribers are able 
to write up to three 30-day prescriptions or Schedule II drugs 
for patients. I believe it would be pertinent to reexamine that 
prescribing structure and look at the effectiveness of allowing 
fewer initial prescriptions and a limited number of refills 
rather than three months of prescriptions.
    Similar to that notion, allowing pharmacists to have a 
greater say in limiting the number of pills filled in a 
prescription could help to address the transition to addiction.
    For instance, limiting the fill for acute pain needs such 
as a dental procedure could help prevent an individual from 
getting hooked on opioids.
    Under CARA, a pharmacist is only able to partially fill a 
prescription with the consent of the patient or prescriber or 
in the instance it doesn't have enough stock to fully fill a 
prescription.
    A simple seven-day fill could cover their pain needs and 
keep more pills out of potential use or circulation. 
Prescription drug monitoring programs--PDMPs--are a great 
resource in combatting prescription drug abuse. But they can be 
strengthened to better curb this epidemic.
    One way to do so is to better align the data including in 
those PDMPs so that States can collaborate to create a more 
comprehensive picture of people's drug use. Further linking 
State PDMPs and including data in work flows could allow for 
more accuracy in how States monitor and respond to potential 
abuses.
    Drug take-back programs continue to expand across the 
country. Currently, at least 19 States have some form of drug 
take-back programs and 23 States have programs allowing 
pharmacists to accept unused and unwanted drugs.
    One of the most common ways in which adolescents access 
prescription drugs is through the drug cabinets of their 
parents and grandparents.
    Too often these unused pills can act as a gateway to 
further abuse by young adults. Expanding these programs through 
law enforcement pharmacies or paid-for mail programs can take 
some of these prescription drugs off the street.
    The creation of middle grounds of therapies will provide 
for alternatives that are missing in today's market. By 
facilitating research and development, we can help drive the 
expensive and time-consuming efforts needed to make those 
treatments a reality.
    Currently, there are few options left between Tylenol, 
Tramadol, and opioids, and that void is driving prescription 
decisions across the country.
    So thank you, Mr. Chairman and committee, for the 
opportunity to provide testimony here today and I look forward 
to working with everyone to tackle this issue.
    [The prepared statement of Mr. Carter follows:]

          Prepared statement of Hon. Earl L. ``Buddy'' Carter

    Chairman Burgess and Ranking Member Green, I want to start 
my testimony by thanking you for holding today's hearing and 
for soliciting input from Members on how to continue to combat 
this growing epidemic.
    As a pharmacist, I have always made it a priority to advise 
and assist my patients with the medications they are 
prescribed. As a community pharmacist, I developed close bonds 
with people who were often my friends and neighbors. That bond 
pushes pharmacists to always act proactively in helping their 
patients.
    One of the largest concerns I have seen is the increased 
prescribing of opioids for pain relief. We need to look at 
other options and other outlets for the treatment of pain and 
find a good medium. I believe we can work with the FDA to 
prioritize nonopioid treatments for patients and create a 
channel for the approval of those therapies.
    In addition, as it currently stands, prescribers are able 
to write up to three 30-day prescriptions for schedule two 
drugs for patients. I believe it would be pertinent to 
reexamine that prescribing structure and look at the 
effectiveness of allowing fewer initial prescriptions and a 
limited number of refills rather than 3 months of 
prescriptions.
    Similar to that notion, allowing pharmacists to have a 
greater say in limiting the number of pills filled in a 
prescription could help to address the transition to addiction. 
For instance, limiting the fill for acute pain needs, such as a 
dental procedure, could help prevent an individual from getting 
hooked on opioids.
    Under CARA, a pharmacist is only able to partially fill a 
prescription with the consent of the patient or prescriber or 
in the instance it doesn't have enough stock to fully fill a 
prescription. A simple, seven-day fill could cover their pain 
needs and keep more pills out of potential use or circulation.
    Prescription drug monitoring programs (PDMPs) are a great 
resource in combating the prescription drug abuse, but they can 
be strengthened to better curb this epidemic. One way to do so 
is to better align the data included in those PDMPs so that 
States can collaborate to create a more comprehensive picture 
of people's drug use. Further linking State PDMPs and including 
data and work flows could allow for more accuracy in how States 
monitor and respond to potential abuses.
    Drug take-back programs continue to expand across the 
country. Currently, at least 19 States have some form of drug 
take back programs and 23 States have programs allowing 
pharmacies to accept unused and unwanted drugs. One of the most 
common ways in which adolescents access prescription drugs is 
through the drug cabinets of their parents and grandparents. 
Too often, these unused pills can act as a gateway to further 
abuse by young adults. Expanding these programs through law 
enforcement, pharmacies, or a paid-for mail programs can take 
some of these prescriptions drugs off the street.
    The creation of a middle ground of therapies will provide 
the alternatives that are missing in today's market. By 
facilitating research and development, we can help drive the 
expensive and time-consuming efforts needed to make those 
treatments a reality. Currently, there are few options left 
between Tylenol, Tramadol and opioids and that void is driving 
prescribing decisions across the country. We have an 
opportunity to support the efforts of NIH through public-
private partnerships to address this and other issues.
    Finally, as a lifelong pharmacist, I am never short of 
amazed at how my colleagues in our profession continue to 
evolve and excel in their roles advising patients. We now have 
an opportunity to capitalize on existing progress and to work 
with the administration, the FDA, and outside groups to right 
the ship on opioid abuses. I thank the committee for the 
opportunity to provide testimony and I look forward to working 
with everyone to tackle this issue.

    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes the gentlelady from Illinois, Mrs. 
Bustos, for 3 minutes, please.

 STATEMENT OF HON. CHERI BUSTOS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mrs. Bustos. All right. Thank you, Mr. Chairman, and also 
Ranking Member Green.
    I would like to start out by telling you a story about a 
young man from my congressional district in Rockford, Illinois. 
His name is Chris Boseman. I had the good fortune of meeting 
his mother, who told me this story.
    Chris passed away in the summer of 2014 when he was only 32 
years old. He had injured his back and as a result of that his 
physician prescribed an opioid to relieve his pain. Soon after 
that, he became dependent upon those--that prescription opioid 
and found out that he could go to the street and find something 
very cheap called heroin--$10.
    So he continued the cycle of overdose, rehab, relapse, and 
he was on the right path. He enrolled in a college called Rock 
Valley College, where he was studying construction management.
    But a year after being clean, he relapsed again and ended 
up passing away. And we know stories very similar to this are 
happening all over our country.
    And I was so proud when we came together, Democrats and 
Republicans, and actually passed some meaningful legislation 
on--to help address this opioid crisis.
    One of those bills that was included in that was to care 
for infants born with an opioid dependency due to their 
parents' addiction. In fact, we received the Government 
Accountability report that my bill called for very recently, 
and it reviews and makes recommendations to care for these 
infants.
    But what it really ended up showing is that we have a very 
long way to go. The Department of Health and Human Services has 
a strategy for improving infant care, but they haven't yet put 
this into practice.
    There is not even a protocol to screen and treat these 
newborn babies who are born addicted because of their parents' 
addiction. So it further reinforces that this is not the time 
to cut Medicaid.
    Medicaid pays for four out of every five babies that are 
suffering from opioid withdrawal upon their birth. It has 
helped 1.6 million people with substance abuse disorders and 
access to treatment.
    And I just really more than anything want to make the point 
that Medicaid has to be protected and not cut.
    I want to stress one other point because of the 
congressional district that I represent and that is that the 
opioid crisis is actually worse in rural communities where the 
drug-related deaths are actually 45 percent higher.
    Rural States have higher rates of overdose, especially 
prescription opioids like the kind that Chris had been 
prescribed for his back injury.
    So, you know, we don't have the resources to fight back at 
the level that we need to. We don't have enough physicians in 
rural America.
    We don't have enough hospitals that are--with up-to-date 
technology to help with this crisis. We don't even have the 
needed transportation to reach these treatment centers.
    So that is why earlier this year I introduced bipartisan 
piece of legislation to help rural communities better leverage 
the U.S. Department of Agriculture programs to combat heroin 
and opioid use.
    So we need to continue to look at solutions that work in 
rural areas like telemedicine, which will help us overcome the 
transportation and access issues that I mentioned earlier.
    With that, Mr. Chairman, I yield back the rest of my time. 
Thank you.
    [The prepared statement of Mrs. Bustos follows:]

                Prepared statement of Hon. Cheri Bustos

    Thank you Chairman Walden and Ranking Member Pallone.
    Let me tell you about a young man from Rockford, Illinois 
named Chris Boseman.
    Chris passed away in the summer of 2014. He was 32 years 
old.
    He was a kind, tender-hearted son and brother. A back 
injury led to a painkiller prescription that he soon became 
dependent on.
    And when he could no longer fill that prescription, he 
began buying pain medication on the street.
    But as the costs added up, his dealer told him that heroin 
would give him the same effects . for only $10.
    After a continuing cycle of overdose, rehab, and relapse, 
Chris was enrolled in Rock Valley College and studying 
construction management when, after a year of being clean, he 
relapsed and died.
    This is happening every day, all across the country.
    I was proud that Congress came together last summer to pass 
legislation that helps communities address the opioid crisis.
    Which included my bill to improve care for infants born 
with an opioid dependency due to their parents' addiction.
    In fact, we just received the GAO's report that my bill 
called for.
    It reviews and makes recommendations to care for these 
infants. But really what it shows is that we have a long way to 
go.
    HHS has a strategy for improving infant care.
    But they haven't put it into practice yet.
    There is not even a protocol to screen and treat these 
newborn babies who, through no fault of their own, are 
addicted.
    Which further reinforces that this is not the time to cut 
Medicaid, which pays to treat over 80 percent--that's four out 
of every five--of our newborns suffering from opioid 
withdrawal.
    And helped 1.6 million people with substance abuse 
disorders to access treatment.
    It has dropped the uninsured rate for the mentally ill down 
to 5 percent in expansion States.
    Medicaid must be protected, not cut.
    And I want to stress another point: the opioid crisis is 
worse in rural communities, where drug-related deaths are 45 
percent higher.
    Rural States have higher rates of overdose, especially from 
prescription opioids like the kind Chris was given by his 
doctor.
    And we just don't have the resources to fight back.
    We don't have enough doctors.
    We don't have hospitals with up-to-date technology and 
services.
    And we don't have public transportation to reach the right 
treatment centers.
    That is why earlier this year I introduced bipartisan 
legislation to help rural communities better leverage USDA 
programs to combat opioid and heroin use.
    We need to continue to look at solutions that work in rural 
areas, like telemedicine, which will overcome transportation 
and access issues.
    Thank you. I am happy to yield back.

    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back.
    Chair recognizes the gentleman from Dayton, Ohio, Mr. 
Turner, for 3 minutes, please.

   STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Turner. Thank you, Chairman Burgess, Ranking Member 
Green, and members of the subcommittee. I want to thank you for 
the opportunity to appear before you today on this important 
issue.
    As the chairman said, I come from Dayton, Ohio. My counties 
in Ohio are Montgomery, Greene, and Layette, and despite our 
communities' efforts to battle the opioid epidemic for years, 
the epidemic continues to destroy my community and my 
constituents on a daily basis.
    This year, current estimates suggest that 800 people could 
die in my primary county--Montgomery County--due to opioid 
overdose. Sadly, that would more than double the 371 drug 
overdose deaths from 2016, the highest number recorded to date. 
Imagine 800 families receiving notice that someone in their 
family has died as a result of opioid overdose.
    Heartbreaking numbers like this have made Montgomery 
County, Ohio, ground zero in the fight against opioid abuse and 
addiction.
    Recently, in working in conjunction with the county sheriff 
I have called for the appointment of a Dayton area drug czar to 
help us streamline and coordinate our region's response to this 
epidemic.
    While I have worked on a local basis to help stem this 
tide, today I would like to highlight my bill, H.R. 982, the 
Reforming and Expanding Access to Treatment Act--the TREAT Act.
    As the title suggests, the TREAT Act would increase access 
to substance abuse treatment by lifting two restrictions that 
hamstring full deployment of Federal resources.
    Medicaid's Institutions for Mental Disease Exclusion States 
that facilities with more than 16 beds, like jails, are not 
eligible for reimbursement for substance abuse treatment 
services furnished to individuals who are incarcerated.
    Composing the problem, a Substance Abuse and Mental Health 
Administration Policy dating to 1995 limits the use of grants 
from its Center for Substance Abuse Treatment--CSAT--to only 
community-based treatment facilities excluding those who are 
incarcerated.
    My Treatment Act offers a common sense solution that would 
eliminate these barriers to treatment for individuals who are 
incarcerated by allowing Medicaid to reimburse for substance 
abuse treatment services furnished to individuals who are 
incarcerated. There is not reason why someone who is Medicaid 
eligible should lose their benefits the moment they become 
incarcerated.
    Limiting the SAMHSA policy that prohibits the use of grant 
funding for providing substance abuse treatment to individuals 
who are incarcerated would also assist.
    Since I first introduced the TREAT Act in November of 2015 
and then reintroduced it in this Congress it has garnered a 
broad spectrum of support from law enforcement to medical 
providers to local jurisdictions.
    The President's Commission on Combatting Drug Addiction and 
the Opioid Crisis Interim Report, which was just issued July 
31st, 2017, strongly endorsed this concept that is in the TREAT 
Act.
    The White House Commission called lifting Medicaid's IMD 
exclusions, quote, ``the single fastest way to increase 
treatment availability across the Nation, noting that every 
Governor, numerous treatment providers, parents, and nonprofit 
advocacy group organizations have urged this course of 
action.''
    Chairman Burgess, Ranking Member Green, and members of the 
subcommittee, lives are at stake. This would be an important 
step to bring treatment to those individuals who are at a time 
we have an ability to intervene in their lives.
    Thank you.
    [The prepared statement of Mr. Turner follows:]

              Prepared statement of Hon. Michael R. Turner

    Chairman Burgess, Ranking Member Green, and members of the 
subcommittee, thank you for the opportunity to appear before 
you today.
    I am Congressman Michael R. Turner, and I proudly represent 
Ohio's 10th Congressional District, which centers around the 
city of Dayton and includes Montgomery, Greene, and Fayette 
counties.
    This morning, I will briefly explain how the opioid 
epidemic is ravaging the district I serve and propose possible 
solutions to what has become a national crisis of frightening 
proportions.
    Despite battling against it for years, the heroin and 
opiate epidemic continues to destroy my community and my 
constituents on daily basis.
    This year, current estimates suggest that 800 people could 
die in Montgomery County alone due to an opiate overdose. 
Sadly, that would more than double the 371 drug overdose deaths 
from 2016, the highest number recorded to date.
    The Montgomery County morgue regularly surpasses capacity 
and has even been forced to use refrigerated trailers to house 
victims' bodies. The coroner has described what is occurring as 
a ``mass-casualty event.''
    To make matters worse, deadly synthetic opioids like 
fentanyl, which can be 50 times stronger than heroin, and 
carfentanil, which can be 5,000 times stronger, have flooded 
the Miami Valley.
    It is heartbreaking numbers and stories like these that 
have made Montgomery County, Ohio ``the overdose capital of 
America''--meaning that, per capita, more of my Montgomery 
County constituents are dying as a result of drug overdoses 
than anywhere else in the United States.
    Our struggle in southwestern Ohio mirrors that of countless 
other areas across the country--91 Americans die every day as 
the result of an opioid overdose.
    These sobering statistics paint a picture of a country 
facing an exponentially growing epidemic of opioid abuse that 
is resulting in drastic increases in addiction rates, overdose 
deaths, and incarceration. The opiate crisis is tearing apart 
families, neighborhoods, cities, and indeed our society as a 
whole.
    While I have spearheaded several initiatives--in 
conjunction with State and local partners--to stem the tide of 
the opioid epidemic, today I would like to highlight my bill 
H.R. 982, The Reforming and Expanding Access to Treatment 
(TREAT) Act.
    As the title suggests, my TREAT Act would increase access 
to substance abuse treatment by lifting archaic restrictions 
that hamstring full deployment of Federal resources.
    The concept behind my TREAT Act originated from a tour of 
my district's Greene County Jail and Green Leaf Alcohol & Drug 
Treatment Program in August 2015.
    During the visit, I discovered that individuals who are 
incarcerated cannot receive substance abuse treatment through 
Medicaid, even if they are otherwise eligible.
    This is due to Medicaid's Institutes for Mental Disease 
(IMD) exclusion, which states that facilities with more than 16 
beds--like jails--are not eligible for reimbursement for 
substance abuse treatment services furnished to individuals who 
are incarcerated.
    Compounding the problem, the Substance Abuse and Mental 
Health Administration (SAMHSA) currently prohibits the use of 
grants from its Center for Substance Abuse Treatment (CSAT) for 
substance abuse treatment services provided to individuals who 
are incarcerated. Instead, this over 20-year-old policy limits 
use of such grants to only community-based treatment 
facilities.
    These unnecessary restrictions act as obstacles, limiting 
our flexibility in how we employ the Federal resources that are 
so desperately needed to combat this growing epidemic and 
supply medical treatment to individuals suffering from 
substance abuse disorders and addiction.
    My TREAT Act offers a common-sense solution that would 
eliminate these barriers to treatment for individuals who are 
incarcerated by:
    <bullet> Allowing Medicaid to reimburse for substance abuse 
treatment services furnished to individuals who are 
incarcerated; and
    <bullet> Lifting the SAMHSA policy that prohibits the use 
of grant funding for providing substance abuse treatment to 
individuals who are incarcerated.
    Since I first introduced the TREAT Act in November 2015 and 
reintroduced it this Congress, it has garnered a broad spectrum 
of support from law enforcement to medical providers to local-
level jurisdictions.
    The President's Commission on Combating Drug Addiction and 
the Opioid Crisis' Interim Report, issued July 31, 2017, 
strongly endorsed the TREAT Act's core concept.
    The White House Commission called lifting Medicaid's IMD 
exclusion the ``single fastest way to increase treatment 
availability across the Nation,'' noting that ``every Governor, 
numerous treatment providers, parents, and nonprofit advocacy 
organizations'' have urged this course of action in an effort 
to combat the opioid epidemic.
    Chairman Burgess, Ranking Member Green, and members of the 
subcommittee, my constituents' lives and indeed the well-being 
of my entire community are at stake here, as are many of yours. 
They are under assault from an opioid epidemic, the likes of 
which have never been seen.
    My TREAT Act can help put an end to the opiate crisis-but 
it cannot wait any longer. I urge you to work with me to report 
the TREAT Act out of committee, and support its passage in the 
House of Representatives.
    Thank you for the opportunity to speak with you today, and 
I look forward to addressing any questions or concerns you may 
have.

    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    Chair recognizes the gentleman from Kansas, Dr. Marshall, 
for 3 minutes.

   STATEMENT OF HON. ROGER W. MARSHALL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mr. Marshall. Thank you, Chairman, very, very much. 
Appreciate--thank you, Chairman, for the opportunity to come 
and talk and share some of my 30 years of experience as an OB/
Gyn in rural Kansas.
    As most of the members of the committee know, 92 people die 
in this country every day. Ninety-two people die in this 
country every day from opioid addiction.
    What I wanted to do was describe a couple sentinel events. 
Why? Why did we end up in this situation? And as I--as I look 
back in these last 10 years, the number of pills that I would 
send home for a post-op patient doubled.
    For the average C-section, the average hysterectomy, all of 
a sudden each week, to get the people to that post-op visit the 
number of pills they would need literally doubled.
    So I went back to try to figure out why and how come, and 
the first thing I think of, the Patient Bill of Rights came 
about 1993 or so, and over the next 10 years, though it was a 
great document, patients suddenly began to expect that they 
should have no pain--no pain after surgery. They would come 
into the ER with a sprained ankle and expect to have no pain 
and the demand for narcotics went up and up.
    Somewhere in the early 2000s, something was introduced 
called a pain scale and they called it the fifth vital sign. It 
is probably the worst thing I've ever seen introduced in my 
medical career where they suddenly described the amount of 
pain, which is very subjective, and beyond that it eventually 
became part of a measure of how good a medicine you were 
practising, even tied to your reimbursement.
    So suddenly patients in the post-op PACU area were getting 
double and triple the medications, and then on the post-
operative floor, rather than getting Percocets every 6 hours, 
they were getting them every 4 hours and the PCA pumps 
increased doses.
    So what I am trying to say is we almost doubled the amount 
of narcotics people were getting in the hospital and then they 
wanted twice the amount to go home with as well.
    So physicians were faced with this struggle of saying well, 
I don't think you need this much, but patients becoming more 
and more in control of how many--of their own health care.
    So I think those are a couple of reasons why we ended up 
here and I think there needs to be some reeducation done. I 
would like to point towards Valley Hope at Norton, Kansas. They 
have treated over 300,000 patients over the past 50 years. They 
have kept incredible statistics. They have incredible treatment 
plans.
    And what they taught me is about a month after release--a 
month after they started their Path to Recovery that they had a 
second physiological reaction and that is when they--these 
people OD and die. People need to recognize that for a month 
that they need to have very close treatment and probably for 
two months, then even a year.
    So it's during that second episode when they--when before 
they had treatment they were taking a certain amount of heroin 
and a handful of pills and a pint of whiskey. When they 
retreated from that for a month and they went back to that same 
dose, they overdosed and stopped dying.
    We need to understand what kills people is that--that if I 
gave anybody enough morphine you would stop breathing. So they 
are unable to metabolize it. We need to recognize that that is 
a very critical moment. Treatment plans cannot last a week.
    They're going to last months and years probably. We need to 
make sure we are adequately funding outpatient treatment and 
that we are making sure that there is good follow-up at home 
and we need to reward facilities like Valley Hope who have 
great outcomes--great long-term outcomes.
    Mr. Chairman, thank you so much for taking on this task and 
look forward to working with you, as always.
    [The prepared statement of Mr. Marshall follows:]

              Prepared statement of Hon. Roger W. Marshall

    As a practicing physician for nearly 3 decades, and now a 
freshman Congressman, I have had a unique perspective from 
which to understand the causes, and to identify solutions for 
the opioid crisis we face.
    Over the last decade, it has become clear that many actions 
taken by the medical community to better-address pain, such as 
pain-scales, and stronger pain treatments for chronic diseases 
or cancer, have helped fuel an opioid epidemic that is killing 
an unprecedented number of Americans.
    While we began to improve the restrictions on prescribing 
these painkillers, tens of thousands of addicted people turned 
to street-level drugs as cheap, potent alternatives.
    Today, I don't pretend to have all the answers or solutions 
to this complex situation, but there are some simple things 
already being done that have proven successful.
    One part of the solution is quality community addiction 
treatment. For 50 years, Valley Hope in Norton, KS, has treated 
over 300,000 patients. They address substance-abuse as a 
chronic health care problem, just like you would treat 
hypertension or diabetes. They don't treat it as some sort of 
moral deficiency.
    Valley Hope also recognizes that opioid addiction has a 
second withdrawal about a month after stopping the use of 
narcotics. It is that secondary withdrawal that patients are 
most likely to overdose. Patients go back to taking the amount 
of drugs they usually took to get high. Their bodies cannot 
metabolize like they used to, and the patient overdoses and 
stops breathing.
    The key to avoiding these disasters is to maintain contact 
through weekly follow ups and outpatient checkups. The future 
treatment for opioid abuse will be found in rewarding good 
outpatient management, and institutions that pride themselves 
in low rates of readmission and relapse.
    Solving this crisis begins in the doctor's office. 
Physicians, nurses and patients must all be willing to 
understand the potential for addiction when the prescribe, 
administer or take medications.
    When we pair this understanding with capable community 
treatment, along with respect, compassion and empathy toward 
those suffering, we will have taken the first steps to overcome 
this challenge.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    The Chair recognizes the gentleman from Ohio, Chairman 
Stivers, for 3 minutes.

 STATEMENT OF HON. STEVE STIVERS, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Stivers. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing. Appreciate Ranking Member 
Green and all of you looking at solutions that--for this opioid 
crisis that is plaguing all of the communities across this 
country.
    Congressman Turner already alluded to it, but in Ohio 
opioid overdoses now exceed car accidents as the leading cause 
of death for most Ohioans.
    And there have been a lot of great ideas presented here 
today and I really have appreciated learning from many of our 
colleagues.
    I, for the last 5 years, have held opioid round tables--
drug round tables in my district to talk about solutions and we 
have come up with some ideas from the field of folks that know 
what is driving this crisis.
    And I will talk about some medical things in a second but 
the first thing I know we have to do is bring back hope and 
economic opportunity to people and I think what you are doing, 
Mr. Chairman, with regulatory reform and what we are doing with 
tax reform is going to help with that.
    But there are a lot of other things we can do. First, you 
know, the idea that came out of our round table this year was 
on evidence-based treatment. If you've been to one treatment 
facility you have been to one treatment facility, because they 
all do things differently.
    Too many of them do things that when you walk out that 
door, there is nothing tying you to the treatment anymore and 
that is a problem, and they need to--I think we should have 
evidence-based treatment.
    It should be based on the science of the day and how 
recovery works, and I think we need to build that into our 
reimbursement standards. I think that is so important.
    Dr. Marshall already talked about the second issue I want 
to bring up, which is pain as a vital sign. Every other vital 
sign you can think of--you know, your temperature, your blood 
pressure, your pulse--can be measured by a machine. Pain can't 
be measured by a machine.
    It is a subjective number and it should not be the fifth 
vital sign. It has led to our over prescribing culture in this 
country and we have to try to fix it.
    I appreciate what CMS has done to remove the reimbursement 
based on the surveys of pain management. But I think we need to 
remove pain as a vital sign.
    The third idea is encouraging alternatives. There is lots 
of ways to manage pain including acupuncture, chiropractic 
services, and other things that don't involve a pill and I 
think we need to change the culture on that.
    The fourth idea is some prescription changes and I know 
that Buddy Carter, who is a pharmacist, talked about a couple 
of these. I sponsored the partial fill legislation that was 
rolled into CARA and became law. But I believe that pharmacists 
should be empowered to authorize partial fill of opioid 
prescriptions on their own.
    And Buddy already said it, but 70 percent of the folks who 
misuse prescriptions get it at some point--bridge that 
addiction through their friends' and families' medicine 
cabinets and we have got to fix that.
    The final issue that I don't hear talked about enough is 
tapering doses. When somebody is on an opioid for about 30 
days, they have a physical addiction to it and if you talk to 
most pharmacists they will talk about a tapering does instead 
of going off cold turkey, and I think that is something we need 
to bring a culture around of having folks understand that 
because a lot of primary care physicians, Mr. Chairman, feel 
very uncomfortable with doing--issuing more prescriptions but a 
tapering does actually will reduce the physical addiction and 
actually will result in less people wanting to feed that 
addiction in other ways.
    So those are just five ideas of some proposed solutions. 
Many of my colleagues also have great ideas. I really 
appreciate, Mr. Chairman and Ranking Member, you holding this 
hearing and we are committed to working with you to driving 
this scourge of drug addiction out of this country, and I 
really appreciate what you are doing.
    I yield back.
    [The prepared statement of Mr. Stivers follows:]

                Prepared statement of Hon. Steve Stivers

    Thank you Chairman Burgess and Ranking Member Green for 
having this hearing today to discuss solutions for addressing 
the opioid crisis plaguing communities across America.
    We have seen drug overdoses surpass traffic accidents as 
the leading cause of accidental death in the United States.
    This issue affects everyone--no matter your race, income 
level, gender, or political party. We need to work together to 
curb this epidemic.

                              My District

    Ohio has been devastated by this crisis. In 2016, 4,050 
Ohioans died from an unintentional drug overdose. This was a 
32.8 Percent increase from 2015 (3,050).
    In my district alone, there were 112 overdose deaths in 
2015, according to the Ohio High Intensity Drug Trafficking 
Area.
    Because of how much this has affected my district, I have 
held roundtables for the past 5 years to bring together people 
from all sides of the issue to discuss how we can better work 
together to address this issue in Ohio.

                        Evidence-Based Treatment

    In one of my recent roundtables, we discussed how we need 
to ensure that we support only the treatments that are proven 
to work and are evidence-based.
    Based on these discussions, we have learned of a serious 
need to raise the evidenced based standards that are used in 
approving treatment programs that are largely funded by the 
Federal Government and administered at the local level.
    The Ohio Department of Mental Health and Addiction Services 
estimates that almost 500,000 Ohioans receive publicly funded 
mental health services, which includes addiction treatment, 
every year.
    Whether it be a discrepancy between accreditation 
standards, or inadequate reporting requirements, Congress 
should be ensuring that Federal funds going to Ohio, and to my 
district, are going towards treatments that are based on a 
foundation of evidence as to its efficacy.
    Simultaneously, we need to promote data collection and 
research in order to better inform our evidence-based efforts 
over time, so that we do not discourage emergent therapies and 
can justify deploying innovative approaches that can meet this 
epidemic head on.

                          Pain as a Vital Sign

    Another issue we discussed is removing pain as the fifth 
vital sign and finding ways to change the culture surrounding 
pain management and the overprescription of opioids.
    Pain being considered a vital sign can, in some cases, lead 
to the overprescribing of opioids by focusing on pain 
management instead addressing and treating the underlying 
causes of pain.
    This culture of overprescribing has also been found in 
patient-reported satisfaction scores. On these surveys, ``pain 
management'' is a section doctors and hospitals have been 
scored on.
    Poor marks in satisfaction scores can lead to lower 
reimbursements for these doctors and hospitals, and this 
attempt to manage pain, while well intentioned, created a 
perverse incentive that led to some health care professionals 
to work towards a score, rather than the best overall health of 
the patient.
    Recently, CMS has announced that they will no longer be 
directly tying these ``pain management'' questions to the 
Hospital Value-Based Purchasing Program, starting next year.
    I am encouraged by CMS's recent actions. By building upon 
these actions and working to remove the use of pain as a vital 
sign, we can remove the incentive to overprescribe opioids to 
patients, and rather focus on prescribing them when they are 
absolutely necessary. I implore the committee to learn from 
this example to ensure further policies are always focused on 
the long term health of the patient over short term benchmarks 
and quotas.

                        Encouraging Alternatives

    As we seek to change the culture of pain management, we 
also need to find ways to support and bolster alternative 
methods for treating and managing pain--outside of opioids.
    This can include treatment options such as chiropractic 
services and acupuncture.
    There is no doubt that we should ensure patients can 
receive the medicine they need, but overreliance as a quick and 
easy fix must be discouraged when there are other alternatives 
that could be used.

                          Tapering Opioid Use

    Furthermore, as you know, last year, the passage of the 
Comprehensive Addiction and Recovery Act (CARA) was one of the 
highlights in the fight against opiate addiction.
    Language from my legislation, the Reducing Unused 
Medications Act was included in the final passage of CARA. This 
bill allows for the partial fill of prescriptions at the 
request of patients or doctors, reducing the number of unused 
painkillers that can be abused or diverted.
    With more than 70 percent of adults who misuse prescription 
opioids getting them from medicine cabinets of friends or 
relatives, we needed to reduce unused medications in homes.
    Now, we need build on that legislation. One way to do that 
is to focus on supporting better education and protocols for 
physicians to taper down the dosages of prescribed opioids over 
the course of treatment.
    This approach must be specific to each patient, and we 
should be finding ways to encourage better conversations about 
pain management between patients, their doctors, and their 
pharmacists.
    I look forward to working with this committee to find 
better ways to better inform patients of resources and tools at 
their disposal--like partial fill opportunities--and giving 
physicians more freedom to address pain management at an 
individual level.

                                Closing

    There is no single legislative fix for the opioid epidemic. 
We need to keep pushing to find ways to better prevent opioid 
abuse and treat those who are suffering from addiction.
    Those are just a few of the proposed solutions I am 
advocating, and I hope I can continue working with everyone on 
this committee to craft legislation that delivers relief to 
Ohio's 15th District and all communities suffering from this 
epidemic.
    Again, I want to thank the chairman and ranking member for 
having this important hearing. I lookforward to working with 
everyone on solutions to stop the opioid epidemic in our 
country.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back, and I want to thank all of you for providing your 
testimony today.
    This panel is excused, and our next panel will be Dr. 
Wenstrup from Ohio, Mr. Schneider from Illinois, Ms. Clark from 
Massachusetts, Mr. Jeffries from New York, and Mr. Jenkins from 
West Virginia.
    And Representative Schneider, you are recognized for 3 
minutes.

STATEMENT OF HON. BRADLEY SCOTT SCHNEIDER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Schneider. Thank you. Thank you, Chairman Burgess, 
Ranking Member Green, for inviting me here today to discuss the 
epidemic of opioid addiction abuse and overdose that is 
ravaging our communities.
    I represent the people of Illinois' 10th District including 
parts of Cook and Lake Counties, and the opioid crisis has hit 
our neighbourhoods extremely hard.
    In Cook County, which includes the city of Chicago, opioid 
overdoses increased by 87.4 percent--I repeat that, 87.4 
percent--between 2013 and 2016.
    Over the same period, we witnessed a troubling increase in 
fentanyl, a synthetic opioid which is even more deadly than 
heroin and whose overdoses are often fatal.
    In the face of these challenges, I would like to recognize 
the Lake County Opioid Initiative and Chicago area Opioid Task 
Force along with other area organizations for their work to 
prevent opioid abuse, addiction, overdose, and health--and 
death, rather.
    In this epidemic, our adversary is constantly shifting. So 
must ensure our doctors are up to date with the most recent 
best practices and research for preventing and treating this 
disease.
    Earlier this year, I introduced a bill called the 
Preventing Opioid Abuse Through Continuing Education, or Opioid 
PACE Act. This bill would require providers who treat patients 
will prescription opioids for pain management to complete 12 
hours of continuing education every 3 years.
    This would be linked to renewal of the providers' Drug 
Enforcement Agency license. In an effort to cut down on over 
prescribing, the CME would focus on pain management treatment 
guidelines and best practices, early detection of opioid use 
disorder, and the treatment and management of patients with 
opioid use disorder.
    I am proud that a modified version of this bill requiring 
continuing education of medical professionals at the Department 
of Defense was included as an amendment to the NDA 
authorization.
    Our men and women in uniform are not immune from the 
damages of opioid addiction. In fact, the National Institute of 
Health reports rates of prescription opioid misuse are higher 
among service members than among civilians due to the use of 
these drugs to treat symptoms of PTSD and chronic pain.
    As we seek new legislative solutions, I urge my colleagues 
to support these programs we have in place to fight back. In 
particular, the Affordable Care Act greatly increased our 
ability to counter opioid epidemic by expanding Medicaid and 
requiring individual market policies that they would cover 
services related to treating substance use disorders.
    The States with the highest rates of drug overdose deaths 
are also the States that would suffer from a rollback of 
Medicaid expansion.
    Simply put, repealing the ACA would add fuel to the fire of 
the opioid epidemic. I urge my colleagues to consider new 
solutions to address this crisis including the Opioid PACE Act 
and preserve the programs we have in place to address this 
epidemic.
    And with that, I yield back.
    [The prepared statement of Mr. Schneider follows:]

           Prepared statement of Hon. Bradley Scott Schneider

    Thank you, Chairman Burgess and Ranking Member Green, for 
inviting me here today to discuss the epidemic of opioid 
addiction, abuse, and overdose that is ravaging our 
communities.
    I represent the people of Illinois' 10th District including 
parts of Cook and Lake Counties, and the opioid crisis has hit 
our neighborhoods hard. In 2015, there were 42 heroin-related 
deaths in Lake County, a seven-percent increase over the 
previous year. In Cook County, which includes the City of 
Chicago, opioid overdoses increased by 87.4 percent between 
2013 and 2016. Over the same period, we've witnessed a 
troubling increase in fentanyl--a synthetic opioid which is 
even more deadly than heroin and whose overdoses are often 
fatal.
    In the face of these challenges, I'd like to recognize the 
Lake County Opioid Initiative and Chicago Area Opioid Task 
Force, along with other area organizations, for their work to 
prevent opioid abuse, addiction, overdose, and death.
    In this epidemic, our adversary is constantly shifting, so 
we must ensure our doctors are up-to-date with the most recent 
best practices and research for preventing and treating this 
disease.
    Earlier this year I introduced a bill called the Preventing 
Opioid Abuse Through Continuing Education or Opioid PACE Act, 
that would require providers who treat patients with 
prescription opioids for pain management to complete 12 hours 
of continuing medical education (CME) every 3 years, linked to 
the renewal of the provider's Drug Enforcement Agency (DEA) 
license.
    In an effort to cut down on overprescribing, the CME would 
focus on pain management treatment guidelines and best 
practices, early detection of opioid use disorder, and the 
treatment and management of patients with opioid use disorder.
    I'm proud that a modified version of this bill requiring 
continuing education medical professionals at the Department of 
Defense was included as an amendment in the National Defense 
Authorization Act. Our men and women in uniform are not immune 
from the damages of opioid addiction. In fact, the National 
Institute of Health reports rates of prescription opioid misuse 
are higher among service members than among civilians due to 
the use of these drugs to treat the symptoms of PTSD and 
chronic pain.
    As we seek new legislative solutions, I urge my colleague 
to also support the programs we have in place to fight back.
    In particular, the Affordable Care Act greatly increased 
our ability to counter the opioid epidemic by expanding 
Medicaid and requiring individual market policies cover 
services related to treating substance use disorders.
    The States with the highest rates of drug overdose deaths 
are also the States that would suffer from a rollback of the 
Medicaid expansion. Simply put, repealing the ACA would add 
fuel to the fire of the opioid epidemic.
    I urge my colleagues to consider new solutions to address 
this crisis--including the Opioid PACE Act--and preserve the 
programs we have in place to counter the epidemic.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Chair recognizes Representative Jeffries from New York for 
3 minutes, please.

   STATEMENT OF HON. HAKEEM S. JEFFRIES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Jeffries. Thank you, Chairman Burgess and Ranking 
Member Green, for holding this hearing as well as for your 
leadership on this very important issue. Appreciate the 
opportunity to testify today on the Synthetic Drug Awareness 
Act of 2017--H.R. 449.
    The opioid crisis has ravaged families across the country 
without regard to zip code, income, race, religion, or gender. 
Like a malignant tumor, the opioid crisis is eating away at 
young people in urban American, rural America, as well as 
suburban America.
    One reason the opioid abuse has become so prevalent and so 
deadly is the emergence of the synthetic drug called fentanyl, 
a substance that can be 50 to 100 times stronger than morphine.
    In order to address the multifaceted public health crisis 
we confront, it's important to consider both the cause and 
effect. H.R. 449 addresses a critical and sometimes overlooked 
threat--the use of synthetic drugs by teenagers.
    It requires the surgeon general to prepare a comprehensive 
report on the public health effects of synthetic drug abuse by 
12-to-18-year-olds in America.
    With the information the study will provide, Congress can 
work to prevent substance abuse by younger Americans through an 
enhanced and enlightened lens. Nationwide, the drug overdose 
death rate has more than doubled during the past decade among 
younger Americans.
    Many experts believe this troubling phenomenon results from 
the rise and availability of potent and dangerous substances 
like illicit fentanyl and other synthetic drugs.
    Teenage fentanyl use is a vicious cycle. Adolescents have a 
still developing prefrontal cortex which can facilitate drug-
seeking behavior. The drug then alters the development of this 
area of the young brain, making that behavior permanent.
    In fact, more than 90 percent of adults who develop a 
substance abuse disorder begin using prior to the age of 18. In 
New York City, overdoses now kill more people each year than 
murder, suicides, and car crashes combined. This phenomenon we 
have seen repeated over and over again all across America.
    This bill has significant support amongst Republicans and 
Democrats and has been incorporated into the legislative agenda 
for the bipartisan Heroin Task Force. It also has support from 
a number of health and patient advocacy groups including the 
American Academy of Pediatrics, American Association of Nurse 
Practitioners, as well as the National Association of Police 
Organizations.
    Thank you again for this opportunity to testify and I 
respectfully respect committee consideration at your earliest 
convenience.
    [The prepared statement of Mr. Jeffries follows:]

             Prepared statement of Hon. Hakeem S. Jeffries

    Let me first thank the leadership of the Energy and 
Commerce Committee, Chairman Walden and Ranking Member Pallone, 
and of the Subcommittee on Health, Chairman Burgess and Ranking 
Member Green, as well as the distinguished Members of the 
Energy and Commerce Committee for holding this hearing. I 
appreciate the opportunity to testify today on the ``Synthetic 
Drug Awareness Act of 2017''-H.R. 449.
    The opioid crisis has ravaged families across the country 
without regard to zip code, income, race religion or gender. 
Like a malignant tumor, the opioid crisis is eating away at 
young people in urban, rural and suburban America. One reason 
opioid abuse has become so prevalent, and so deadly, is the 
emergence of the synthetic drug called fentanyl-a substance 
that can be 50 to 100 times stronger than morphine.
    In order to address the multifaceted public health crisis, 
we must consider both the cause and effect. H.R. 449 addresses 
a critical and sometimes overlooked threat, the use of 
synthetic drugs by teenagers. It requires the Surgeon General 
to prepare a comprehensive report on the public health effects 
of synthetic drug use by 12-to-18-year-olds in America. With 
the information this study will provide, Congress can work to 
prevent substance abuse by younger Americans through an 
enhanced and enlightened lens.
    Nationwide, the drug overdose death rate has more than 
doubled during the past decade among younger Americans.1 Many 
experts believe this troubling phenomenon results from the rise 
and availability of potent and dangerous substances like 
illicit fentanyl and other synthetic drugs.
    Teenage fentanyl use is a vicious cycle: adolescents have a 
still-developing prefrontal cortex, which can facilitate drug-
seeking behavior. The drug then alters the development of this 
area of the brain, making that behavior permanent. In fact, 
more than 90 percent of adults who develop a substance abuse 
disorder begin using before they are 18 years old.
    In New York City, overdoses kill more people each year than 
murders, suicides and car crashes combined. Between 2015 and 
2016, city officials saw a huge jump in overdose-related 
deaths, with more than eight in ten involving an opioid, a 
trend driven by fentanyl.3
    This bill has significant support among Republicans and 
Democrats and has been incorporated into the legislative agenda 
for the Bipartisan Heroin Task Force. Furthermore, a number of 
health and patient advocacy groups are supportive of this bill, 
including the American Academy of Pediatrics, American 
Association of Nurse Practitioners, American Academy of Child & 
Adolescent Psychiatry, American Psychological Association, 
College on Problems of Drug Dependence, Community Anti-Drug 
Coalitions of America, Friends of the National Institute on 
Drug Abuse, Healthy Teen Network, Mental Health America, 
National Association of County and City Health Officials and 
National Association of Police Organizations.
    Thank you again for the opportunity to testify today, and I 
respectfully request committee consideration of the ``Synthetic 
Drug Awareness Act'' at the earliest possible time.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Chair recognizes the gentleman from West Virginia, Mr. 
Jenkins, for 3 minutes, please.

STATEMENT OF HON. EVAN H. JENKINS, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Jenkins. Thank you so much, Chairman Burgess, Ranking 
Member Green, and members of the subcommittee for giving me the 
opportunity to discuss this most challenging public health and 
safety issue of our time.
    My home State of West Virginia is ground zero for the 
opioid epidemic. West Virginia has the Nation's highest 
overdose rate and the highest rate of newborns exposed to 
opioids and other drugs known as neonatal abstinence syndrome, 
or NAS.
    From this tragic epidemic, however, has come an exceptional 
response from communities across my State coming together to 
find solutions. One shining example is Lilly's Place, a unique 
facility that specializes in treating newborns suffering from 
NAS.
    I was proud to work with two NICU nurses and a passionate 
community leader to start Lilly's Place after they saw, we saw, 
the dramatic rise in newborns with NAS. Lilly's Place has been 
operating for 3 years and has cared for more than 190 precious 
newborns.
    Lilly's Place has brought national attention to West 
Virginia solutions. Just yesterday, the First Lady, Melania 
Trump, visited Lilly's Place in my hometown of Huntington to 
talk with the caregivers about helping the most vulnerable in 
our society. Lilly's Place provides a great environment with 
are given by doctors and nurses in a nurturing setting 
conducive to recovery.
    Mothers and families are included in the healing process. 
Lilly's Place and others advocating for this model of care had 
struggles dealing with CMS, making it harder to replicate this 
model.
    That led to my introduction of the Nurturing and Supporting 
Healthy Babies Act. Last year through this committee's work my 
legislation was incorporated in CARA, which, of course, became 
law and was passed. Thank you for your work.
    My legislation requiring GAO to closely look at the 
different care models for NAS and Medicaid coverage and the GAO 
report was just released last week.
    It found that nonhospital settings like Lilly's Place are a 
proven model of care to treat NAS newborns. It identified this 
model of care as a proven effective treatment approach and can 
actually reduce the cost of care.
    Here is my ask. I would encourage this committee to advance 
two measures critical to the care of these precious newborns. 
First, I have sponsored the CRIB Act pending before this 
committee with Congressman Mike Turner which makes sure these 
models of care are included in nonhospital treatment facilities 
are recognized by Medicaid to remove the barriers.
    Second, based on the GAO report, I ask you, working with 
me--this committee--to memorialize in legislation the 
recommendations in this report and have these become law so 
these precious newborns can receive the very best possible 
care.
    Thank you, Mr. Chairman, for your interest in this issue, 
and I yield back.
    [The prepared statement of Mr. Jenkins follows:]

               Prepared statement of Hon. Evan H. Jenkins

    Thank you, Chairman Burgess, Ranking Member Green, and 
members of the subcommittee, for giving me the opportunity to 
discuss the most challenging public health crisis of our time. 
States and communities across this country have been dealing 
with the ravages of opioid and drug addiction. This is not a 
rural or urban problem, it is a crisis that has hit cities and 
small towns alike.
    West Virginia has been ground zero for the opioid epidemic. 
The statistics speak for themselves. West Virginia has the 
highest overdose death rate, we have the highest rate of 
newborns exposed to opioids and other drugs known as Neonatal 
Abstinence Syndrome or NAS, and the lowest workforce 
participation rate.
    But from this tragic epidemic has come an exceptional 
response from communities across my home State. Communities 
have come together to find solutions and they are working to 
get their communities healthy again.
    One of the most shining examples is Lily's Place, a unique 
stand-alone facility that specializes in treating newborns 
suffering from NAS in a clinically appropriate setting. I was 
proud to have worked with two NICU nurses to start Lily's Place 
after they had seen a dramatic rise in newborns with NAS at the 
local hospital.
    Lily's Place has brought national attention to West 
Virginia solutions, being featured in a number of news stories. 
Just yesterday, First Lady, Melania Trump, visited Lily's Place 
in West Virginia to talk with caregivers helping the most 
vulnerable in our society, newborns suffering from NAS.
    Lily's Place provides a perfect environment for newborns 
suffering from NAS, with a low lit, low stimulus environment 
with doctors and nurses providing care. Lily's Place has become 
a model for its ability to treat newborns, and Lily's Place 
includes the mothers and families in the healing process.
    Last year, with the tireless work of the Energy and 
Commerce Committee, Congress passed and the President signed 
the Comprehensive Addiction and Recovery Act or CARA. I was 
honored to have my legislation, the Nurturing and Supporting 
Healthy Babies Act included in the package of bills. This 
legislation required the GAO to take a close look at the 
different care models for NAS and how NAS is covered by 
Medicaid. I thank the members of this committee for working 
with me to further our understanding of how best to take care 
of newborns with NAS.
    The GAO report released last week, had important 
information and a number of key findings in it. Part of what we 
have learned from the GAO report is that nonhospital settings 
are sometimes a better alternative to the NICU for the care 
that NAS newborns need. The report identified and took a close 
look at different care models and how the best practices at 
nonhospital settings can actually reduce costs of care.
    I have sponsored legislation, the CRIB Act, with 
Congressman Mike Turner which makes sure that these nonhospital 
settings are recognized by Medicaid to remove this barrier to 
care for NAS newborns. This legislation would clear the 
confusion at CMS on how to certify these facilities and as to 
what a nonhospital NAS treatment center is.
    The GAO report also highlighted that the Department of 
Health and Human Services has a number of recommendations they 
developed but HHS does not have a clear strategy or timeline 
for implementing these recommendations. I am working on 
legislation to make sure HHS develops a clear timeline and 
begins implementing a number of these recommendations. This 
legislation will give the needed push to HHS so we can help the 
newborns that are most impacted by the opioid epidemic start 
their lives happy and healthy.
    We have a unique opportunity to continue the strong 
bipartisan work on addressing the opioid epidemic and these two 
pieces of legislation can continue this effort. I look forward 
to working with the committee to bring these two pieces of 
legislation to the House floor and send them to the President's 
desk.
    Caring for the most vulnerable impacted by the opioid 
crisis is a truly noble cause and one that we can all come 
together to support.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Dr. Wenstrup, you are recognized for 3 minutes, please.

    STATEMENT OF HON. BRAD R. WENSTRUP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Wenstrup. Well, thank you, Chairman Burgess and Ranking 
Member Green, for hosting this today, and I mean that 
sincerely. We are hearing a lot of good ideas and it gives us a 
lot of food for thought.
    But the opioid crisis is affecting each and every one of 
our districts across the country. That is very obvious, and I 
appreciate the chance to come and speak today and share with 
you some stories from Ohio's 2nd District.
    My office recently sent a survey to the constituents of our 
district and we asked them to share their stories and 
experiences with the opioid epidemic, and the results are 
heartbreaking, as you might imagine.
    We received hundreds of responses--up to seven pages of 
responses, and I just want to share a couple of those with you.
    One said, ``My brother, unfortunately, became addicted as a 
teenager. He is very lucky, because at 33 years old he's still 
here but he is still fighting every day to stay sober. These 
drugs have no place in our country. They are ruining our youth, 
our future.''
    Another one--a woman said, ``I have four boys and three of 
them are struggling with this addiction. The cost of going to a 
methadone clinic is very difficult. The cost of treatment 
facilities is too expensive. I am going broke trying to get my 
children sober.''
    Clearly, this epidemic is devastating for southern Ohio as 
it is across the country. In one county alone, the overdose 
death rate was 37.5 per 100,000 residents and in another county 
318 residents died of an intentional drug overdose in just--in 
2016.
    This spring, the Columbus Dispatch reported at least 4,149 
Ohioans died from an unintentional drug overdose in 2016 and 
one local newspaper called the overdoses the new normal in that 
county.
    I appreciate what Dr. Marshall had to say earlier. As a 
doctor, I can agree with him on many of the factors that have 
driven so many people into addiction, and I would really like 
for us to talk sometime about prevention, which I think is the 
long-term vision for our country.
    I can tell you as a doctor I had someone come up to me just 
last year and say, ``My friend wanted me to thank you if I met 
you,'' and I said, ``Why is that?`` He said, ``Because she was 
addicted to prescription pain meds, and when she came to you, 
you gave her alternatives, and you didn't give her any.''
    We search for answers. We are all searching for answers. 
One of the sheriffs in my district, he's working hard on the 
solution and he's using prevention because he said, I can't 
incarcerate our way out of this.
    But he did show me what one patient received on Medicaid in 
a year--what one patient in one year received from Medicaid as 
far as narcotics, and I promise you it was more than I 
prescribed in my entire surgical practice in a year.
    And then he showed me what Medicaid paid for it. And so 
while I understand that Medicaid is providing help and care for 
a lot of people, it may be driving the problem as well, because 
as some are getting treatment, many are getting fed and the 
problem is being exacerbated and we need to look at that and 
there needs to be better oversight of how we are handling this.
    This sheriff directs an essay contest, asking local 
students to write an essay about the dangers of opioids and how 
they hope to become the generation to stop the epidemic.
    As I said before, he said he can't incarcerate his way out 
of this. We can't always treat our way out of this. But I hope 
that we take some time in this process for a long-term vision 
of how we can prevent people from ever getting in this 
situation to begin with.
    And with that, I yield back, and I thank you for your time 
and attention today.
    [The prepared statement of Mr. Wenstrup follows:]

              Prepared statement of Hon. Brad R. Wenstrup

    Thank you, Health Subcommittee Chairman Burgess and Health 
Subcommittee Ranking Member Green, for hosting this Member Day 
today. The opioid crisis is affecting each and every one of our 
districts across the country, so I appreciate the opportunity 
to come and speak to you today, along with my colleagues, and 
share with you some stories from Ohio's 2nd District.
    My office recently sent a survey to the constituents of 
Ohio's 2nd District, asking them to share their stories and 
experiences with the opioid epidemic. The results are 
heartbreaking. We received hundreds of responses--all telling 
the same stories. I wanted to just read aloud a few of them for 
you.
    One woman wrote, ``My brother unfortunately became addicted 
as a teenager. He is a very lucky one at 33 years old he is 
still fighting every day to stay sober. These drugs have no 
place in our country. They are ruining our youth, our future.''
    Another said, ``My daughter is currently in rehab for 
heroin addiction; she's destroyed several relationships with 
various members of our family, I am raising her 18-month-old 
son and she's been in and out of jail for several years and 
she's only 27. She's overdosed at least once that I know about 
and has been physically and emotionally abused by a boyfriend. 
I am terrified that she won't live to see 30 and that her son 
will never know the sweet and caring person she was/is when not 
high.''
    Another constituent shared, ``I have 4 boys and 3 of them 
are struggling with this addiction.the cost of going to a 
methadone clinic is very difficult.the cost of treatment 
facilities is too expensive.I am going broke trying to get my 
children sober.''
    Clearly, this epidemic is devastating for Southern Ohio, as 
it is across the country. In one county in Ohio alone, the 
overdose death rate was 37.5 per 100,000 residents. In another 
county, 318 residents died of an unintentional drug overdose in 
2016. This spring, the Columbus Dispatch reported that at least 
4,149 Ohioans died from unintentional drug overdoses in 2016. 
One local newspaper called the overdoses the ``new normal'' in 
that county.
    As we search for solutions to this crisis, I hope you'll 
keep this in mind: Adams County Sheriff Kimmy Rogers, in my 
district, is working hard on a key part of this solution: 
prevention. He runs an after-school program at a local church 
that teaches young kids about the dangers of drugs and opioids. 
He also runs an essay contest, asking local students to write 
an essay about the dangers of opioids and how they hope to 
become the generation to stop the epidemic. When I asked 
Sherriff Rogers about these programs, he said we can't 
incarcerate our way out of this problem. We can't always treat 
our way out of this. But I hope we take some time in this 
process for a long-term vision of how we can prevent people 
from every getting in this situation to begin with.
    With that, I yield back, and I thank you for your time and 
attention today.

    Mr. Green [presiding]. Thank you.
    The Chair, in absence, is recognizing Congresswoman Clark.

   STATEMENT OF HON. KATHERINE M. CLARK, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Ms. Clark. Thank you, Ranking Member Green, and thank you 
to you and to Chairman Burgess for holding this Member Day 
today.
    We are all here because we lose 91 Americans a day to the 
opioid epidemic and every one of those 91 deaths affects not 
only the victim but also their loved ones, their workplace, and 
their community.
    Now is the time for us to come together and find solutions 
to end this national health emergency. And with that in mind, I 
would like to speak in favor of four common sense proposals 
that I am leading, each with a great Republican partner, aimed 
at addressing a different aspect of the opioid epidemic.
    The first is the Youth Act, which I introduced with my 
colleague from Indiana, Dr. Bucshon. The opioid epidemic has 
had a tragic impact on our young people. From harmful changes 
in brain and social development to long gaps in education and 
job training, the effects can be profound.
    The Youth Act would expand access to evidence-based 
medication-assisted treatment for adolescents and young adults, 
giving them the best possible chance at recovery.
    The second proposal is the Prescriber Support Act, which I 
introduced with my colleague, Congressman Evan Jenkins. 
Tragically, opioid addiction often begins in the doctor's 
office where patients are often prescribed more medication than 
they need or without being informed about the risks of 
addiction.
    The Prescriber Support Act would establish State-based 
resources for prescribers to consult when making decisions 
about prescribing opioids.
    Third, I recently the Every Prescription Conveyed Securely 
Act with my colleague from Oklahoma, Congressman Mullin. This 
proposal would ensure that all prescriptions for controlled 
substances filled through Medicare Part D would be transmitted 
electronically.
    Electronic transmission would help doctors and pharmacists 
spot patients attempting to doctor shop and it would make 
more--make it more difficult to forge a prescription, all the 
while saving taxpayer dollars.
    Finally, I will soon be introducing a bill with my 
colleague from Kentucky, Congressman Hal Rogers, that will 
create a student loan forgiveness program for professionals who 
enter and stay in the substance use treatment field.
    In my district, I have heard time and time again from 
families and providers that there simply aren't enough 
treatment specialists available to help the growing number of 
Americans struggling with substance use disorder.
    Our bill will help build this critical work force. There is 
no single solution to the opioid crisis. However, these four 
bipartisan solutions can help put us on a path to beating this 
epidemic.
    I thank the chairman and the ranking member for giving us 
this opportunity to have this conversation, and I look forward 
to working together.
    I yield back.
    [The prepared statement of Ms. Clark follows:]

             Prepared statement of Hon. Katherine M. Clark

    Thank you, Mr. Chairman.
    I'd first like to thank you, Chairman Burgess and Ranking 
Member Green, for holding this Member Day today.
    The opioid epidemic claims the lives of 91 Americans a day.
    Every one of those 91 deaths affects not only the victim 
who has lost their life, but also their loved ones, their 
workplace, and their community.
    Now is the time for us to come together and find solutions 
to end this national health emergency.
    With that in mind, I would like to speak in favor of four 
common-sense proposals that I am leading, each with a great 
Republican partner and aimed at addressing a different aspect 
of the opioid epidemic.
    The first is the YOUTH Act, which I introduced with my 
colleague from Indiana, Dr. Buchson.
    The opioid epidemic has had a tragic impact on our young 
people.
    From harmful changes in brain and social development, to 
long gaps in education and job training-the effects can be 
profound.
    The YOUTH Act would expand access to evidence-based 
medication assisted treatment for adolescents and young adults, 
giving them the best possible chance at recovery.
    The second proposal is the Prescriber Support Act, which I 
introduced with my colleague, Congressman Jenkins.
    Tragically, opioid addiction often begins in a doctor's 
office, where patients are often prescribed more medication 
than they need, or without being informed about the risks of 
addiction.
    The Prescriber Support Act would establish State-based 
resources for prescribers to consult when making decisions 
about prescribing opioids.
    Third, I recently introduced the Every Prescription 
Conveyed Securely Act with my colleague from Oklahoma, 
Congressman Mullin.
    This proposal would ensure that all prescriptions for 
controlled substances filledthrough Medicare part D would be 
transmitted electronically.
    Electronic transmission would help doctors and pharmacists 
spot patients attempting to doctor-shop, and it would make it 
more difficult to forge a prescription-all while saving 
taxpayer dollars.
    Finally, I will soon be introducing a bill with my 
colleague from Kentucky, Congressman Hal Rogers, that will 
create a student loan forgiveness program for professionals who 
enter, and stay, in the substance use treatment field.
    In my district, I have heard time and time again from 
families and providers that there simply aren't enough 
treatment specialists available to help the growing number of 
Americans struggling with substance use disorder.
    Our bill will help build this critical workforce.
    There is no single solution to the opioid crisis.However, 
these four bipartisan solutions can help put us on a path to 
beating this epidemic.
    I thank the chairman and the ranking member for giving us 
the opportunity to have this conversation, and I look forward 
to working together.

    Mr. Burgess [presiding]. Chair thanks the gentlelady. 
Gentlelady yields back.
    The gentlelady from Connecticut, Ms. Esty, is recognized 
for 3 minutes, please.

   STATEMENT OF HON. ELIZABETH H. ESTY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Ms. Esty. Thank you, Mr. Chairman--Chairman Burgess and 
Ranking Member Green. Thank you so much for holding this 
important hearing on the growing opioid epidemic.
    Everywhere I go in Connecticut, I meet people whose 
families have lost loved ones to drug addiction--moms and dads, 
sons and daughters, brothers and sisters. It is an epidemic 
that affects families and communities across the country 
regardless of age, race, gender, socioeconomic status.
    During one of my visits recently to Staywell Oasis--it's an 
addiction treatment center in Waterbury--I met a young woman 
who has been struggling on the streets with addiction.
    She has a new child and she is so grateful to be in a 
program that is allowing her to stay clean and helping her keep 
her child.
    I met a 45-year-old man in the Farrell Treatment Center in 
New Britain who for 20 years has been battling his addiction 
and is finally coming to terms with it and able to hold a 
steady job.
    These are real people, real families, and real lives that 
are affected by this crisis, and the stakes are high. If these 
vital treatment centers are forced to close their doors or if 
we limit access to them, people will die.
    In my home town of Cheshire, a neighbor whose daughter was 
a classmate of one of my children contacted the office. They 
had lost track of their daughter.
    She had been on the streets, addicted to drugs. We were 
able to help them find her. She wouldn't accept the treatment, 
and a week later she was dead.
    That's what it's like now in America. The situation is so 
dire in Connecticut that our chief medical examiner lost its 
accreditation. They cannot keep up with the autopsies.
    We are expecting more than a thousand deaths this year. 
That is the third-highest rate in the country. They literally 
cannot keep up with the autopsies. We need to do something and 
this Congress needs to act.
    I am pleased at our good bipartisan work last year. My bill 
of the Prevent Drug Addiction Act of 2016 was included as part 
of the conference committee in our good bipartisan work to 
ensure that we are addressing the issues of prevention with 
many of my colleagues have addressed here today--both provider 
education on how to prescribe as well as for parents, coaches, 
and others who need to be aware of the risks of prescription 
drugs.
    But there is important--there is important work at stake 
and I do want to say something about the Affordable Care Act. 
We need to protect the funding, which is providing vital access 
for people across America, and we are real risk now as we 
consider that funding and whether the Medicaid access will be 
cut off, which is funding so many of the important programs in 
my State.
    So again, I want to thank this committee for the good work 
and encourage all of our members to come together and help 
address this vital need--this growing epidemic that is 
affecting all Americans.
    Thank you, and I yield back.
    [The prepared statement of Ms. Esty follows:]

              Prepared statement of Hon. Elizabeth H. Esty

    Mr. Chair, thank you for holding this hearing on the 
growing opioid epidemic.
    This epidemic is literally filling the morgues across our 
country.
    Everywhere I go in Connecticut, I meet people whose 
families have lost loved ones to drug addiction--moms and dads, 
sons and daughters, brothers and sisters.
    It's an epidemic that affects families and communities 
across the country--regardless of age, sex, race, or socio-
economic status.
    During one of my recent visits to Staywell Oasis, an 
addiction treatment center in Waterbury, I met a young woman 
who has a new baby and is so grateful for the help that the 
program is providing for her.
    She emphasized to me how important Staywell is for her--
that the it is is keeping her clean and off the streets so that 
she can keep her baby.
    Or there's the 45-year-old man that I met at Farrell 
Treatment Center in New Britain who is getting his 20-year 
battle with opioids under control for the first time.
    These are real people, real families, and real lives that 
are affected by the opioid crisis.
    And the stakes are high.
    If these vital treatment centers are forced to close their 
doors, or if we limit access to them, people will die.
    In my hometown of Cheshire, one of my neighbors came to my 
office pleading for help--they could not find their daughter.
    Their daughter had been battling substance addiction for 
years.
    The family did ultimately find their daughter, but it was 
too late.
    She died weeks later without the care and treatment she so 
desperately needed.
    This is how dire the situation is: In our State, the Office 
of the Chief Medical Examiner actually lost its accreditation 
because it simply could not keep up with the body count, due to 
the sharp rise of drug overdose deaths in Connecticut.
    Connecticut's Chief Medical Examiner projected that 
Connecticut will hit a devastating benchmark this year: More 
than 1,000 people will die from opioid overdoses in our State 
alone before the end of the year.
    The medical examiner's office simply cannot keep up with 
the demand for autopsies on the rising number of people who are 
dying from drug overdoses.
    Congress needs to act, and it needs to act now, to save 
lives.
    Instead of finding ways to hire more medical examiners to 
keep up with the rocketing death toll, Congress needs to work 
together to come up with commonsense solutions to end this 
devastating epidemic.
    Last year, I was proud to help write a landmark, bipartisan 
bill to improve resources for cities and towns to address this 
crisis and to create new consumer and provider education 
campaigns to encourage prevention.
    The funding in this bill was not everything our communities 
need--but it was an important step forward.
    The State Targeted Response to the Opioid Crisis Grant 
program, created by the 21st Century Cures Act, provided $1 
billion over the next 2 years to States to address the opioid 
epidemic.
    These grants help support programs for people struggling 
with addiction at places like the Farrell Treatment Center in 
New Britain, the Staywell Oasis Addiction Treatment Center in 
Waterbury, or the McCall Center for Behavioral Health in 
Torrington, provide life-lines to people struggling with 
addiction.
    At the same time, we must ensure that the millions of 
Americans with substance use disorders who currently get 
treatment through Medicaid expansion are able to continue to 
get the care they need.
    The recent, misguided efforts to repeal the Affordable Care 
Act and defund Medicaid expansion would have cut over $800 
billion from the Medicaid program, removing access to treatment 
for low-income people with mental and substance use disorders.
    I am heartened that you have invited me here today to talk 
about how this devastating epidemic is affecting my district, 
and I am committed to continuing to partner with my colleagues 
in Congress to prevent more lives from being taken by the 
opioid epidemic and to help those suffering from addiction to 
recover and move forward.
    Thank you.

    Mr. Burgess. Chair thanks the gentlelady. The gentlelady 
yields back.
    The Chair recognizes the gentlelady from Utah, Mrs. Love, 
for 3 minutes, please.

  STATEMENT OF HON. MIA B. LOVE, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mrs. Love. Thank you, Mr. Chairman, for such--talking about 
such an issue, and I would like to thank the Ranking Member 
Green also for giving us the opportunity to speak about the 
opioid epidemic and crisis.
    Nationwide, the rate of deaths has exploded to over--over 
the last 10 years to now more than 60,000 deaths every year. In 
Utah, the Department of Health says that more people are dying 
from opioid and heroin overdose than ever before.
    Six people die from opioid overdose per year. Alarming 
increases from 2013 to 2015. Utah is seventh-highest for those 
deaths per capita in the United States.
    Here is what hits me the hardest is the innocent children 
that are being affected by the opioid epidemic. In too many 
cases, parents are no longer parents. Their children are 
parenting themselves and the parents are now slaves to their 
addiction.
    This is actually happening in Elk Ridge, Utah, a place 
where--which is just a few minutes away from my home. There is 
a boy who is in 3rd grade who talks about his life with his 
mom, who is addicted, and his stepfather, who is addicted.
    He talks about waking up by himself and getting himself 
ready for school and also getting his brother ready for school 
and his newborn sister. He makes breakfast for them and 
prepares a bottle for his newborn baby, who is his sister.
    He talks about the fact that many times he misses the bus 
when he's going to school because he is taking care of his 
brother and sister and there is no one to take him to school.
    His brother cries, asking for his mom and dad, and he, as a 
3-year-old has to try to explain to his brother why Mom and Dad 
aren't around.
    That's not the end of his story. His newborn sister is 
actually addicted to opioids because his mother took the drugs 
while she was pregnant, and while in the hospital, for fear of 
getting caught, she actually took opioids and would rub it on 
the gums of her baby so that the baby wouldn't show signs of 
withdrawal.
    This is what is happening in America. This story is not 
unique to Utah. It is happening everywhere. The parents are now 
in jail. They were arrested for trying to return stolen 
merchandise at the local Wal-Mart and neglect of their 
children.
    But I have to say that the children's lives aren't better 
now without mom and dad. Their nightmare is just beginning. So 
I feel very strongly about this. At a time where there is so 
much partisan politics, this is an issue where so many of us 
are standing together.
    I believe that American democracy is at its best when two 
people are in a room and talk about what they are for, and here 
we are, in a room talking about what we are for.
    I am so proud that we are actually coming together, but 
coming together is not enough. We actually have to apply some 
of these solutions that we are talking about when it comes to 
the crisis, and I think the opportunity to--I am thankful for 
the opportunity to work on this.
    Thank you, and I yield back.
    [The prepared statement of Mrs. Love follows:]

                 Prepared statement of Hon. Mia B. Love

    I appreciate the opportunity to speak on this epidemic of 
the Opioid Crisis, and I appreciate the efforts of everyone 
here. To fight this public health crisis, we must work 
together. I pledge to do whatever I can to assist in that 
effort, because Utah is being hit especially hard by opioid 
abuse and death.
    I am humbled by the raw fact and statistics regarding this 
in my State:
    <bullet> The Utah Department of Health says that 24 
individuals die from prescription opioid overdoses every month 
in Utah. A growing number of people are dying from heroin 
overdoses.
    <bullet> The rate of these deaths has exploded over the 
last 10 years. I would say it's out of control. The National 
institute on Drug Abuse reports that there are more than 60,000 
death per in year in our country from prescription and heroin 
use. Utah is in the top five for those types of death per 
capita.
    I don't like to see anyone suffer and die from the 
miserable cycle of drug dependency and abuse.
    And here's what hits me the hardest: Innocent children are 
being affected by this epidemic.
    In too many cases, parents are no longer parents, they're 
drug addicts. Their children are doing the parenting 
themselves, and for their brothers and sisters.
    I recently learned of a case in Elk Ridge, Utah, which is 
just minutes from my home.
    There, a boy in the 3rd grade told the story of life with 
his mom and stepdad: Waking up by himself, making breakfast and 
dinner for his 2-year-old brother and newborn sister. About 
missing the bus, with no one to take him to school. Of his 
brother crying because his mom and dad weren't there.
    Mom and Dad were on heroin: That's why they weren't there.
    And that's not the end of the story.
    That boy's sister--the newborn baby--was born addicted to 
opioids, because her mother was using while she was pregnant. 
After she was born, to hide the baby's withdrawal symptoms from 
the hospital staff, the parents rubbed crushed opioids on the 
child's gums.
    The parents are now in jail-arrested trying to return 
stolen merchandise for money at the local Wal-Mart. And for 
child abuse and neglect.
    Those kids are just an example of the toll this epidemic is 
taking.
    But there are those in my State that are taking steps to 
deal with it. Utah's Intermountain Healthcare has set a goal to 
reduce opioid prescribing by 40 per cent in its 22 hospitals 
and 180 clinics by the end of next year.
    I applaud this effort, but it's obviously just one piece of 
a larger puzzle.
    We need to put those pieces together for our children, for 
ourselves, and for the future of the United States of America.

    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back.
    Let me take the New Jersey delegation in seniority, and, 
Mr. Pascrell, I will go to you first for 3 minutes.

   STATEMENT OF HON. BILL PASCRELL, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Thank you, Chairman Burgess, Ranking Member 
Green.
    I don't have to tell you or anyone here that opiate abuse 
and misuse is one of our country's fastest growing problems. It 
is also one of the most vexing problems we face and there are 
no simple solutions.
    Prescription drugs serve a valid medical purpose. But many 
of them carry high risk of addiction and abuse. Many of my 
colleagues have good ideas about steps we can take to address 
opiate abuse and misuse. So I commend you for giving us the 
opportunity to share them.
    Today, I would like to share some information about a 
program that was developed and is in use at my hometown 
hospital, St. Joseph's Regional Medical Center in Paterson, New 
Jersey.
    As the busiest emergency department in the State of New 
Jersey, St. Joe's commitment to reducing abuse can serve, I 
believe, as a model for emergency departments across the State 
an across the country. We need to recognize that emergency 
departments are in a unique position with respect to 
prescription drug abuse.
    On one hand, a component of many of their patients' 
treatment involves acute pain that legitimately needs to be 
addressed. But emergency departments, because of the short-term 
nature of the care they provide, are also more susceptible to 
doctor shopping than many other health settings.
    To prevent addiction, where it often starts with a valid 
prescription in the emergency room, St. Jo's initiated a first-
of-its-kind Alternatives to Opioids, or ALTO--ALTO program, the 
Alternatives to Opiates.
    This new approach utilizes protocols primarily targeting 
five common conditions. The alternative therapies offered 
through St. Jo's ALTO program include targeted nonopiate 
medications, trigger point injections, nitrous oxide, 
ultrasound-guided nerve blocks to tailor patient pain 
management needs, and avoid opiates whenever possible.
    In the first year of operations, this program decreased 
emergency department opiate prescriptions by more then 50 
percent. The goal is not to eliminate opiates altogether 
because these drugs remain an important part of pain 
management.
    However, the ALTO program reserves their use for severe 
pain, end-of-life pain, surgical conditions. That's it. As a 
result, only about 25 percent of the acute pain patients 
treated with nonopiate protocols since the program's launch, 
eventually needed opiates.
    I believe that the initial successes of this program make 
it very important that we--to have a broader implementation and 
study. I leave this to your discretion.
    That is why Senator Booker and I plan to introduce 
legislation to establish a national demonstration program to 
test pain management protocols that limit the use of opiates in 
hospital-based emergency departments.
    It is my hope that strategies that provide alternatives to 
opiates can become a larger part of the discussion on how to 
combat this--the opiate epidemic and that this committee will 
review and consider my legislation upon its introduction.
    And with that, Mr. Chairman, Mr. Ranking Member, I yield 
back to you.
    [The prepared statement of Mr. Pascrell follows:]

             Prepared statement of Hon. Bill Pascrell, Jr.

    Chairman Burgess, Ranking Member Green, thank you for 
holding this hearing today. I don't have to tell you or anyone 
here that opioid abuse and misuse is one of our country's 
fastest-growing problems. It is also one of the most vexing 
problems we face; and there are no simple answers. Prescription 
drugs serve a valid medical purpose, but many of them carry a 
high risk of addiction and abuse. Many of my colleagues have 
good ideas about steps we can take to address opioid abuse and 
misuse, so I commend you for giving us the opportunity to share 
them.
    Today, I would like to share some information about a 
program that was developed and is in-use at my hometown 
hospital St. Joseph's Regional Medical Center in Paterson, New 
Jersey. As the busiest emergency department in the State of New 
Jersey, St. Joe's commitment to reducing abuse can serve as a 
model for emergency departments across the State and across the 
country.
    We need to recognize that emergency departments are in a 
unique position with respect to prescription drug abuse. On one 
hand, a component of many of their patients' treatment involves 
acute pain that legitimately needs to be addressed. But 
emergency departments--because of the short-term nature of the 
care they provide--are also more susceptible to doctor shopping 
than many other health care settings.
    To prevent addiction where it often starts--with a valid 
prescription in the emergency room--St. Joe's initiated a 
first-of-its kind Alternatives to Opioids (ALTO) program. This 
new approach utilizes protocols primarily targeting five common 
conditions. The alternative therapies offered through the St. 
Joe's ALTO program include targeted nonopioid medications, 
trigger point injections, nitrous oxide, and ultrasound guided 
nerve blocks to tailor patient pain management needs and avoid 
opioids whenever possible.
    In the first year of operations, the ALTO program decreased 
Emergency Department opioid prescriptions by more than 50 
percent. The goal is not to eliminate opioids altogether, 
because these drugs remain an important part of pain 
management. However, the ALTO program reserves their use for 
severe pain, end of life pain, and surgical conditions. As a 
result, only about 25 percent of the acute pain patients 
treated with nonopioid protocols since the program's launch 
eventually needed opioids.
    I believe that the initial successes of this program make 
it worthy of broader implementation and study. That is why 
Senator Booker and I plan to introduce legislation to establish 
a national demonstration program to test pain management 
protocols that limit the use of opioids in hospital-based 
emergency departments.
    It is my hope that strategies that provide alternatives to 
opioids can become a larger part of the discussion on how to 
combat the opioid epidemic; and that this committee will review 
and consider my legislation upon its introduction.
    Thank you.

    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    Mr. MacArthur, you are recognized for 3 minutes, please.

    STATEMENT OF HON. THOMAS MACARTHUR, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. MacArthur. Well, I thank the Chairman Burgess and 
Ranking Member Green for hosting this opportunity today for 
those of us not on this committee to share our thoughts.
    We have all seen the numbers. Last year, over 60,000 deaths 
from overdose, opioids involved in the vast majority of those.
    In Ocean County, New Jersey, my home county, we are losing 
somebody every 43 hours. A couple of weeks ago, my county was 
designated a high-intensity drug trafficking area--desperately 
needed, but also disturbing sign of where we are.
    It may be unusual for a member to sit here and promote 
other people's bills, even bills written by the other party. 
But as the Republican cochairman of the bipartisan Heroin Task 
Force, representing over 90 members of both parties, that is 
exactly what I am here to do today.
    As your committee considers legislative next steps to 
pursue, I want to recommend the bipartisan Heroin Task Force's 
legislative agenda for your consideration.
    We are committed to being rigorously bipartisan. We did not 
include any bills in our agenda unless it had bipartisan 
cosponsors and both the Republican and the Democratic cochairs 
agreed to it.
    Five of the bills that were recommended fall within your 
jurisdiction. Representative Tim Walberg's Jessie's Law will 
ensure that doctors have access to a consenting patient's prior 
history of addiction so they can make informed decisions.
    Representative David Joyce's Stop OD Act will increase 
first responders' access to Narcan and synthetic opioid 
testing. Representative Hakeem Jeffries' Synthetic Drug 
Awareness Act requires that we investigate how the synthetic 
opioid crisis is affecting young people specifically.
    Representative Evan Jenkins' CRIB Act will ensure treatment 
for babies with neonatal abstinence syndrome, and 
Representative Brian Fitzpatrick's Road to Recovery Act 
addresses the IMD exclusion, which is one of the primary 
barriers preventing access to substance abuse treatment.
    We are proud of our members' work. I would also note that 
many of our agenda ideas coincide with the White House's Opioid 
Commission's recommendations and I also note the good work 
being done by the Republican Main Street on this same issue.
    On behalf of my Democratic cochair, Representative Annie 
Kuster, our vice chairs, Donald Norcross and Brian Fitzpatrick, 
and our 90-plus members, I urge you to consider these bills.
    We will continue to expand and update our legislative 
agenda as we tackle this critical issue facing our country.
    Thank you, and I yield back.
    [The prepared statement of Mr. MacArthur follows:]

              Prepared statement of Hon. Thomas MacArthur

    Mr. Chairman, Ranking Member:
    Thank you for the opportunity to testify. We have all seen 
the numbers--drug overdose deaths have increased from 52,000 in 
2015 to an estimated 64,000 last year, with opioids involved in 
the majority of those deaths. In Ocean County, New Jersey--my 
home county--someone dies of an overdose, on average, once 
every 43 hours. So thank you for the committee's work on this 
incredibly important subject.
    It may be unusual for a Member to sit here and promote 
other people's bills, even bills written by the other party, 
but as the Republican cochairman of the Bipartisan Heroin Task 
Force, representing over 90 members of both parties, that is 
exactly what I'm here to do.
    As the committee considers legislative next steps to 
pursue, I want to recommend the Bipartisan Heroin Task Force's 
legislative agenda for your consideration. We are committed to 
being rigorously bipartisan--we did not include a bill on this 
agenda unless it had bipartisan cosponsors and unless the 
bipartisan chairs all agreed to it. Five of these bills fall 
under your jurisdiction:
    <bullet> Rep. Tim Walberg's Jessie's Law, which would help 
ensure doctors have access to a consenting patient's prior 
history of addiction in order to make fully informed treatment 
decisions.
    <bullet> Rep. David Joyce's STOP OD Act, which would expand 
efforts to prevent addiction, promote treatment and recovery, 
and increase first responders' access to Naloxone and synthetic 
opioid testing.
    <bullet> Rep. Hakeem Jeffries' Synthetic Drug Awareness 
Act, which requires that we investigate how the synthetic 
opioid crisis is affecting young people specifically.
    <bullet> Rep. Evan Jenkin's CRIB Act, which would help 
increase access to treatment for babies with neonatal 
abstinence syndrome (NAS) due to exposure to opioids during 
pregnancy.
    <bullet> And Rep. Brian Fitzpatrick's Road to Recovery Act, 
which would address the IMD exclusion, which we all recognize 
as one of primary barriers preventing access to substance abuse 
treatment.
    We're proud of our members' work, and I would also note 
that many our agenda's ideas coincide with the White House 
Opioid's Commission's recommendations. I also note the good 
work being done by Republican Main Street on this issue--many 
of the bills they recommend are also on our agenda.
    On behalf of my Democratic cochair, Rep. Annie Kuster, our 
Vice Chairs Donald Norcross and Brian Fitzpatrick, and our 90-
plus members, I urge you to consider these bills. We'll 
continue to expand and update our legislative agenda as we 
tackle additional critical topics like PDMPs and prescriber 
education, and we stand ready to work with committee staff 
however we can to promote good legislation that addresses all 
aspects of this devastating epidemic.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    Chair recognizes the gentleman from Arizona, Mr. 
O'Halleran, for 3 minutes, please.

STATEMENT OF HON. TOM O'HALLERAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. O'Halleran. Chairman Burgess, Ranking Member Green, and 
members of the committee, thank you for allowing me to come 
before you today to testify on an issue that has had a 
devastating impact on my district.
    I want to, first of all, echo the sentiments of 
Representative MacArthur. I am also on the task force.
    At least two Arizonans die every day from opioid overdoses. 
Last year, deaths due to opioids rose 16 percent from the year 
before.
    As a former law enforcement officer, some of what I see 
today is familiar from my time serving communities--the 
harrowing stories of addiction, the pain family members face 
including child abuse, domestic abuse, and the loss of a loved 
one, and also the relationship to organized crime.
    But I must tell you that what we are seeing today, the 
devastation that opioids have wrought on our communities is far 
more impactful than the drugs I fought to keep off the streets 
when I was a cop.
    Over the summer, I held a round table in my district on 
opioids. I heard from families, first responders, local law 
enforcement, and health care providers.
    I am here today to bring their voices to you as we commit 
to tackling this issue in a bipartisan and comprehensive way.
    As you work to develop policies to combat this epidemic, I 
implore you to consider the impacts to rural communities and to 
tribal communities, which face unique obstacles and barriers to 
treatment, care, and recovery resources.
    According to the CDC, American Indian and Alaska natives 
have the highest death rates from opioids than any other 
community. American Indians and Alaska natives have long faced 
disparities when it comes to resources for mental health care 
and substance abuse.
    That's why funding created by the 21st Century Cures Act, 
in addition to expanded Medicaid coverage in Arizona, have been 
crucial in helping families get the care they need.
    As many of your know, access to crucial healthcare services 
in rural communities and across Indian country can be scarce 
and often requires families to travel long distances.
    Providers in rural America have benefited from expanded 
Medicaid coverage and are now seeing lower rates of uninsured 
patients than before.
    In fact, in States that expanded Medicaid, the share of 
uninsured substance use or mental health disorder 
hospitalizations fell from 20 percent in 2013 to 5 percent in 
2015.
    The increase in coverage has allowed rural providers to 
operate on the thinnest of margins, to help keep their lights 
on and their doors open. If Congress repeals that coverage, 
rural providers will close their doors and patients who need 
the help will face fewer choices.
    We need to give States, local law enforcement, and tribes 
more resources and more flexibility to test what works. But we 
must approach this problem comprehensively and with a robust 
commitment to those we represent.
    I urge your committee to thoughtfully consider these issues 
and how they affect communities across rural and tribal 
communities. Those voices must be heard when it comes to this 
crisis.
    And I thank you, and I yield.
    [The prepared statement of Mr. O'Halleran follows:]

               Prepared statement of Hon. Tom O'Halleran

    Chairman Walden, Ranking Member Pallone, and members of the 
committee:
    Thank you for allowing me to come before you today to 
testify on an issue that has had a devastating impact in my 
district.
    At least two Arizonans die every day from opioid overdoses. 
Last year, deaths due to opioids rose 16 percent from the year 
before.
    As a former law enforcement officer, some of what I see 
today is familiar from my time serving communities: the 
harrowing stories of addiction, the pain family members face, 
and the relationship to organized crime.
    But I must tell you that what we're seeing today--the 
devastation that opioids have wrought on our communities--is 
far scarier than the drugs I fought to keep off the streets 
when I was a cop.
    Over the summer, I held a roundtable in my district on 
opioids. I heard from families, first responders, local law 
enforcement, and health care providers. I'm here today to bring 
their voices to you as we commit to tackling this issue in a 
bipartisan and comprehensive way.
    As you work to develop policies to combat this epidemic, I 
implore you to consider the impacts to rural communities and to 
tribal communities, which face unique obstacles and barriers to 
treatment, care, and recovery resources.
    According to the CDC, American Indian and Alaska Natives 
have the highest death rates from opioids than any other 
community.
    American Indian and Alaska Natives have long faced 
disparities when it comes to resources for mental health care 
and substance abuse.
    That's why funding created by the 21st Century Cures Act, 
in addition to expanded Medicaid coverage in Arizona have been 
crucial in helping families get the care they need.
    As many of you know, access to critical health care 
services in rural communities and across Indian Country can be 
scarce, and often requires families to travel long distances.
    Providers in rural America have benefitted from expanded 
Medicaid coverage, and are now seeing lower rates of uninsured 
patients than before. In fact, in States that expanded 
Medicaid, the share of uninsured substance use or mental health 
disorder hospitalizations fell from 20 percent in 2013 to about 
5 percent in 2015.
    The increase in coverage has allowed rural providers, who 
operate on the thinnest of margins, to help keep their lights 
on and their doors open. In communities across my district, 
these providers are the backbone of care.
    If Congress repeals that coverage, rural providers will 
close their doors and patients who need help now will face 
fewer choices. We need to work with each other to build on the 
progress we've made, not go backwards.
    We need to give States, local law enforcement, and tribes 
more resources and more flexibility to test what works. But we 
must approach this problem comprehensively, and with a robust 
commitment to those we represent. For too long, care and 
resources have been delivered in silos, and those looking for 
help have had to navigate a patchwork of programs, many of 
which were never created to address the scope of the problems 
we're seeing today.
    I urge your committee to thoughtfully consider these issues 
and how they affect communities across rural and tribal 
communities, whose voices must be heard when it comes to this 
crisis.
    Thank you.

    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman.
    If you wish to be excused, you may do so. But we are all 
anxious to hear what the gentleman from Maine has to share with 
us.
    So, Mr. Poliquin, you are recognized for 3 minutes.

STATEMENT OF HON. BRUCE POLIQUIN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF MAINE

    Mr. Poliquin. Thank you, Mr. Chairman, very much and thank 
you, Ranking Member, for the opportunity to be in front of you 
today.
    In our great State of Maine, Mr. Chairman, we have on 
average one person dies every day from a drug overdose. There 
was a recent study that said that six out of 10 families in our 
great State--six out of 10, Mr. Chairman--are impacted directly 
or indirectly by this epidemic, including, I might add, my own 
family.
    Rural Maine has been hard hit. Rural America has been hard 
hit with this epidemic and that is why I joined the bipartisan 
task force to combat the heroin epidemic and that led in part 
to a very comprehensive bill that we all passed in a bipartisan 
way last year, the Comprehensive Addiction Recovery Act, that 
sent about a billion dollars back to our States so they had 
better resources and more flexibility to address this scourge 
on our kids and our family members directly at the--on the 
ground in our--in our respective districts.
    Now, the motto, Mr. Chairman, of the great State of Maine 
is ``Dirigo.`` It means, in Latin, ``I lead.'' And there are a 
bunch of things we have been doing in Maine to help fight this 
epidemic that I think the rest of the country can learn as we 
learn from others.
    We have put in place a prescription monitoring program that 
is very tough and very effective. In particular, it sets very 
strict limits on what opioid--opiates are prescribed.
    It mandates the use of this system by prescribers and if 
you are prescribing opioids in the State of Maine, you must 
check this program--this database--on a regular basis to make 
sure those that are being prescribed should be, in fact, those 
that are receiving the painkillers.
    If folks are coming from out of State or they're paying 
with cash, it also triggers a review of the program to make 
sure that these drugs are falling in the hands of the right 
people.
    Now, I also serve, Mr. Chairman, I might add, on the House 
Veterans Affairs Committee, and along with Mr. Dunn, Ms. 
Tenney, Jodey Arrington from Texas, and Mr. Tonko, we have 
introduced a bill that asks the Veterans Administration 
facilities in the State of Maine, and hopefully around the 
country, to use their local State prescription monitoring 
programs or to interface with those because they're more 
comprehensive. In many cases, they are tougher.
    I would also encourage you, Mr. Chairman and Mr. Ranking 
Member, as you are going down this path to make sure we do 
everything humanly possible to hold those that are 
manufacturing synthetic opioids like fentanyl, hold them 
accountable. These drugs are horrible, they are not expensive 
to manufacture, and they are anywhere from 50 to 100 times more 
potent than heroin and methadone.
    So with that, sir, I appreciate the opportunity to 
participate here. I know that my associates on either side of 
me have a lot to say. But we've done a lot in Maine, and we are 
very proud of it. But we've got a lot more work to do.
    Thank you, sir.
    [The prepared statement of Mr. Poliquin follows:]

               Prepared statement of Hon. Bruce Poliquin

    Good afternoon, Chairman Burgess, Ranking Member Green and 
members of the subcommittee. I appreciate the opportunity to 
discuss an issue that touches so many Maine families, including 
my own. An increasing number of Mainers are severely affected 
by drug abuse and addiction. In 2015 alone, 269 Mainers died of 
an opioid overdose. It is clear that we must work to solve this 
serious problem impacting Maine and the rest of our Nation.
    I am a founding member of the Bipartisan Task Force to 
Combat the Heroin Epidemic. Since 2015, we have been a force 
for action, addressing the epidemic by learning from 
professionals in communities impacted by addiction. We have 
welcomed panelists, who have been able to provide valuable, 
real-life insight to help us work toward common-sense 
solutions. The Task Force helped bring awareness to the 
Nation's need to address drug prevention and treatment, as well 
as to ensure that law enforcement officers have the tools 
necessary to fight this epidemic. I'm pleased that Congress 
responded to this crisis by passing the Comprehensive Addiction 
and Recovery Act.
    This legislation was a crucial step towards recovery for 
our families, friends, and communities, but was just one of 
many steps on the long road ahead. I am here today to discuss 
the importance of advancements in tools for prevention, 
enhanced reforms for bad actors, and our role in fostering 
interagency communication.
    In order to help ensure that patients are not abusing 
prescriptions, Maine has set strict limits on opioid 
prescriptions. In addition to mandating the use of the 
prescription monitoring program, Maine requires prescribers to 
check the program when first prescribing, and every 90 days 
thereafter, requires dispensers to check the respective State's 
program when dispensing to an out-of-State resident and for a 
prescription written by an out-of-State provider. The dispenser 
also needs to check the program if an individual is paying with 
cash or if the person has not had a prescription for an opioid 
medication in the previous 12 months.
    These additional requirements create significant barriers 
to those attempting to abuse the system. Looking forward, it is 
crucial that we work toward the sharing of data between States 
to further deter system abuse and decrease the number of 
patients who will develop an addiction. As a member of the 
House Veterans Affairs Committee, I, along with Rep. Dunn, Rep. 
Tenney, Rep. Arrington and Rep. Tonko, have introduced the 
Veterans Opioid Abuse Prevention Act to ensure that providers 
from the Department of Veterans Affairs also use the program 
when prescribing controlled substances.
    There will always be bad actors, but it is our 
responsibility to remain steadfast in our work to close any 
loopholes for abuse. As the Energy and Commerce Committee 
continues to examine synthetic opioids, it is crucial that law 
enforcement receive the resources they need to hold accountable 
those who illegally manufacture fentanyl. The death rate for 
synthetic opioids other than methadone has significantly 
increased in Maine. The Task Force has discussed how local law 
enforcement can collaborate with the Federal and State 
governments as well as public health agencies to combat the use 
of synthetic opioids. Furthermore, we have discussed how the 
investigative arm of the Department of Homeland Security works 
with Federal, State, and local law enforcement to investigate 
criminal organizations that are participating in the 
trafficking of synthetic drugs. I hope to continue these 
discussions as we review and modify best practices.
    As we continue to work towards addressing today's crisis 
and future threats, I would like to thank you for your time and 
attention to these critical issues.

    Mr. Burgess. Chair thanks the gentleman.
    Would the gentleman entertain one question on your 
prescription drug monitoring program?
    Mr. Poliquin. Yes, sir.
    Mr. Burgess. Do you provide feedback to the prescribing 
doctor: This is the list of patients we have for you that you 
have prescribed? Is this a two-way street?
    Mr. Poliquin. It is, but the system is quite accurate, Mr. 
Chairman, such that the prescriber can see that data online.
    Mr. Burgess. Very well.
    Representative Rouzer, you are recognized for 3 minutes, 
please.

 STATEMENT OF HON. DAVID ROUZER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Rouzer. Thank you, Mr. Chairman, and the other members 
of this distinguished committee for your work to bring 
awareness to this opioid epidemic as well as your work to bring 
forward solutions to help address it.
    I am particularly grateful for your willingness to allow 
members who do not serve on this committee the opportunity to 
share how our districts have been impacted by this scourge.
    Opioid addiction has become a growing problem throughout 
North Carolina and particularly in the southeastern part of the 
State, home of the 7th Congressional District, which I have the 
privilege to represent.
    It is a growing and significant challenge for our 
communities, parents, law enforcement, local health 
departments, treatment facilities, and schools, to name just a 
few.
    This epidemic is so rampant, in fact, it would not be a 
stretch to say that if a family doesn't have a relative 
suffering from this addiction, they know a friend or a family 
who does.
    Perhaps most alarming to me are the reports out of my 
district about Narcan parties. That's right, Narcan parties. 
These are parties where teens and others go intending to get as 
high as possible with the expectation that they will be brought 
back to life by an injection of Narcan if needed.
    I also hear from members of the law enforcement community 
that they are administering Narcan to the very same individuals 
on a regular, even weekly, basis.
    Now, if this isn't a sobering fact of how this addiction is 
destroying lives, I don't know what is.
    In 2015, there were more than 1,100 opioid-related deaths 
across the State of North Carolina. The three counties most 
impacted by the opioid epidemic in the 7th Congressional 
District are Brunswick, New Hanover, and Pender counties.
    In 2015, there were 24 deaths in Brunswick County, 45 
deaths in New Hanover, and 14 deaths in Pender County. Now, 
I've met with and heard from parents who have lost a child to 
an overdose, law enforcement officers who are struggling daily 
to prevent this epidemic from further penetrating into our 
communities, and individuals working at treatment facilities 
who do not have enough resources or beds to keep up with the 
demand.
    As with every complex problem, there is no silver bullet 
answer to this epidemic, unfortunately. However, it's my belief 
that Congress can play a significant role by facilitating 
collaboration among the very best and brightest to bring 
solutions forward that will enable the country to turn the 
tables on this scourge.
    In the 7th Congressional District, we are fortunate to have 
many bright and committed individuals who have been working 
diligently on this issue for some time, many of whom serve on 
my Law Enforcement and Health Care Advisory Committees.
    And each of them, Mr. Chairman, stand ready to assist this 
committee and Congress as we work to address this problem in a 
comprehensive and effective way.
    Thank you again, Mr. Chairman, for the opportunity to 
testify today. I yield back.
    [The prepared statement of Mr. Rouzer follows:]

                Prepared statement of Hon. David Rouzer

    Thank you, Mr. Chairman, and the other members of this 
distinguished committee for your work to bring awareness to the 
opioid epidemic as well as your work to bring forward solutions 
to help address it. I am particularly grateful for your 
willingness to allow members who do not serve on this committee 
the opportunity to share how our districts have been impacted 
by this scourge.
    Opioid addiction has become a growing problem throughout 
North Carolina, and particularly in the southeastern part of 
the State, home of the 7th Congressional District, which I have 
the privilege to represent. It is a growing and significant 
challenge for our communities, parents, law enforcement, local 
health departments, treatment facilities, and schools to name 
just a few. This epidemic is so rampant, in fact, it would not 
be a stretch to say that if a family doesn't have a relative 
suffering from this addiction, they know a friend or family who 
does.
    Perhaps most alarming are the reports out of my district 
about Narcan parties. That's right--Narcan parties. These are 
parties where teens and others go intending to get as high as 
possible with the expectation that they will be brought back to 
life by an injection of Narcan, if needed. I also hear from 
members of the law enforcement community about how they 
administer Narcan to the same individuals on a regular and 
repeated basis. If this isn't a sobering fact of how this 
addiction is destroying lives, I don't know what is.
    In 2015, there were more than 1,100 opioid related deaths 
across the State of North Carolina.
    The three counties most impacted by the opioid epidemic in 
the 7th District are Brunswick, New Hanover, and Pender 
counties. In 2015, there were 24 deaths in Brunswick County, 45 
deaths in New Hanover County and 14 deaths in Pender County.
    I've met with and heard from parents who have lost a child 
to an overdose, law enforcement officers who are struggling 
daily to prevent this epidemic from further penetrating into 
our communities, and individuals working at treatment 
facilities who do not have enough resources and beds to keep up 
with the demand.
    There is no silver-bullet answer to this epidemic, 
unfortunately. However, Congress can play a significant role by 
facilitating collaboration among the very best and brightest to 
bring solutions forward that will enable the country to turn 
the tables on this growing epidemic.
    In the 7th Congressional District, we are fortunate to have 
many bright and committed individuals who have been working 
diligently on this issue--many of whom serve on my law 
enforcement and health care advisory committees. Each of them 
stands ready to assist this committee and Congress as we work 
to address this problem in a comprehensive and effective way.
    Thank you again, Mr. Chairman, for allowing us this 
opportunity to testify today.

    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    Chair recognizes the gentleman from Iowa, Mr. Young, for 3 
minutes, please.

  STATEMENT OF HON. DAVID YOUNG, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Young. Thank you, Mr. Chairman and Ranking Member. I 
would like to thank the committee for holding this hearing and 
I just really want to tell a story.
    I want to highlight the actions the community of 
Bridgewater, Iowa has undertaken in the last year to take back 
their town. Bridgewater, a small town of about 200 people in 
Adair County in southwest Iowa, is facing a problem with 
opioids and a range of other drugs.
    As drug use in the area slowly started to rise in the 
community, which relies on the county sheriff's office to keep 
them safe, the residents were unable but not unwilling to stop 
the influx of drugs into their town.
    Residents of Bridgewater started to see cars coming into 
their town with out-of-State license plates and from counties 
across the State as the cars came, so did the crime.
    Residents and law enforcement noticed an uptick of crimes, 
theft, and vandalism, which traced back to drug users and 
dealers coming to town. Empty houses turned into drug houses 
powered by gas and generators, which led to more than four 
houses burning to the ground.
    Last spring, the residents were fed up as they saw the town 
they were raised up in slipping away. They decided to take 
action. Concerned residents met in the basement of a church to 
find a way to save their town. This is when they decided to 
take back Bridgewater.
    Residents formed a nonprofit group to fight the drug crisis 
together. As word spread, media outlets across the State came 
to the small town to shine a light on one of the many 
communities suffering in this 3rd District.
    I visited Bridgewater in April to meet with the residents 
in that same church basement as they began their mission to 
make sure that their town was safe again. I studied their 
faces, listened intently, and their mission is my mission.
    They started to hold forums with drug counsellors, law 
enforcement, State and local legislators and other individuals 
offering help. As residents started to clean up their town, 
they were met with hostility and retaliation from drug dealers 
and users.
    Leaders of the take back Bridgewater movement were run off 
the road, swerved at by those who wanted to protect the status 
quo. A number of other incidents occurred but the residents 
pressed on. The citizens of Bridgewater will not surrender.
    As neighboring communities saw what the residents of 
Bridgewater were doing, they wanted to do something in their 
communities. Leaders from towns across southwest Iowa often 
discussed strategies together to protect their neighbors. That 
is what Iowa is all about--neighbors helping neighbors, 
communities helping communities.
    Just last night, residents of Bridgewater gathered in the 
basement of that very same church to kick off a fundraiser for 
their nonprofit. They will be going throughout southwest Iowa 
to sell Christmas trees to adorn the doors of homes throughout 
the region.
    Residents will use these funds to take back the community. 
Bridgewater will not turn a blind eye to opioids and drugs in 
their community. And, of course, we mustn't forget the human 
tragedy of addiction and desperation. This epidemic is 
enslaving and killing our sons and daughters, our mothers and 
fathers.
    As the Federal Government addresses this issue, it is my 
hope we use Bridgewater as an example that local communities 
can have the largest impact if we partner with them and helping 
them to have those tools they need to be successful.
    A one-size-fits-all program will not save as many lives as 
a solution tailored to one community which has the buy-in of 
its residents.
    Take back Bridgewater is not just a slogan. It is an action 
plan, it is reality, and it is happening, and it is not just 
happening in Bridgewater. It is happening all around the 
country.
    Thank you for holding this hearing.
    [The prepared statement of Mr. Young follows:]

                 Prepared statement of Hon. David Young

    Mr. Chairman, I would like to thank the committee for 
holding this hearing.
    I want to highlight the actions the community of 
Bridgewater, Iowa has undertaken in the last year to take back 
their town.
    Bridgewater, a small town of around 200 in the heart of 
Adair County in southwest Iowa, is facing a problem with 
opioids and a range of other drugs.
    As drug use in the area slowly started to rise in the 
community, which relies on the county sheriff's office to keep 
them safe, the residents were unable, but not unwilling, to 
stop the influx of drugs into their town.
    Residents of Bridgewater started to see cars coming into 
town with out of State license plates, and from counties across 
the State.
    As the cars came, so did the crime.
    Residents and law enforcement noticed an uptick of crimes--
theft and vandalism--which traced back to drug users and 
dealers coming to town.
    Empty houses turned into drug houses powered by gas and 
generators, which led to more than four houses burning to the 
ground.
    Last spring, residents were fed up as they saw the town 
they were raised in slipping away. They decided to take action.
    Concerned residents met in the basement of a church to find 
a way to save their town. This is when they decided to take 
back Bridgewater.
    Residents formed a nonprofit to fight the drug crisis 
together. As word spread, media outlets across the State came 
to this small town to shine a light on one of many communities 
suffering in the 3rd District.
    I visited Bridgewater in April to meet with residents in 
that church basement as they began their mission to make their 
town safe again. I studied their faces. I listened intently. 
And their mission is my mission.
    They started to hold forums with drug counselors, law 
enforcement, State and local legislators, and other individuals 
offering help.
    As residents started to clean up their town they were met 
with hostility and retaliation from drug dealers and users.
    Leaders of the Take Back Bridgewater movement were run off 
the road, swerved at by those who wanted to protect the status 
quo. A number of other incidents occurred, but the residents 
pressed on. The citizens of Bridgewater will not surrender.
    As neighboring communities saw what the residents of 
Bridgewater were doing, they wanted to do the something in 
their communities. Leaders from towns across southwest Iowa 
often discuss strategies together to protect their neighbors.
    That is what Iowa is all about: neighbors helping 
neighbors, communities helping communities.
    Just last night, residents of Bridgewater gathered in the 
basement of that very same church to kick off a fundraiser for 
their nonprofit. They will be going throughout southwest Iowa 
to sell Christmas wreaths to adorn the doors of homes 
throughout the region.
    Residents will use the funds to take back their community. 
Bridgewater will not turn a blind eye to opioids and drugs in 
their community. And of course we must not forget this this 
human tragedy of addiction and desperation. This epidemic is 
enslaving and killing our sons and daughters; mothers and 
fathers.
    As the Federal Government addresses this issue, it is my 
hope we use Bridgewater as an example local communities can 
have the largest impact if we partner with them and helping 
with the tools they need to be successful. A one-size-fits-all 
program will not save as many lives as a solution tailored to 
each community which has the buy-in of its residents.
    Take Back Bridgewater is not just a slogan. It's an action 
plan. It's a reality. And it's happening. And it's not just 
happening in Bridgewater, it's happening all around the 
country.
    Thank you again for the opportunity to join you today.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    The gentleman from Oregon, Mr. Blumenauer, recognized for 3 
minutes.

STATEMENT OF HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate the 
focus on the opioid crisis that grips every community to some 
degree and affects every State, especially critical for our 
veterans who are twice as likely to die from accidental 
overdoses.
    As we are slowly acknowledging the depths of the opioid 
crisis, which is good, we seldom acknowledge one of the 
simplest most effective solutions--medical marijuana. Cannabis. 
Now available in 28 States, largely driven by the voters, not 
the politicians, most recently in Florida, where their voters 
approved it by over 70 percent.
    I have distributed some information here entitled, ``The 
Physician Guide to Cannabis-Assisted Opioid Reduction'' On the 
back are the citations for each of the points that are on this 
chart referencing cannabis reducing opioid overdose mortality, 
how cannabis reduces opioid consumption, how cannabis can 
prevent dose escalation and the development of opioid 
tolerance. Cannabis alone or in combination with opioids could 
be a viable first line analgesic.
    Mr. Chairman, we don't talk much about this, although on 
the floor of the House repeatedly over the last 3 years 
Congress has been moving in this direction and voted last 
Congress to have the Veterans Administration be able to work 
with veterans in States where medical marijuana is legal.
    But I focus on just one simple item, not the facts, which I 
hope this committee would look at. But there is one piece of 
legislation that I have introduced with Dr. Andy Harris, 
somebody who doesn't agree with me about the efficacy of 
medical marijuana but he strongly agrees with me that there is 
no longer any reason for the Federal Government to interfere 
with research to be able to prove it.
    The Federal Government as a stranglehold on this research. 
We have bipartisan legislation, 3391, which would break that 
stranglehold and be able to have robust research to resolve 
these questions so there would no longer be any doubt.
    This is the cheapest, most effective way to be able to stop 
the crisis. Where people have access to medical marijuana, 
there are fewer overdoses and people opt for it dealing with 
chronic pain.
    I would appreciate the subcommittee looking at this issue 
as your time permits. Thank you, Mr. Chairman, Ranking Member.
    [The prepared statement of Mr. Blumenauer follows:]

               Prepared statement of Hon. Earl Blumenauer

    As this hearing today highlights, opioids have wreaked 
havoc on our country, killing people and devastating families. 
I am here today to offer an alternative treatment for pain, 
PTSD, and a number of other health problems-medical cannabis.
    Despite the fact that more than 95 percent of Americans 
live in States that have legalized some form of medical 
cannabis, Federal policy is blocking biomedical research of 
marijuana.
    This is outrageous!
    We owe it to patients and their families to allow for the 
research physicians need to understand marijuana's benefits and 
risks and determine proper use and dosage. The Federal 
Government should get out of the way to allow for this long 
overdue research.
    Unfortunately, States cannot address this research gag on 
their own. Congress must act to allow for the research of 
marijuana-which I stipulate would be a safer, less addictive 
alternative than opioids for some health problems.
    And, it's not just me who thinks this. I have veterans 
banging down my door seeking alternatives to opioids. Many 
veterans are in an untenable situation-- Untreated chronic pain 
can increase the risk of suicide, but poorly managed opioid 
regimens can also be fatal. The fact that veterans are TWICE as 
likely to die from accidental opioid overdoses than their 
civilian counterparts to get Congress off the dime.
    Dr. Andy Harris--a well-known marijuana prohibitionist--and 
I--the Member of Congress from Portlandia--have teamed up to 
introduce the Medical Marijuana Research Act. This bill would 
create a pathway for qualified researchers to conduct research 
using marijuana. Senators Hatch and Schatz have a similar bill 
on the Senate side.
    I ask that this committee hold a hearing on the bill as 
patients desperately need a safer, less addictive alternative 
to opioids.

    Mr. Burgess. The Chair thanks the gentleman. Gentleman 
yields back.
    Chair recognizes the gentlelady from Georgia, Mrs. Handel, 
for 3 minutes, please.

STATEMENT OF HON. KAREN C. HANDEL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mrs. Handel. Thank you, Mr. Chairman, and thank you as well 
for holding this hearing.
    The opioid crisis has hit the suburban Atlanta counties of 
Fulton, Cobb, and DeKalb as hard as, frankly, anywhere in the 
country, from prescription painkillers to synthetic drugs to 
heroin.
    In 2016, 72.3 percent of all drug-related fatalities in 
Cobb County were caused by opioids and that was an increase 
from 16.8 percent just the year before.
    In 2015, the Cobb County narcotics team seized more than--
more heroin than in the previous 20 years combined. Meanwhile, 
in Fulton County, the medical examiner's office recorded a 
total of 77 heroin deaths in 2014. That is compared to just 
four such deaths in 2010.
    Behind these statistics, though, are hurting devastated 
families--families that are being torn apart by addiction, 
facing financial ruin in their desperate effort to try anything 
to make things right, or worse, losing a loved one to a drug 
overdose or suicide.
    The opioid crisis, as we've heard, is indeed a complex one. 
It is an incredibly sensitive issue, particularly for 
communities that have long felt immune to fatal substance abuse 
problems.
    Still, communities, through churches, law enforcement, 
nonprofits, with the support of local, State, and Federal 
government are coming together to take action.
    This year in the city of Alpharetta, they created a new 
program designed to reduce painkiller abuse across the county. 
With the help of the Rotary Club in Alpharetta, the city 
purchased special boxes that were--are used to collect unused 
and unwanted prescription medication and locating those at 
police headquarters and fire stations throughout the county.
    While the boxes cost about a thousand dollars each, they 
are designed and constructed specifically to prevent anyone 
from stealing the drugs inside. This is--may seem a small 
measure, but it is making an impact by providing a safe secure 
disposal point.
    In the city of Johns Creek, the Hub Community Resource 
Center is acting as a lifeline for those seeking drug abuse and 
mental illness attention.
    Ultimately, the incarceration of addicts, though, should 
not be seen as some kind of victory or solution. Instead, we 
have to continue to look for the root causes.
    As the district attorney in Cobb County said, we are not 
going to be able to arrest our way out of this epidemic. The 
road to recovery must be lined with treatment options.
    So further, nonopioid and nonpharmacalogical treatments for 
therapies do exist. Atlanta's Emory University recognized Pain 
Awareness Month in September by educating our community about 
these alternatives.
    We also need to do a better job of data sharing important 
information that exists at the local, State, and Federal level. 
I stand ready to help you in any way.
    Thank you, Mr. Chairman, for this opportunity.
    [The prepared statement of Mrs. Handel follows:]

               Prepared statement of Hon. Karen C. Handel

    The opioid crisis has hit the suburban Atlanta counties of 
Fulton, Cobb & Dekalb as hard as anywhere in the country.
    In 2016, 72.3 percent of all drug-related fatalities in 
Cobb County were caused by opioids, up from 64.8 percent just 1 
year before. And in 2015, the Cobb County Narcotics team seized 
more heroin than in the previous 20 years--combined.
    Meanwhile, in neighboring Fulton County, the Medical 
Examiner's Office recorded a total of 77 heroin deaths in 2014, 
compared to just four in 2010.
    Behind these statistics are hurting families--families that 
are being torn apart by addiction, facing financial ruin in 
their effort to try anything to make things right, or worse, 
losing a loved one to overdose or suicide.
    Our community's--our Nation's--opioid crisis is a complex 
issue, and it's not going to be solved with any single 
proposal. Admitting there is a problem is the first step, 
however.
    This is an uncomfortable, sensitive issue, particularly in 
communities that have long felt immune to fatal substance abuse 
problems. Still, communities--through churches, law 
enforcement, non profits--are coming together to take action.
    This year, the North Fulton city of Alpharetta created a 
new program designed to reduce painkiller abuse across the 
county. With the help of Alpharetta's Rotary Club, the city 
purchased boxes that will collect unused and unwanted 
prescription medications at its police headquarters and fire 
stations.
    The boxes cost about $1,000 each and are designed and 
constructed to prevent anyone from stealing the drugs inside.
    It may seem a small measure, but it is making an impact by 
providing a safe, secure disposal point.
    In the city of Johns Creek, the Hub Community Resource 
Center acts as a lifeline for those seeking drug abuse and 
mental illness attention. Centers like these help people 
suffering from addiction and prevent others from succumbing to 
the same fate in the future.
    Ultimately, the incarceration of addicts should not be seen 
as some kind of victory or solution. Instead, we must look at 
the root causes, most effective potential solutions, and--most 
importantly--we must work towards finding ways for those 
affected by opioid addiction to recover to lead healthy, 
productive lives.
    As Cobb County District Attorney Vic Reynolds said, ``We 
cannot arrest our way out of this epidemic. The road to 
recovery must be lined with treatment options.''
    Further, nonopioid and nonpharmacological treatments or 
therapies for pain do exist. Studies show that these 
alternative therapies can be just as beneficial or better than 
prescription pain medications, but without the side effects of 
overuse and abuse.
    Atlanta's Emory University recognized Pain Awareness Month 
in September by educating the community about pain relief 
alternatives to prescription medications.
    As the opioid epidemic spreads, we need data and 
alternatives to medications now more than ever.
    Finally, I want to specifically commend two legislators in 
my home State of Georgia--State Senator Renee Untermann and 
State Representative Sharon Cooper--each of whom have been 
leading the efforts on opioid addiction prevention from the 
State capitol. Senator Unterman is the chairman of the 
Committee on Health and Human Services and sponsor of SB81, 
legislation focused on Naloxone availability and electronic 
reporting of controlled substances in Georgia.
    We can do better than this crisis we're facing across the 
country, and creative options like those we're seeing 
throughout the 6th District of Georgia are all part of the 
national effort. Our local, State and Federal law enforcement, 
healthcare groups, drug enforcement agencies and elected 
leaders must continue to work together. The lives of tens of 
thousands of Americans are literally depending on it.

    Mr. Burgess. The Chair thanks the gentlelady. Gentlelady 
yields back.
    Recognize Representative Crist from Florida, 3 minutes, 
please.

 STATEMENT OF HON. CHARLIE CRIST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Crist. I would like to thank Chairman Burgess and 
Ranking Member Green for providing us this opportunity for 
Members to share how the opioid crisis is affecting their 
constituents, including my neighbors in Pinellas County, 
Florida.
    The statistics for opioid deaths and disorders are 
shocking. Our society's use of opioids has truly become an 
epidemic. Last year, 11.8 million Americans age 12 or older 
misused opioids, including nearly 900,000 children age 12 to 
17.
    Over 50 percent of the people with both substance abuse and 
a mental health disorder do not receive treatment for either 
issue. Tragically, my home State of Florida was the 
prescription drug abuse capital of the United States in the 
last decade.
    They were known as pills mills and prescribed massive 
amounts of otherwise legal narcotics which were then 
distributed into our neighbourhoods, schools, communities, and 
throughout the country.
    When I was Governor, we went after pill mills and put them 
out of business. While Florida may have won the battle against 
these pill mills, our country is losing the war on opioid abuse 
and its addiction.
    We are ignoring mental health, under funding addiction 
treatment, sidestepping what the science tells us is the best 
way to fight the addiction, and now the scope of the crisis has 
broadened beyond prescription drugs into heroin and even 
fentanyl.
    My home of Pinellas County was no exception. Last year, we 
saw a string of deaths from Xanax mixed with fentanyl. In 2015, 
heroin, fentanyl, and oxycodone were responsible for over 3,800 
deaths in Florida alone.
    It is a tragedy, it is an epidemic, and the need for action 
is immediate. I saw the devastation firsthand recently when I 
visited the nonprofit Operation PAR in my district just a few 
months ago.
    I heard directly from those in recovery being helped by 
their innovative, more holistic approach.
    If we are going to combat this problem, we can't 
concentrate on law enforcement alone. Florida should serve as 
an example to the rest of the country that only going after 
suppliers is insufficient.
    Let us be clear. The people who misuse opioids aren't the 
worst of the worst. They are our neighbors, our friends, 
parents, and children who are desperately in need of help.
    They often suffer in silence and isolation because of the 
stigma and shame surrounding drug abuse. Unfortunately, America 
learned this lesson the hard way, treating the crack epidemic 
as simply a law enforcement exercise.
    We can't combat our opioid crisis without investing in new 
treatment options, long-term mental health, and substance abuse 
recovery resources, and the men and women on the ground working 
in nonprofits and Government, collaborating with first 
responders and law enforcement to help those in need in all of 
our communities.
    This includes funding for the substance abuse mental health 
service and the National Institutes of Health, which provides 
the research and innovative treatments not often permitted 
using traditional funding.
    This funding provides grants including in Pinellas County 
for innovative local solutions for treating mental health and 
substance abuse disorders, like what is happening at Operation 
PAR and Bent Not Broken organization.
    This includes funding overdose reversal. We will lose this 
fight without Naloxone. Americans will die unnecessarily, and 
because Florida did not expand Medicaid, the funding for these 
organizations is even more vital and something I hope your 
committee continues to prioritize in this ongoing battle.
    Thank you again for this opportunity to share how my home 
in Pinellas County is combatting this epidemic.
    Thank you, Mr. Chairman, and committee.
    [The prepared statement of Mr. Crist follows:]

                Prepared statement of Hon. Charlie Crist

    I'd like to thank Chairman Burgess and Ranking Member Green 
for providing us this opportunity for Members to share how the 
opioid crisis is affecting their constituents, including my 
neighbors in Pinellas County, Florida.
    The statistics for opioid deaths and disorders are 
shocking. Our society's use of opioids has truly become an 
epidemic. Last year, 11.8 million Americans aged 12 or older 
misused opioids, including nearly 900,000 children aged 12-17. 
Over 50 percent of the people with both substance abuse and a 
mental health disorder do not receive treatment for either 
issue.
    Tragically, my home State of Florida was the prescription 
drug abuse capital of the United States in the last decade. 
They were known as ``pill mills'' and prescribed massive 
amounts of otherwise legal narcotics, which were then 
distributed into our neighborhoods, schools, communities, and 
throughout the country. When I was Governor, we went after 
``pill mills'' and put them out of business.
    While Florida may have won the battle against these ``pill 
mills'', our country is losing the war on opioid abuse and its 
addiction. We're ignoring mental health, underfunding addiction 
treatment, side-stepping what the science tells us is the best 
way to fight addiction. And now the scope of the crisis has 
broadened beyond prescription drugs--into heroin and even 
fentanyl. My home of Pinellas County was no exception. Last 
year, we saw a string of deaths from Xanax mixed with fentanyl. 
In 2015, heroin, fentanyl, and oxycodone were responsible for 
over 3,800 deaths in Florida alone. It is a tragedy. It is an 
epidemic. And the need for action is immediate. I saw the 
devastation firsthand recently when I visited the nonprofit 
``Operation PAR'' in my district just a few months ago. I heard 
directly from those in recovery, being helped by their 
innovative, more holistic approach.
    If we are going to combat this problem, we can't 
concentrate on law enforcement alone. Florida should serve as 
an example to the rest of the country that only going after 
suppliers is insufficient. Let's be clear: the people who 
misuse opioids aren't the worst of the worst; they are our 
neighbors, our friends, parents, and children who are 
desperately in need of help. They often suffer in silence and 
isolation because of the stigma and shame surrounding drug 
abuse. Unfortunately, America learned this lesson the hard way 
treating the crack epidemic as simply a law enforcement 
exercise.
    We can't combat our opioid crisis without investing in new 
treatment options, long-term mental health and substance abuse 
recovery resources, and the men and women on the ground working 
in nonprofits and Government, collaborating with first 
responders and law enforcement, to help those in need in all of 
our communities. This includes funding for the Substance Abuse 
and Mental Health Service (SAMHSA) and the National Institutes 
of Health, which provides the research and innovative 
treatments not often permitted using traditional funding. This 
funding provides grants, including in Pinellas County, for 
innovative, local solutions for treating mental health and 
substance abuse disorders, like what's happening at ``Operation 
PAR'' and ``Bent Not Broken'' organization. This includes 
funding overdose reversal. We will lose this fight without 
naloxone. Americans will die unnecessarily. And because Florida 
did not expand Medicaid, funding for these organizations is 
even more vital, and something I hope your committee continues 
to prioritize in this ongoing battle.
    Thank you again for this opportunity to share how my home 
of Pinellas County is combating the opioid crisis. Thank you, 
Mr. Chairman and committee.

    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman.
    The Chair recognizes Mr. Faso for 3 minutes, please.

 STATEMENT OF HON. JOHN J. FASO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Faso. Thank you, Chairman Burgess, Ranking Member 
Green, and members of the committee for holding this important 
hearing and hosting all of us today.
    I appreciate and understand many of the testimonies we have 
heard from our colleagues. It is important to note that we 
represent districts that are often extremely different from 
each other--Democrat, Republican, rural, and urban. It is rare 
when an issue can unite not only a conference but an entire 
Congress.
    At the risk of speaking for my colleagues, I would like to 
express that we all stand together against the opioid epidemic. 
Now, in my district, in the 19th District in upstate New York, 
I can tell you a couple of stories.
    Greene County emergency responders recently reported to me 
they came upon a scene where they had two individuals who had 
overdosed. One individual required eight doses of Naloxone in 
order to be revived. Another required six.
    This is not an uncommon phenomena. County sheriffs had 
reported to me going back to the same household, the same 
apartments on the same evening to administer Narcan to revive 
people who have overdosed.
    Other county sheriffs have told me that every single drug 
dealer they arrest has public benefit and food stamp cards in 
their possession. It is ironic that we, the public, are often 
sustaining economically those that prey upon our citizens.
    In my district in the Board of Supervisors in Columbia 
County recently passed an opioid epidemic response plan. This 
plan is an enormous step forward to combatting the opioid 
crisis in our region.
    Ulster County has also substantially increased local 
funding to fight the crisis. Twin County Recovery Services in 
Columbia and Greene Counties is also serving those with 
addiction through clinical, residential, and educational 
programs.
    And I think the bottom line, Mr. Chairman, my colleagues, 
we have got to have educational programs that help us staunch 
the demand for these substances and not just try to staunch the 
supply.
    Congress must continue to help our local communities by 
ensuring they have the support and the 21st Century Cures and 
CARA, supporting SAMHSA legislation, and passing legislation 
such as the STOP Act to support our local law enforcement 
officers by making it more difficult for the U.S. Postal 
Service to ship fentanyl and carfentanyl through the mail.
    I recommend more research into how opioids affect the brain 
and learn more into how to defeat this chemical dependency.
    Our work is far from finished. We must stay engaged with 
each other, stay engaged with our communities and stay engaged 
with victims and families to truly effectuate and facilitate an 
authentic reversal of this dangerous and upward trend of opioid 
addiction in our communities.
    I thank the committee for their service and for allowing us 
to bring this testimony forth today.
    [The prepared statement of Mr. Faso follows:]

                Prepared statement of Hon. John J. Faso

    Thank you, Chairman Burgess, Ranking Member Green, and 
members of the committee for holding this important hearing and 
hosting me today.
    I appreciate and understand many of the testimonies we have 
heard from our colleagues. It is important to note that we 
represent districts that are extremely different from each 
other; Democrat, Republican, rural, and urban. It is rare when 
an issue can unite not only a conference, but an entire 
Congress. At the risk of speaking for my colleagues, I would 
like to express that we stand together against the opioid 
epidemic.
    My particular district in upstate New York is fairly rural, 
Mr. Chairman.
    When we think of rural America, it evokes images of small 
towns, diners on the corners, two lane roads framed by family 
farms, and a community where neighbors look out for each other, 
and work hard for what they have.
    While all of these sentiments ring especially true in my 
district, so does the opioid crisis.
    Our local communities and counties across upstate are 
stepping up to the plate and finding ways to address this 
problem in a manner that meets their needs. With help from the 
State and Federal governments, our local governments and groups 
facilitate outreach programs, education programs, informational 
resources, trainings and working groups.
    In my district, the Board of Supervisors of Columbia County 
recently passed an Opioid Epidemic Response Plan. This plan is 
an enormous step forward in combating the opioid crisis in our 
region. Twin County Recovery Services is also another 
institution in my district serving those with addiction through 
clinical, residential, and educational programs. These 
initiatives enable local entities to most effectively help 
those with addiction, educate first responders, prevent future 
tragedies, and deploy Federal and State funding in our 
communities.
    I come before the committee today to implore my colleagues 
to work with me to empower local governments, that are closest 
to the crisis, to improve education and prevention programs and 
fight addiction on the front lines.
    Congress must continue to help our local communities by 
ensuring they have our support through means such as adequately 
implementing and funding CARA and 21st Century Cures, 
supporting SAMHSA (sam-sa) and passing legislation such as the 
STOP Act to support our local law enforcement officers by 
making it more difficult to ship fentanyl and carfentanil.
    I appreciate committee-led initiatives to work in a 
bipartisan-nature in passing ground-breaking addiction 
treatment legislation, holding numerous hearings to explore 
further Congressional action, and remaining open and inclusive 
during this process.
    Our work is far from finished. We must stay engaged with 
each other, stay engaged with our communities, and stay engaged 
with the victims to truly, and effectively facilitate an 
authentic reversal of this dangerous upward trend of opioid 
addiction.
    I stand ready to help the committee in this fight. Thank 
you.

    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    Chair recognizes Mr. Katko for 3 minutes, please.

STATEMENT OF HON. JOHN KATKO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Katko. Thank you, Mr. Chairman and Ranking Member 
Green. I appreciate you giving me the opportunity to testify 
today about this most important topic and giving me the 
opportunity to not only discuss what has been being discussed 
but a possible partial solution to the problem from a law 
enforcement standpoint.
    And that is a bill that I introduced, H.R. 2851, the Stop 
the Importation Trafficking of Synthetic Analogs Act of 2017, 
which I will refer to as SITSA.
    I am driven in my testimony today and my support for this 
bill by two things. One is my 20 years as a Federal organized-
crime prosecutor, prosecuting every manner of drug known to 
man, and knowing that, based on that experience, I have never 
seen anything that remotely resembles the tragic consequences 
of the current synthetic drug problem and the heroin issue in 
this country, and they are intertwined.
    And I can talk chapter and verse about what is going on in 
my community but I just want to introduce you to a few people 
that we have lost since I have been in Congress.
    John and Tina Socci lost their daughter, who was murdered 
in front of her 18-month-old child by her boyfriend, who was 
addicted to opioids. Two years later, still grieving the loss 
of their daughter, they lost their son to a heroin overdose. 
Their son was a drug counselor.
    Joe Campanella lost his son--I am sorry--Joe Campanella 
lost a son and his son was a drug counselor at the time, and 
John Socci and Tina Socci lost their son as well. Kevin Jones 
lost his stepdaughter.
    Theresa Wilson lost her son after he ingested synthetic 
marijuana that was purchased over the counter at a local head 
shop and he had convulsions and drowned.
    Deanna Axe--all these stories are tragic but this one is 
perhaps the worst--Deanna was a high school athlete, a great 
individual. She got involved with heroin after abusing opiates 
and she became pregnant. She went cold turkey and quit. She was 
five months pregnant and she had not had any relapses 
whatsoever.
    A drug dealer who I can only describe as one of the most 
reprehensible creatures on earth, cajoled her into trying one 
more time because a new mixture had come in. She tried it that 
one time and she died, and she lost her five-month-old child as 
well--unborn child.
    That is the face of this tragedy. That is the face of what 
is going on here and that is what I am trying to address with 
respect to the SITSA Act.
    Toxic synthetic drugs are designed to mimic street drugs 
like marijuana and what this drug is trying to do is recodify 
the problem. The problem I encountered when I was a prosecutor 
doing synthetic drugs prosecutions is that the statutes don't 
keep up.
    The drug that killed Theresa Wilson's son took 4 1A\1/2\ 
years after they identified the chemical compound before it was 
listed in a drug analog statute.
    This bill that I have that has already passed the Judiciary 
and is simply waiting to get out of E and C before it can be 
voted on on the floor and I think will pass overwhelmingly 
turbo charges that process to reduce it to about 30 days, and 
it also, in a nutshell, will give individuals in Congress who 
may disagree with the classification of one of these drugs 180 
days after it is classified to have it removed through a 
congressional act.
    So I was going to talk much longer about it. I realize my 
time is up. But I can tell you from looking through the prism 
of a prosecutor there is three ways that you need to address 
this.
    Number one is law enforcement, number two is prevention, 
and number three is treatment. As my colleague, Mr. Faso, 
noted, we have done a lot with the CARA Act and other things to 
address prevention and treatment.
    This SITSA Act is something that law enforcement needs and, 
quite frankly, it is a game changer and I hope that E and C 
will consider it in a swift manner so it can get to floor for a 
vote and get into law and give another--put it in the arsenal 
for law enforcement to be able to attack this problem in a 
meaningful manner.
    And with that, I yield back, Mr. Chairman.
    [The prepared statement of Mr. Katko follows:]

                 Prepared statement of Hon. John Katko

    Thank you, Chairman Burgess, Ranking Member Green, and 
members of the Subcommittee on Health, for allowing me to speak 
today about the synthetic drug epidemic and my bill, H.R. 2851, 
the Stop the Importation and Trafficking of Synthetic Analogues 
(SITSA) Act of 2017.
    Synthetic drug abuse has crippled communities across this 
Nation, leading to countless tragedies in places like my 
district. This year, Syracuse area hospitals saw a record 
number of overdoses due to synthetic drug abuse. In May, over 
15 individuals had overdosed on synthetic drugs and were taken 
to the ER in the span of 24 hours. Unfortunately, stories like 
this have become the new normal. First responders and emergency 
room physicians across the Nation have seen incredible 
increases in calls due to synthetic overdoses, which is why 
they wholeheartedly support my legislation.
    Toxic, synthetic drugs are designed to mimic street drugs 
like marijuana, LSD, cocaine, ecstasy and other hard drugs. 
They can be more potent than the real thing and oftentimes are 
more deadly. Unfortunately, when law enforcement encounters and 
begins to combat a specific synthetic drug compound, 
manufacturers of these substances are able to slightly alter 
the chemical structure of the drug. This puts law enforcement 
at a serious disadvantage, leaving them constantly one step 
behind. As a former U.S. attorney, but more importantly, as a 
father, getting these drugs off the streets and out of the 
hands of our loved ones remains a top priority for me.
    Right before I introduced the bill, I met with a 
constituent in my district, Teresa Woolson, whose son was 
tragically killed by a synthetic drug identified as XLR-11. 
Unfortunately for Teresa, the drug that killed her son managed 
to remain legal and on the streets for 4 years after his death, 
until it was finally added to the controlled substances list. 
This is unacceptable and these families deserve to see justice.
    The potency and danger of synthetic drugs do not only 
threaten users, we are now seeing local law enforcement and 
first responders put in harm's way simply by coming in contact 
with these often lethal substances. Numerous cases across the 
country have resulted in emergency personnel becoming gravely 
ill and even dying while responding synthetic overdoses. The 
threats synthetic drugs pose to our communities and law 
enforcement must be stopped. H.R. 2851 takes a big step towards 
eradicating these harmful substances and protecting our 
communities.
    The SITSA Act will give local, State, and Federal law 
enforcement the necessary tools to target synthetic substances 
and the criminals who traffic them. Specifically, this 
legislation will create a new schedule to the Controlled 
Substances Act and establish a mechanism by which synthetic 
analogues can be temporarily or permanently added to that 
schedule in as little as 30 days after the chemical composition 
is determined by the Attorney General. The new schedule, 
Schedule A, will also add 13 synthetic fentanyls that have been 
identified by the DEA as an immediate threat to public health 
and safety. These synthetics have been confirmed as the cause 
of death in at least 162 cases in the United States. Finally, 
the bill maintains firm penalties for foreign manufacturing and 
importation and provides a multistep sentencing process which 
includes application of existing Federal guidelines. The goal 
of this legislation is to not only prevent drug abuse, but to 
facilitate proper research so that we may better understand 
these chemical compounds.
    The stories of synthetic drug abuse are in no way limited 
to my area of the country; this is a nationwide epidemic. I 
respectfully ask this subcommittee to consider the SITSA Act 
because every moment we fail to act; another person is effected 
by synthetic drugs.
    This summer, the Judiciary Committee unanimously passed 
this bipartisan legislation. We have worked with Members on 
both sides of the aisle as well as stakeholders across the law 
enforcement and health communities. I welcome your comments and 
amendments so that we can make this bill a powerful tool in 
eradicating these harmful substances.
    Again, I thank you for allowing me to testify this morning 
and urge this subcommittee to take action on H.R. 2851.

    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    The Chair recognizes the gentleman from Massachusetts, Mr. 
Keating, for 3 minutes, please.

   STATEMENT OF HON. WILLIAM R. KEATING, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Keating. Thank you, Mr. Chairman.
    Let me just go off my notes and try and speak from the 
heart. Before I was a Member of Congress, I was a DA for 12 
years. Started a task force. Now, it's over a decade and a half 
on--at the time, heroin task force, but it was the result of my 
work as a DA.
    We would go to unattended deaths. We would find out that 
the person there had no criminal record. They started their 
addiction with prescription drugs, went to heroin--it was just 
cheaper, more available, believe it or not--and then they died.
    I consoled parents who lost the child. I worked with 
grandparents who were raising their children. In my own family, 
I lost a cousin to an overdose right after he was coming out of 
detox, the most dangerous time. On a brighter note, I have 
another family member a decade and a half in recovery.
    So I've seen this first hand. I've dealt with it in my 
district now. Since we are sharing that, one of my communities 
I share with Representative Kennedy.
    At Fall River, Mass., they are on pace for over a 
thousand--just this one city over a thousand overdoses this 
year and over a hundred deaths. It is the effect of fentanyl 
and carfentanyl in our area.
    In my district, I have four of the five leading counties in 
terms of opioid deaths.
    I want to thank this committee, though, for the work they 
have done with the CARA Act, with 21st Century Cures. You are 
working--I think that work is at risk if we backtrack on the 
availability of treatment through the ACA or another source 
because, as you know, 34 percent of the people before then did 
not have the guarantee of that treatment, which is important.
    Eighteen percent didn't have the coverage for mental health 
treatment that is necessary as well. In the Medicaid 
expansion--those States that did it--there is now 11 million 
low-income Americans covered by this.
    I also want to thank you on efforts that we've worked on a 
bipartisan basis. I worked on efforts with the STOP Act, which 
was part of this committee. I hope that it moves forward.
    Some of that is being done administratively where we look 
at making our drugs that are there tamper resistant--abuse 
resistant. Cosponsoring a Saves Act also, which allows a 
coprescription of Naloxone that is there--it solves the problem 
for the medical community and work with the veterans in terms 
of making sure they are educated.
    I just heard my colleague talk about the fact that we deal 
with this in three ways. The interdiction is limited. I just 
had a private meeting, since I am on Homeland Security, in my 
office with the leaders in terms of Customs and Border Patrol 
and what is going on.
    It is limited because so much of it's increased through the 
mail, through Fed Ex, through UPS. Very hard to deal with in 
that respect, although we should do what we can to do it.
    Prevention is important, obviously, in terms of medical-
assisted treatment and dealing with the middle school 
population.
    Let me just conclude with this, because I was up last night 
thinking what I was going to say to you today. About 7 years 
ago when I got here, four Members of Congress, myself included, 
sat down with the FDA and people just to air out some real 
concerns. Only myself and Representative Hal Rogers are still 
here from that group.
    At the end of listening to us, all these experts came and 
they said, Congressman, you don't understand--you don't 
understand about medicine. You don't understand about medical 
treatment. We are there to deal with some pain and, you know, 
that is part of our reason.
    And I said--and I slammed the table and I said, you don't 
understand about pain--the pain of losing a son or a daughter, 
a grandchild. The pain of families--the pain of what it does to 
your income and work when this happens. That kind of pain 
doesn't go away.
    And we haven't progressed enough from that, frankly. It is 
great for this committee. It is great, I think, for myself to 
take whatever expert advice we can.
    But on this issue, people are depending on us. We've got to 
create the urgency and deal with it ourselves. We can't rely on 
other people to do it. In many cases, we are the court of last 
resort.
    We can do this. We can work together and we can make sure 
it can be done. But let's do it ourselves and let us take that 
leadership, and I want to thank you for the leadership you've 
shown in this, and I plan to work with you any way I can.
    Thank you.
    [The prepared statement of Mr. Keating follows:]

             Prepared statement of Hon. William R. Keating

    Chairman Burgess, Ranking Member Green, and other 
distinguished members of the committee, thank you for the 
opportunity to testify about this critical issue.
    Dating back to my time as District Attorney, I have 
witnessed the devastation of the opioid crisis for nearly two 
decades. Countless families in my area have felt the effects, 
including my own. I have been called to sites of unattended 
deaths resulting from overdose. I have consoled parents who 
have lost a child to an overdose. I have worked with 
grandparents who are raising their grandchildren because of 
addiction. And all of this was before I got to Congress 7 years 
ago, when the number of opioid-related deaths was 45 percent 
lower than it is today. Today, we even have entire facilities 
dedicated to babies born addicted to opioids. As the members of 
this committee know, we cannot continue only to talk about this 
at arm's length. This goes beyond just numbers or statistics. 
People are feeling real pain. And we are losing an entire 
generation.
    The district I represent in Congress includes four of the 
top five counties in Massachusetts by opioid death rate. 
Further, Fall River, Massachusetts, a city I represent along 
with Congressman Kennedy, is projected to see at least 1,000 
opioid overdoses and over 100 deaths in 2017 alone. This is a 
horrible scourge for my constituents, and as evinced by the 
need for this hearing, a tragic epidemic nationwide.
    To begin, I thank this committee for their work guiding the 
House through enactment of two important laws, laws which laid 
meaningful groundwork for progress in battling the opioid 
crisis. The strategy outlined in the Comprehensive Addiction 
and Recovery Act (CARA) and the $1 billion in funding included 
in the 21st Century Cures Act have been significant steps in 
the right direction. More people have access to treatment, more 
health professionals understand early signs of addiction, and 
the number of opioid prescriptions has declined. However, some 
of the health legislation we have seen this year places this 
progress at risk.
    Prior to the Affordable Care Act (ACA), an estimated 34 
percent of insurance plans did not cover treatment for opioid 
use and other substance use disorders, and 18 percent did not 
provide coverage for any mental health conditions. The ACA 
required insurance policies to include this coverage. 
Similarly, the law's Medicaid expansion provided access to 
treatment for substance use disorders to 11 million low-income 
Americans. In fact, at an estimated $60 billion in coverage for 
behavioral health services each year, Medicaid is the largest 
source of funding for mental healthcare in the country--
including services related to substance use disorders. Efforts 
to repeal the Affordable Care Act and cut funding for Medicaid 
place this coverage at grave risk. Accordingly, I am committed 
to defending the Affordable Care Act and preserving access to 
addiction treatment for all Americans.
    Aside from these concerns, I am encouraged that we do find 
consensus elsewhere. For example, we agree the solution to this 
crisis requires a multipronged approach. Last Congress, I 
introduced three bipartisan pieces of legislation aimed at 
combatting the opioid crisis from three different fronts. The 
first, the Stop Tampering of Prescription Pills Act, calls on 
the Food and Drug Administration to facilitate the creation of 
tamper-resistant formulations for commonly misused pain 
medication. The second, the Coprescribing Saves Lives Act, 
encourages physicians to coprescribe naloxone alongside opioid 
prescriptions and make naloxone more widely available in 
Federal health settings. The legislation also authorizes a 
grants program to funds State-level efforts to encourage the 
establishment of coprescribing guidelines, assist in the 
purchase of naloxone, fund training for health professionals 
and patients, and support patient copays. Last, the Safe 
Prescribing for Veterans Act outlines a common-sense plan to 
decrease opioid overuse among veterans by establishing a pain 
management continuing education requirement for opioid 
prescribers affiliated with the Department of Veterans Affairs. 
I look forward to working with my colleagues as I reintroduce 
these initiatives this Congress.
    We in this House are constantly learning about innovative 
approaches to pain management, improved methods of treating 
addiction, and novel ideas for opioid disorder prevention and 
education. There are even technologies that function as 
alternatives to pain medications, such as spinal cord 
stimulators implanted as long-term solutions to chronic pain. I 
appear before this committee ready to work on new approaches to 
caring for those who need help and ensuring our families, our 
neighbors, and all Americans have the resources they need as 
they seek a path down the road to recovery.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    The Chair recognizes the gentleman from Minnesota, Mr. 
Paulsen, for 3 minutes, please.

 STATEMENT OF HON. ERIK PAULSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Paulsen. Thank you, Mr. Chairman, and also for this 
opportunity to speak about the opioid addiction in Minnesota.
    Minnesota is like the rest of the country. It is struggling 
with the crisis. It is tearing families apart through addiction 
and death and the numbers are only getting worse.
    Minnesota saw a 12 percent rise in opioid deaths from in 
2016 over 2015. The crisis affects Minnesotans of all 
backgrounds in rural communities, big cities, and in our 
suburbs.
    Just a year and a half ago in my hometown of Chanhassen, we 
saw the passing of music legend Prince due to an opioid 
overdose. In Minnesota, there are 50 opioid prescriptions 
written for every 100 patients that visit our doctors.
    Clearly, we need to change the culture and our delivery of 
care to stop the flow of opioids when there are proven 
alternative types of treatments that may not require those 
prescriptions.
    When someone requires surgery for back pain, they can 
choose between minimally invasive surgery or the standard 
surgery that requires a long post-surgery stay in the hospital 
and powerful painkillers.
    One way to reduce the dependency on opioids is to use 
procedures that are minimally invasive and do not require long 
hospital stays and opioids to dull the pain from other invasive 
procedures.
    An example is minimally invasive sacroiliac, or IS, 
infusion, which has been shown to reduce the need for dangerous 
pain killers.
    Unfortunately, some private insurers don't cover this 
procedure, forcing people to choose the standard surgery that 
requires addictive opioids for pain management.
    Instead of simply prescribing a drug for the pain, 
providers should also look to other therapies and insurers so 
they can proactively cover these therapies so that people are 
given more choices to manage their pain.
    We must hold providers and patients accountable and 
encourage insurers to cover more types of procedures. The 
opioid crisis also affects businesses including our local 
pharmacies.
    According to the DEA, in 2014 there were 16 armed robberies 
involving stolen opioids at Minnesota pharmacies. Last year, 
that number doubled. People get hurt and die during these 
crimes.
    Dangerous drugs are put on the street. Businesses have to 
close their doors because of safety concerns and communities 
lose vital resources and neighbors because of addiction and the 
crime that goes with it.
    Earlier this year, I spoke to a mom from Maple Grove, 
Minnesota, whose son bought carfentanyl online, consumed it, 
and died.
    We need to increase funding for safety resources, for 
addicts and trained law enforcement officers to spot and stop 
opioid-related crime.
    Our communities depend on access to health care and we need 
to do more to reduce the crime and death associated with opioid 
addiction if we are going to help get people--and get the care 
that they need.
    I want to thank you, Mr. Chairman. I look forward to 
working with you and the rest of the members on your committee 
for bipartisan solutions to the problems associated with opioid 
addiction.
    [The prepared statement of the Mr. Paulsen follows:]

                Prepared statement of Hon. Erik Paulsen

    Thank you, Chairman Walden and Ranking Member Pallone, for 
this opportunity to speak about the opioid addiction crisis in 
Minnesota.
    Minnesota is like the rest of the United States in and 
unfortunately, it is suffering with addiction to and death from 
opioids.
    It's a crisis tearing families apart through addiction and 
death and the numbers are only getting worse. Minnesota saw a 
12 percent rise in 2016 over 2015-with 376 opioid related 
deaths. The crisis affects Minnesotans of all backgrounds in 
rural communities, big cities, and suburbs. In April 2016, in 
my hometown of Chanhassen, we saw the passing of music legend 
Prince due to an opioid overdose.
    In Minnesota, there are 50 opioid prescriptions written for 
every 100 patients that visit our doctors. Clearly we need to 
change the culture in our delivery of care to stop the flow of 
opioids when there are proven alternative types of treatments 
that may not require those prescriptions.
    When someone requires surgery for back pain, they can 
choose between minimally invasive surgery or the standard 
surgery that requires a long post-surgery stay in the hospital 
and powerful pain killers. One way to reduce the dependency on 
opioids is to use procedures that are minimally invasive and so 
do not require long hospital stays and opioids to dull the pain 
from other invasive procedures. An example is minimally 
invasive sak-roh-il-ee-ak joint, or SI fusion, which has been 
shown to reduce the need for dangerous pain killers.
    Unfortunately, some private insurers don't cover this 
procedure, forcing people to choose the standard surgery that 
requires addictive opioids for pain management. Instead of 
simply prescribing a drug for the pain, providers should look 
to other therapies and insurers should proactively cover those 
therapies so that people are given more choices to manage their 
pain. We must hold providers and patients accountable, and 
encourage insurers to cover more types of procedures.
    The opioid crisis also affects businesses, many times our 
local pharmacies. According to the DEA, in 2014 there were 16 
armed robberies involving stolen opioids at Minnesota 
pharmacies. Last year, that number doubled. People get hurt and 
die during these crimes, dangerous drugs are put on the street, 
businesses have to close their doors because of safety concerns 
and communities lose vital resources and neighbors because of 
addiction and the crime that goes with it.
    Earlier this year, I spoke to a mother Maple Grove, MN 
whose son bought carylfentanyl online, consumed it, and died. 
We must increase funding for safety resources for addicts and 
train law enforcement officers to spot, and stop opioid-related 
crime. Our communities depend on access to health care, but we 
must do something to reduce the crime and death associated with 
opioid addiction if we are going to help people get and keep 
the care they need.
    I thank you again, Mr. Chairman and Ranking Member Pallone, 
for allowing me this opportunity, and I look forward to working 
with to come up with more bipartisan solutions to the problems 
associated with opioid addiction.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Chair recognizes the gentlelady from Delaware, Ms. 
Rochester, for 3 minutes, please.

  STATEMENT OF HON. LISA BLUNT ROCHESTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Ms. Blunt Rochester. Thank you, Mr. Chairman. Thank you, 
Mr. Chairman.
    I want to start off by saying as a former Deputy Secretary 
of Health and Social Services in Delaware, former Secretary of 
Labor, and community member and family member, substance abuse 
has touched my life and so many others, everything from our 
economy to our prison system to our families, from crack to 
heroin to all forms of opioids.
    And in many ways, Delaware reflects our Nation. Geography--
we are urban and rural. We mirror the country in terms of 
demographics and, unfortunately, like the rest of the Nation we 
are facing a growing opiate crisis.
    Just yesterday, our death toll from this horrible disease 
rose to 171 Delawareans for the year. That might not seem like 
a lot to some, but to put that into perspective, that many 
deaths in a State the size of Delaware made us number 13 per 
capita in the country last year for opioid overdose deaths, 
according to the Kaiser Family Foundation.
    This public health crisis is prevalent in districts across 
the country, and Congress has the opportunity to impact it in a 
meaningful way and take action.
    This is why it's so important to tackle this issue on a 
bipartisan basis. The opioid addiction has taken a strong hold 
across the Nation and we must work together to combat the flow 
of drugs throughout our country.
    This is a problem for all States but particularly on the 
East Coast, where compact States means that none of us can act 
alone. Drug trafficking doesn't stop at Delaware's borders with 
Maryland or Pennsylvania or New Jersey, and neither does this 
public health crisis.
    Delaware and our neighbors have made great progress through 
collaborative programs like HIDTA and prescription drug 
monitoring programs. But that should just be the beginning. We 
aren't doing enough.
    But it is also important to remember that there are people 
in Delaware and in all of our communities making a difference. 
Every day on the ground for people, for families, and in 
neighbourhoods they are combatting this crisis on the ground.
    I want to thank all those people who are fighting, whether 
they are in public health, whether they are doctors, first 
responders, the faith community, community groups, families--
all those who are doing their part to make sure that we tackle 
this issue.
    We in Congress need to join them. I hope that we in 
Congress will also continue to work together and address this 
epidemic by providing resources for prevention, support for 
recovery, and access to care.
    Thank you so much. I yield back my time.
    [The prepared statement of Ms. Blunt Rochester follows:]

            Prepared statement of Hon. Lisa Blunt Rochester

    In many ways, Delaware reflects our Nation. Geography--
we're urban and rural, demographics, and unfortunately we are 
facing a growing opioid crisis.
    Just yesterday, Delaware's death toll from this horrible 
disease rose to 171 for the year. This public health crisis is 
prevalent in districts across the country and Congress has the 
opportunity to impact it in a meaningful way and take action. 
This is why it's so important to tackle this on a bipartisan 
basis.
    The opioid epidemic has taken a strong hold across the 
Nation, and we must work together to combat the flow of drugs 
throughout our country. This is a problem for all States, but 
particularly on the East Coast, where compact States mean that 
none of us can act alone. Drug trafficking doesn't stop at 
Delaware's borders with Maryland, or Pennsylvania, or New 
Jersey--and neither does this public health crisis. Delaware 
and our neighbors have made great progress through 
collaborative programs like HIDTA and prescription drug 
monitoring programs, but that should be just the beginning. We 
aren't doing enough.
    But there are people in Delaware, and in all of our 
communities, making a difference. Every day, on the ground, for 
people and families and neighborhoods they are combating this 
crisis on the ground. Thank you to the people who are 
fighting--the doctors, public safety officers, community 
groups, all of those doing what they can to help those around 
them. We need to join them.
    I hope that we, in Congress, will all continue to work 
together to address this epidemic by providing resources for 
prevention, support for recovery, and access to care.

    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back.
    We are going to have a series of votes, and it is my hope 
that we will adjourn when votes occur. I am going to ask the 
Members who are here, and I appreciate you staying with us for 
so long.
    Let us continue to yield 3 minutes, but let's try to do it 
in 2 so everyone gets a chance to testify before the vote. So 
all the Members who remain, if you will join us at the table.
    And Ms. Chu, you are recognized for 3 minutes.

 STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Ms. Chu. Mr. Chair, I want to start by thanking you for 
allowing Members to testify on this issue.
    Today, I would like to draw the subcommittee's attention to 
the significant needs of those who have sought help for 
addiction, completed treatment and are just beginning to live 
in recovery.
    These individuals often choose to live in sober living 
facilities after completing treatment in order to ease into the 
routines of daily life.
    However, there are far too many sober homes that are 
commonly unequipped to handle patients at risk of overdose or 
do not employ staff with specialty training for individuals in 
recovery.
    Worst of all, some of these facilities do not encourage 
recovery at all but exploit vulnerable people recently released 
from treatment in order to collect insurance payments.
    This could mean life or death for people like Tyler from my 
district of Pasadena, California, who died from an overdose 
after his sober home didn't recognize the symptoms of his 
overdose and didn't have Naloxone, the medication that can 
reverse an overdose. Tyler was only 23 years old.
    Unfortunately, this is not an isolated issue. I have heard 
from advocates in Arizona, Pennsylvania, Missouri, Ohio, and 
countless others who are concerned for their friends and 
neighbors living in unregulated sober living facilities.
    I would like to submit for the record a New York Times 
article from 2015 and a May 2017 report from the Department of 
Justice outlining abuse and fraud at sober homes in New York 
and Florida.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Chu. These reports describe sober living facilities 
that lacked access to Naloxone, ordered unnecessary tests on 
residents to exhaust their insurance benefits, and required 
residents to relapse and reenter treatment so resident 
directors could claim some of the Medicaid benefits.
    Licensing for recovery residences or sober living 
facilities vary substantially from State to State, and there 
are facilities in every State operating without licenses at 
all.
    Further, oversight of these facilities is minimal so 
patients and families with loved ones in recovery struggle to 
distinguish good actors from bad ones.
    For some individuals, they may not discover their facility 
is negligent until it is too late. That is why this week I plan 
to introduce the Ensuring Quality Sober Living Act. My 
legislation would require the Substance Abuse and Mental Health 
Services Administration to develop a set of best practices for 
residential recovery facilities so patients, families, and 
States can distinguish quality sober living facilities from 
sites that are fraudulent or unequipped to offer appropriate 
assistance.
    The bill would require SAMHSA to disseminate these best 
practices to each State and authorize the agency to provide 
technical assistance and support.
    My bill would require States to help SAMHSA set up criteria 
to distinguish quality sober living facilities. These best 
practices to allow the guidelines for common sense measures 
like requiring that all fees and charges be explained to 
residents before entering a binding agreement and that Naloxone 
is available and accessible and that staff and residents are 
trained to use it in emergencies.
    Thank you very much.
    [The prepared statement of Ms. Chu follows:]

                  Prepared statement of Hon. Judy Chu

    Chairman Burgess and Ranking Member Green, I want to start 
by thanking you for allowing Members to testify on this issue, 
which has impacted all of our districts.
    Today, I would like to draw the subcommittee's attention to 
the significant needs of those who have sought help for 
addiction, completed treatment, and are just beginning to live 
in recovery. These individuals often choose to live in sober 
living facilities after completing treatment in order to ease 
into the routines of daily life. However, ``sober homes'' are 
commonly unequipped to handle patients at risk of overdose, or 
do not employ staff with specialty training for individuals in 
recovery. Worst of all, some of these facilities do not 
encourage recovery at all, but exploit vulnerable recently 
released from treatment in order to collect insurance payments. 
This can mean life or death for people like Tyler, from my 
district of Pasadena, California, who died from an overdose 
after his sober home didn't recognize the symptoms of his 
overdose, or have Naloxone, the medication that can reverse an 
overdose, on hand. Tyler was only 23 years old.
    Unfortunately, this is not an isolated issue. I have heard 
from advocates in Arizona, Pennsylvania, Missouri, Ohio, and 
countless others who are concerned for their friends and 
neighbors living in unregulated sober living facilities. I 
would like to submit for the record a New York Times article 
from 2015 and a May 2017 report from the Department of Justice 
outlining abuse and fraud at sober homes in New York and 
Florida. These reports describe sober living facilities that 
lacked access to Naloxone, ordered unnecessary tests on 
residents to exhaust their insurance benefits, and required 
residents to relapse and re-enter treatment so resident 
directors could claim some of the Medicaid benefits.
    Licensing for recovery residences, or sober living 
facilities, varies substantially from State to State, and there 
are facilities in every State operating without licenses at 
all. Further, oversight of these facilities is minimal, so 
patients and families with loved ones in recovery struggle to 
distinguish good actors from bad ones. For some of these 
individuals, they may not discover that their facility is 
negligent until it is too late.
    That is why this week, I plan to introduce the Ensuring 
Quality Sober Living Act. My legislation would authorize the 
Substance Abuse and Mental Health Services Administration 
(SAMHSA) to develop a set of best practices for residential 
recovery facilities so patients, families, and States can 
distinguish quality sober living facilities from sites that are 
fraudulent or unequipped to offer appropriate assistance to 
their residents. The bill would require SAMHSA to disseminate 
these best practices to each State, and authorize the agency to 
provide technical assistance and support to States that wish to 
adopt or implement these best practices.
    My bill would allow States, who are struggling to address 
the opioid crisis, to work with SAMHSA to help set up criteria 
to designate quality sober living facilities. These best 
practices will follow the guidelines that have been published 
by the National Association of Recovery Residences, which 
provide benchmarks for various levels of quality facilities. 
These benchmarks include common-sense measures like requiring 
that all fees and charges be explained to residents before 
entering a binding agreement, that paid work performed at the 
facility be completely voluntary and not impede the recovery 
process, and that Naloxone is available and accessible, and 
that staff and residents are trained to use it in emergencies.
    Thank you again for taking the time to hear from your 
colleagues on ways to address this growing crisis. I ask that 
as you continue to consider legislation on the opioid epidemic, 
you include ways to address the needs of those newly in 
recovery.

    Mr. Burgess. Gentlelady's time has expired.
    The Chair recognizes the gentlelady from Indiana, Mrs. 
Walorski, for 3 minutes, please.

STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mrs. Walorski. Thank you, Mr. Chairman.
    Indiana is no different than any other State that we've 
heard from sitting here. Pain is the number-one reason why 
Americans seek health care, the number-one cause of disability 
that costs the U.S. economy more than $600 billion in direct 
health care costs and lost productivity.
    The veteran population is particularly impacted by the 
chronic pain crisis with more than 50 percent of the VA patient 
responding and reporting to chronic pain.
    We can reduce demand by more effectively treating chronic 
pain and providing better access to FDA-approved Nonopioid 
pharmaceuticals, advanced medical devices, and integrated 
alternative therapies.
    As we develop policy, we should, number one, recognize the 
importance of a multi disciplinary approach. Chronic pain is 
pervasive and is largely unaddressed by the public health care 
system.
    Promote--and number two, promote cutting-edge pain research 
to encourage effective opioid alternatives. High quality 
evidence is urgently needed to help clinicians and patients 
make informed decisions about how to manage chronic pain safely 
and understand the causes and mechanisms of chronic pain.
    Advanced best practices and pain management within 
Medicare. In 2016, one in three Medicare Part D beneficiaries 
received a prescription opioid. The GAO should conduct a study 
of the coverage options offered within Medicare for evidence-
based pain management as an alternative to opioid 
prescriptions.
    Also, there should be a review of the graduate medical 
education programs' training and education of providers on pain 
management and opioid prescriptions.
    I hope these ideas will be helpful in future planning 
discussions to reduce the abuse of opioids in our communities.
    Thank you, Mr. Chairman. I yield back my time.
    [The prepared statement of Mrs. Walorski follows:]

               Prepared statement of Hon. Jackie Walorski

    Thank you, Chairman Burgess and Ranking Member Green, for 
holding this hearing on the opioid crisis.
    America is facing two interrelated public health epidemics: 
chronic pain and opioid addiction, misuse, and abuse. A long-
term solution to the opioid epidemic will not be achieved 
without addressing the challenge of appropriately treating 
chronic pain. According to the Institute of Medicine (IOM), 100 
million Americans suffer from chronic pain. Pain is the number 
one reason why Americans seek health care, the number one cause 
of disability, and costs the US economy more than $600 billion 
in direct healthcare costs and lost productivity. The veteran 
population is particularly impacted by the chronic pain crisis 
with more than 50 percent of VA patients reporting chronic 
pain.
    Thousands of lives are lost to both opioid-related overdose 
and chronic pain-related suicide. Reducing the supply of or 
access to opioids will not, by itself, solve this crisis. 
Currently, 80 percent of heroin users started with prescription 
opioids. We must reduce demand for them by more effectively 
treating chronic pain, and providing better access to FDA-
approved nonopioid pharmaceuticals, advanced medical devices, 
and integrated alternative therapies.
    As we look to develop policy, we should:
    1. Recognize the importance of a multidisciplinary approach 
to pain management as a key component of overcoming the opioid 
crisis. Chronic pain is pervasive and largely unaddressed 
public health crisis. Solving it is a crucial part of solving 
the larger opioid epidemic.
    2. Promote cutting edge pain research to encourage 
effective opioid alternatives. High-quality evidence is 
urgently needed to help clinicians and patients make informed 
decisions about how to manage chronic pain safely and 
understand the causes and mechanisms of chronic pain.
    3. Advance best practices in pain management in Medicare. 
Currently 1 in 3 Medicare beneficiaries are prescribed an 
opioid. The GAO should conduct a study of the coverage options 
for evidence-based pain management. In addition, there should 
be a study conducted on the Graduate Medical Education program 
on the training and education that providers receive regarding 
pain management.
    I hope these ideas will be helpful in future policy 
discussions to reduce the abuse of opioids in our communities. 
Thank you for the time, and I yield back.

    Mr. Burgess. The Chair thanks the gentlelady.
    Mr. Donovan, you are recognized for 3 minutes.

 STATEMENT OF HON. DANIEL M. DONOVAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Donovan. Thank you, Mr. Chairman.
    Chairman Burgess, Ranking Member Green, and members of the 
subcommittee, thank you for the opportunity to testify before 
you today to share my thoughts on the opioid crisis.
    This year alone, there have been more than 100 reported 
overdose deaths in my district. That number would be much 
higher if it weren't for the 574 Naloxone saves reported by our 
local hospitals and the New York City Police Department.
    Before I came to Congress, I served as district attorney of 
Richmond County, which comprises of Staten Island, New York. 
Based on that experience, my time in Congress, and input from 
local experts like the Staten Island Partnership for Community 
Wellness, I support a three-tiered approach for this problem 
that addresses education, treatment, and enforcement.
    Targeted education campaigns can teach the next generation 
of potential users about the dangers of substance abuse 
including particularly sinister compounds like fentanyl.
    Treatment is, of course, crucial. We have learned that 
recovery is a cycle and relapses will happen. Our policies 
should reflect that reality. Our society now understands that 
addiction is a medical illness and not a criminal act.
    Let us help the addicted, not punish them. To that end, 
consistently appropriating grants for local treatment programs 
is the most effective way to help end the cycle of addiction 
from the Federal level.
    Lastly, we cannot ignore the importance of enforcement, 
particularly against traffickers. My Comprehensive Fentanyl 
Control Act would ban pill presses that traffickers use to 
create their deadly fentanyl-laced cocktails. It would also 
update sentencing guidelines to reflect the fact that a few 
grains of--few grains of rice worth of fentanyl can kill an 
individual.
    I firmly believe that the experts on the ground are best 
equipped to tailor their approaches to meet their communities' 
needs. It is our job as legislators to provide them with the 
resources necessary to accomplish their mission.
    Legislation like the 21st Century Cures Act and the 
Comprehensive Addiction and Recovery Act, which I championed to 
constituents back in my district, are exactly the right 
approach.
    Thank you again for the opportunity to share my thoughts. I 
look forward to working with the subcommittee and to continuing 
to address this national crisis.
    Thank you, sir.
    [The prepared statement of Mr. Donovan follows:]

           Prepared statement of Hon. Daniel M. Donovan, Jr.

    Chairman Burgess, Ranking Member Green, and members of the 
subcommittee, thank you for the opportunity to testify before 
you today to share my thoughts on the opioid crisis.
    This year alone, there have been more than 100 reported 
overdose deaths in my district. That number would be much 
higher if it weren't for the 574 Naloxone saves reported by our 
local hospitals and the NYPD.
    Before I came to Congress, I served as District of Attorney 
of Richmond County, which comprises Staten Island, NY. Based on 
that experience, my time in Congress, and input from local 
experts like the Staten Island Partnership for Community 
Wellness, I support a three-tiered approach that addresses 
education, treatment, and enforcement.
    Targeted education campaigns can teach the next generation 
of potential users about the dangers of substance abuse, 
including particularly sinister compounds like fentanyl.
    Treatment is of course crucial. We've learned that recovery 
is a cycle and relapses will happen. Our policies should 
reflect that reality. Our society now understands that 
addiction is a medical illness and not a criminal act. Let's 
help the addicted, not punish them. To that end, consistently 
appropriating grants for local treatment programs is the most 
effective way to help end the cycle of addiction from the 
Federal level.
    Lastly, we can't ignore the importance of enforcement, 
particularly against traffickers. My Comprehensive Fentanyl 
Control Act would ban pill presses that traffickers use to 
create their deadly, fentanyl-laced cocktails. It would also 
update sentencing guidelines to reflect the fact that a few 
grains of rice worth of fentanyl can kill.
    I firmly believe that experts on the ground are best 
equipped to tailor their approaches to meet their community's 
needs. It's our job as legislators to provide them with the 
resources necessary to accomplish their mission. Legislation 
like the 21st Century Cures Act and the Comprehensive Addiction 
and Recovery Act--which I championed to constituents back in my 
district--are exactly the right approach.
    Thank you again for the opportunity to share my thoughts. I 
look forward to working with the subcommittee to continue 
addressing this national crisis.

    Mr. Burgess. Chair thanks the gentleman.
    Representative Hartzler, you are recognized for 3 minutes.

STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mrs. Hartzler. Thank you, Mr. Chairman.
    Mr. Burgess. But only use two.
    Mrs. Hartzler. And thank you for this opportunity.
    In Missouri, the scourge of drug abuse is a growing problem 
and it will take all of us to help solve it. I have heard of 
too many stories of families torn apart and livelihoods in 
tatters.
    To this end, I ask the committee to explore ways to make it 
easier for faith-based organizations to offer addiction 
treatment programs. I have seen firsthand the power of faith-
based recovery programs in treating addiction.
    In my own district, I have visited multiple Christian 
organizations that have high rates of success in treating 
addiction.
    By centering on a community of faith, these organizations 
provide support structures that stay with recovering addicts 
their entire lives. In some cases, they also provide services 
that aren't available in other addiction recovery programs in 
the area.
    For instance, one religious organization in my district 
provides housing for both mothers and their children while the 
mothers seek treatment for their addiction. No doubt their 
recovery is greatly facilitated by the additional support of 
their children.
    I firmly believe faith-based recovery programs are part of 
a holistic approach to treat both the body and spirit. They 
provide emotional and spiritual support for individuals and 
their families during the darkest times and I ask the committee 
to seriously consider making available and expanding any and 
all funding opportunities to faith-based organizations 
providing addiction, treatment, and programs.
    In addition, on a second topic, the IMD exclusion caps the 
number of beds mental health facilities receiving Medicaid can 
have at 16. Multiple health care groups have come into my 
office saying this blocks critical access to treatment for 
people who need inpatient treatment for addiction including 
some of society's most vulnerable--veterans, pregnant addicted 
women, women with dependent children, and youth.
    I encourage the committee to explore ways to provide some 
relief to this outdated rule. Thank you very much. I yield 
back.
    [The prepared statement of Mrs. Hartzler follows:]

               Prepared statement of Hon. Vicky Hartzler

    Chairman Burgess, Ranking Member Green, and members of the 
Subcommittee on Health, I thank you for the opportunity to talk 
today about the opioid crisis that's facing our Nation, and I 
appreciate the committee continuing to look for solutions to 
this ongoing epidemic.
    In Missouri, the scourge of drug abuse is a growing 
problem, and it will take all of us to help solve it. I have 
heard too many stories of families torn apart and livelihoods 
in tatters. Over one-twelfth of U.S. and Missouri adults report 
substance use disorders, and this rate is even higher among 
young adults. As we continue to address this problem, we must 
consider all avenues available. To that end, I ask the 
committee to explore ways to make it easier for faith-based 
organizations to offer addiction treatment programs.
    I have seen first-hand the power of faith based recovery 
programs in treating addiction. In my own district, I have 
visited multiple Christian organizations that have high rates 
of success in treating addiction. By centering on a community 
of faith, these organizations provide support structures that 
stay with recovering addicts their entire lives. In some cases, 
they also provide services that aren't available in other 
addiction recovery programs in the area. For instance, one 
religious organization in my district provides housing for both 
mothers and their children while the mothers seek treatment for 
their addiction. No doubt, their recovery is greatly 
facilitated by the additional support for their children.
    I firmly believe faith based recovery programs are part of 
a holistic approach that treat both the body and spirit. They 
provide emotional and spiritual support for individuals and 
their families during their darkest times. These religious 
organizations provide a foundation for recovery that medication 
assisted treatment alone cannot. It's the love and power of God 
and the life purpose He gives that ultimately provides a 
sustainable path to recovery for many individuals. I ask the 
committee to seriously consider making available and expanding 
any and all funding opportunities to faith based organizations 
providing addiction treatment programs.

                        Repeal the IMD Exclusion

    The IMD exclusion caps the number of beds mental health 
facilities receiving Medicaid can have at 16. Multiple health 
care groups have come into my office saying this blocks 
critical access to treatment for people who need inpatient 
treatment for addiction, including some of society's most 
vulnerable: veterans, pregnant addicted women, women with 
dependent children, and youths. I encourage the committee to 
explore ways to provide some relief to this outdated rule.

    Mr. Burgess. Chair thanks the gentlelady. Gentleman from 
Pennsylvania is recognized for 3 minutes, but only use 2, 
please.

  STATEMENT OF HON. BRIAN K. FITZPATRICK, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    As this committee is aware, drug overdoses involving 
prescription opioids and heroin have nearly quadrupled since 
1999 and are now the leading cause of accidental death in this 
Nation.
    Substance abuses costs our country over $600 billion 
annually. In my home State of Pennsylvania, drug-related deaths 
and opioid addiction rates were amongst the highest in the 
Nation.
    Within one year, Pennsylvania's opioid-related deaths rose 
20 percent while my district's increased by 50 percent.
    Mr. Chairman, this epidemic is costing us both resources 
and precious lives, like my constituent, Carlos Castellanos. 
Carlos, in Falls Township, always loved sharing his talents and 
love of music by playing the guitar and drums at school for a 
local church group.
    However, like so many around the Nation, Carlos got 
involved with drugs during his time at school and even spent 
some time in jail. But with the strength and support of his 
family he began receiving treatment and his life improved. He 
helped others by volunteering at a recovery home and he brought 
people suffering in similar situations to treatment programs.
    Last December, Carlos walked his mother, Pamela, down the 
aisle for her wedding. He was getting ready to get back to 
school. He had a stead job and a girlfriend.
    It would seem that many of Carlos' battles with addiction 
were heading in the right direction, a needed point of hope in 
the war that has caused so much devastation.
    Then, Mr. Chairman, on December 23rd, just days before 
Christmas, two police detectives showed up at Pamela's door to 
tell her the devastating news that no mother can ever prepare 
for.
    Carlos overdosed on a drug laced with fentanyl and was 
unable to be saved.
    Mr. Chairman, Carlos' life and his death cast a bright 
light on the fact that addiction is nothing short of a chronic 
disease and I would also like to bring to this attention what 
my colleague did--the so-called Institute for Mental Disease, 
or IMD, exclusion is a longstanding policy that prohibits the 
Federal Medicaid matching funds to States for services rendered 
to Medicaid enrollees who suffer from substance use disorder 
for mental health treatment.
    Some States, like my State of Pennsylvania, have used the 
in lieu of services provision allowing for inpatient treatment 
but with limitations on population size, facility size and 
length of stay.
    These limitations disproportionately affect those using 
Medicaid, blocking access to treatment for people who need 
inpatient treatment for addiction including some of society's 
most vulnerable.
    I urge my colleagues to adopt the Road to Recovery Act, a 
bill I introduced which addresses real-world concerns expressed 
by local lawmakers, community leaders, and health care 
professionals.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Fitzpatrick follows:]

            Prepared statement of Hon. Brian K. Fitzpatrick

    I would like to start off by thanking Chairman Burgess, 
Ranking Member Green, and members of the Subcommittee on Health 
for holding this hearing.
    Mr. Chairman, drug overdoses involving prescription opioids 
and heroin have nearly quadrupled since 1999 and are now the 
leading cause of accidental death. Substance abuse costs our 
country over $600 billion annually. In my home State of 
Pennsylvania, drug-related deaths and opioid addiction rates 
were among the highest in the country. Within 1 year, 
Pennsylvania's opioid-related deaths rose 20 percent while my 
district's increased by 50 percent.
    This epidemic is costing us both resources and precious 
lives.
    Carlos Castellanos of Falls Township, Bucks County always 
loved sharing his talents and love of music by playing the 
guitar and drums at school and for local church groups.
    However, like so many around the Nation, Carlos got 
involved with drugs during his time in school and even spent 
some time in jail. But, with the strength and support of his 
family, he began receiving treatment and his life improved. He 
helped others by volunteering at a recovery house and he 
brought people suffering in similar situations to treatment 
programs.
    In early December, Carlos walked his mother, Pamela, down 
the aisle for her wedding. He was getting ready to go back to 
school, he had a steady job, and a girlfriend. It would seem to 
many that Carlos' battle with addiction was heading in the 
right direction--a needed point of hope in a war that's caused 
so much devastation.
    Then, on December 23rd, just days before Christmas, two 
police detectives showed up at Pamela's door to tell her the 
devastating news that no mother can prepare for: Carlos had 
overdosed on a drug laced with fentanyl and was unable to be 
saved.
    Mr. Chairman, Carlos' life--and his death--cast a bright 
light on the fact that addiction is nothing short of a chronic 
disease.
    I share this story with Members of this chamber because we 
must realize that we have treat the whole person, not just the 
addiction. We must focus on the underlying issues driving 
people to seek opioids, while increasing the accessibility and 
affordability for prevention, education, treatment, and 
recovery of this disease. The so-called Institutions for Mental 
Diseases--or IMD--exclusion is a long-standing policy that 
prohibits the Federal Medicaid matching funds to States for 
services rendered to Medicaid enrollees who suffer from 
substance use disorder and mental health treatment.
    Some States--including my home State of Pennsylvania--have 
used an ``in lieu of services'' provision allowing for 
inpatient treatment, but with limitations on patient 
population, facility size, and length of stay. These 
limitations disproportionately affect those under Medicaid--
blocking access to treatment for people who need inpatient 
treatment for addiction including some of society's most 
vulnerable.
    That is why I introduced bipartisan legislation that 
eliminates the IMD exclusion for substance use disorder and 
help States expand access to inpatient addiction services for 
Medicaid enrollees in a fiscally responsible manner while not 
intruding on their flexibility to implement care.
    The Road to Recovery Act addresses real-world concerns 
expressed by local lawmakers, community leaders and healthcare 
professionals in my district who endeavor to tackle this 
epidemic each day.
    I urge my colleagues to learn more about this issue and 
support this bipartisan bill, but also to recommit ourselves to 
addressing the addiction crisis and fighting for those who 
suffer.
    I yield back.

    Mr. Burgess. Chair thanks the gentleman.
    Chair recognizes the gentleman from Pennsylvania for 3 
minutes.

    STATEMENT OF HON. RYAN A. COSTELLO, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Costello. Thank you, Mr. Chairman.
    In speaking with constituents about the opioid epidemic, I 
have learned firsthand the impact this epidemic is having on 
our communities in Pennsylvania. It is affecting families and 
individuals of all ages, races, and socioeconomic backgrounds.
    Throughout my congressional district and throughout this 
Nation there are parents, teachers, athletes, doctors, 
teenagers, and seniors struggling with addiction, a disease 
that has no boundaries when it comes to who it affects.
    These families and these individuals are why we must 
continue our work to pass legislation like the Comprehensive 
Addiction Recovery Act and the 21st Century Cures Act, two 
bills I supported that are both now law.
    These bipartisan bills are helping our communities through 
increasing access to treatment and expanding prevention, 
education, and intervention efforts.
    In the communities I represent, a recurring sentiment I 
have heard was, you would not believe how much treatment costs. 
The cost of treatment and recovery is, indeed, crippling for so 
many families, even for individuals who have insurance--$35,000 
for a 30-day at a treatment center, $10,000 for a 10-day detox, 
hundreds of dollars spent on flights to recovery programs 
across the country.
    Families are being forced to refinance their homes, parents 
are taking on second jobs, and retirees are reentering the 
workforce to help pay for treatment for a family member 
struggling with addiction.
    Those seeking help should not be faced with insurmountable 
costs. To help individuals provide assistance--financial 
assistance to family members struggling with addiction, I have 
added my name as a cosponsor to H.R. 1575, the Addiction 
Recovery through Family Health Accounts Act.
    Under current law, individuals can only use funds in their 
health savings account, flexible spending account, or health 
reimbursement arrangement to pay for addiction treatment for 
their spouse or dependents.
    This bill will give individuals the option to use funds 
from these accounts to help family members receiving drug 
treatment, be it a niece, grandfather, cousin, in-law, et 
cetera. This legislation is a step in the right direction in 
alleviating the financial burden of substance abuse treatment.
    I am proud of the work the committee has done to help those 
facing this epidemic and I am committed to continuing this 
work.
    I yield back. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Costello follows:]

              Prepared statement of Hon. Ryan A. Costello

    In speaking with constituents about the opioid epidemic, I 
have learned firsthand the impact this epidemic is having on 
our communities in Pennsylvania--it is affecting families and 
individuals of all ages, races, and socioeconomic backgrounds.
    Throughout my Congressional district and throughout this 
Nation, there are parents, teachers, athletes, doctors, 
teenagers, and seniors struggling with addition--a disease that 
truly knows no boundaries when it comes to who it affects.
    These families, these individuals are why we must continue 
our work to pass legislation like the Comprehensive Addiction 
and Recovery Act, and the 21st Century Cures Act--two pieces of 
legislation I supported that are both now law. These bipartisan 
bills are helping our communities through increasing access to 
treatment, and expanding prevention, education, and 
intervention efforts.
    In the communities I represent, a recurring sentiment I've 
heard was, ``you wouldn't believe how much money we've spent.''
    The cost of treatment and recovery is crippling, even for 
individuals who have insurance $35,000 for a 30-day stay at a 
treatment center. $10,000 for a 10-day detox. Hundreds of 
dollars spent on flights to recovery programs across the 
country.
    Families are being forced to refinance their homes, parents 
are taking on second jobs, and retirees are re-entering the 
workforce to help pay for treatment for a family member 
struggling with addiction.
    Those seeking help should not be faced with these 
insurmountable costs.
    To help individuals provide financial assistance to family 
members struggling with addiction, I have added my name as a 
cosponsor of H.R. 1575, the Addiction Recovery through Family 
Health Accounts Act.
    Under current law, individuals can only use funds in their 
Health Savings Account, Flexible Spending Account, or Health 
Reimbursement Arrangement to pay for addiction treatment for 
their spouse or dependents.
    This bill would give individuals the option to use funds 
from these accounts to help family members receive drug 
treatment--a niece, a grandfather, a cousin, a grandchild's 
spouse, in-laws, etc.
    This legislation is a step in the right direction in 
alleviating the financial burden of substance abuse treatment.
    I am proud of the work we have done in this committee to 
help those facing this epidemic, and I am committed to 
continuing this critical work.

    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    The Chair recognizes the final gentleman from Pennsylvania 
for 3 minutes, but only use 2.

    STATEMENT OF HON. KEITH J. ROTHFUS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Rothfus. Thank you, Mr. Chairman, for holding this 
important hearing today for Members across the country to come 
and testify about this epidemic.
    I think it is interesting that you have had three 
Pennsylvanians right in a row that represents the geography of 
Pennsylvania--eastern, middle, and western. Certain, 
communities in western Pennsylvania are among the hardest hit 
in our national opioid epidemic.
    There has been a staggering amount of overdose deaths 
specifically in my district. In 2016, Allegheny County had 648 
individuals lose their lives from heroin or opioid-related 
overdoses. Last year, that number was 4,342 in Pennsylvania 
alone.
    According to a recent article in the Pittsburgh Post 
Gazette in 2016, the number of overdose deaths in Pennsylvania 
was four times the number of deaths caused by car accidents.
    In other recent reports, three people in my district were 
revived by Narcan after each overdosed at a convenience store. 
Thankfully, the first responders were able to save their lives.
    While it is encouraging to see that both Congress and the 
administration have taken action to address this issue, we 
still have a long way to go. From my perspective, we should be 
taking a three-pronged approach to combatting the epidemic.
    We must implement measures to prevent addiction. We must 
treat addiction once it has taken hold over someone. Finally, 
we must vigorously enforce the laws on the books to stop drug 
traffickers from spreading their poison into our communities.
    To help combat this, I led an effort to include language in 
the landmark Comprehensive Opioid Reduction Act that will help 
ensure our veterans who are at significant risk to have access 
to the specialized program they need--program that they need to 
prevent or overcome opioid addiction. This is one positive step 
in the right direction.
    Another area where Congress should focus, one of which is 
of specific interest to me, is to increase and strengthen our 
partnership with Mexico, especially through the State 
Department's Merida Initiative.
    Our neighbor to the south has suffered a horrific level of 
murder at the hands of drug cartels. By increasing our 
cooperation with Mexico, we can help them defeat the cartels 
that caused so much pain both there and here in the U.S.
    Often overlooked is the fact that many of the narcotics 
that Mexican cartels traffic end up in the hands of Americans. 
Furthermore, increasing security at ports of entry through 
increased use of technology, cameras, and manpower is 
absolutely necessary to interdicting drugs.
    Pending legislation like Chairman McCaul's Border Security 
for America Act will do just that. Another bipartisan bill that 
I hope will end the crisis was introduced with Congress Collin 
Peterson, H.R. 3526. I look forward to that moving forward.
    Again, I sincerely thank you for the opportunity to testify 
before the committee this morning on an issue that greatly 
affects the constituents in my district.
    [The prepared statement of Mr. Rothfus follows:]

              Prepared statement of Hon. Keith J. Rothfus

    Thank you Mr. Chairman for holding this important hearing 
today for members from across the country to testify about this 
epidemic.
    I think it is interesting that you've had three 
Pennsylvanians right in a row. It represent the geography of 
Pennsylvania; Eastern, Middle and Western.
    Certainly communities in Western Pennsylvania are among 
those hit hardest in the National opioid epidemic. There has 
been a staggering amount of overdose deaths, specifically in my 
district. In 2016, Allegheny County had 648 individuals lose 
their lives from heroin or opioid-related overdoses. Last year, 
that number was 4,342 in Pennsylvania alone.
    According to a recent article in the Pittsburgh Post-
Gazette, in 2016, the number of overdose deaths in Pennsylvania 
was four-times the number of deaths caused by car accidents. In 
other recent reports, three people in my district were revived 
by Narcan after each overdosed at a convenience store. 
Thankfully, the first responders were able to save their lives.
    While it is encouraging to see that both Congress and the 
administration have taken action to address this issue, we 
still have a long way to go. From my perspective, we should 
take a three-prong approach to combating the epidemic.
    We must implement measures to prevent addiction. We must 
treat addiction once it has taken hold over someone. Finally, 
we must vigorously enforce the laws on the books to stop drug 
traffickers from spreading their poison into our communities.
    To help combat this, I led an effort to include language in 
the landmark Comprehensive Opioid Reduction Act that will help 
ensure our veterans, who are at significant risk, have access 
to the specialized programming they need to prevent or overcome 
opioid addiction. This is one positive step in the right 
direction.
    Another area where Congress should focus, one of which is 
of specific interest to me, is to increase and strengthen our 
partnership with Mexico, especially through the State 
Department's Merida Initiative. Our neighbor to the south has 
suffered a horrific level of murder at the hands of drug 
cartels. By increasing our cooperation with Mexico we can help 
them defeat the cartels that cause so much pain both there and 
here in the US. Often overlooked, is the fact that many of the 
narcotics that Mexican cartels traffic end up in the hands of 
Americans.
    Furthermore, increasing security at ports of entry through 
increased use of technology, cameras, and man-power is 
absolutely necessary to interdicting drugs. Pending 
legislation, like Chairman McCaul's Border Security for America 
Act, will do just that.
    Another bipartisan bill that I hope can help end the crisis 
is one that I introduced with Congressman Collin Peterson, H.R. 
3526 (the Border Protection Fund Act). I look forward to that 
moving forward.
    Again, I sincerely thank you for the opportunity to testify 
before the committee this morning on an issue that greatly 
affects my constituents and our country.

    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back.
    All Members having had a chance to speak, with votes on the 
floor, the committee stands adjourned.
    [Whereupon, at 1:33 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Wm. Lacy Clay

    Good morning Mr. Chairman, Mr. Ranking Member, and 
honorable Members of this vital committee.
    I thank you for this special opportunity to come before 
you.
    I am here because, in 2016, 650 people in the St. Louis 
metropolitan area died from an opioid overdose.
    I am here because that number of needless, tragic deaths 
has quadrupled since 2007.
    I am here because the number of annual opioid overdose 
deaths in the community that I represent is now more than three 
times the number of homicides.
    I am here because this Congress must summon our national 
courage to finally confront the menace of opioid addiction and 
opioid overdoses as an urgent public health emergency.
    First, incarcerating people does very little to get at the 
underlying causes of this epidemic.
    We absolutely should not condone criminals who are peddling 
heroin, fentanyl, carfentanil and other deadly drug 
combinations.
    But just putting someone behind bars who has an addiction 
doesn't solve that person's problem. In fact, it is a huge 
waste of scarce taxpayer dollars that would be much better 
spent on treatment.
    Indeed, people who go to jail and are then released--if 
they are not given treatment--are at high risk of re-using and 
are also at a very high risk of a life-threatening overdose.
    I strongly believe in the value of life-saving and life-
renewing services offered by community-based nonprofits that 
provide treatment for substance abuse disorders.
    We know that evidence-based treatment is effective and that 
when people are in treatment, they use drugs less and they 
overdose less.
    Treatment comes in many forms, but in the United States, we 
rely heavily on nonprofit community-based treatment providers 
as the safety net for treatment for low-income people and 
others who are disenfranchised, such as people who are 
homeless; many of whom are veterans.
    Many of these providers rely on the Substance Abuse 
Prevention and Treatment Block Grant to survive, and I would 
wholeheartedly urge that we continue to robustly fund this 
essential program.
    I do want to highlight the antiquated policy, over 50 years 
old, known as the Medicaid Institution of Mental Diseases 
Exclusion, better known as the IMD Exclusion, which bars 
Medicaid from paying for residential treatment at a facility of 
more than 16 beds.
    According to the New York Times in a July 10, 2014 article 
on the negative impact of the IMD Exclusion, in some States 
this policy means that 9 out of 10 treatment beds are in 
programs too large to receive Medicaid reimbursement.
    That is a huge barrier to recovery for our most needy, most 
vulnerable, poorest Americans--and it yields a two-tiered 
health care system, where only people on Medicaid lose access 
to a kind of treatment that may be clinically indicated and 
medically necessary.
    Fortunately, there is growing support for ending this 
outdated policy.
    For example, the National Governors Association has called 
for the elimination of the IMD Exclusion for SUD to help States 
expand access to addiction treatment.
    And in July 2017, the President's Commission on Combating 
Drug Addiction and the Opioid Crisis Interim Report recommended 
that all 50 States be granted waiver approvals to eliminate 
barriers resulting from the IMD exclusion.
    Perhaps most importantly in terms of legislative action, 
two key bills have been introduced in the 115th Congress that 
deserve your favorable consideration.
    One is H.R. 2938, sponsored by Rep. Brian Fitzpatrick of 
Pennsylvania, the Road to Recovery Act, which would eliminate 
the IMD Exclusion for community-based residential treatment.
    This is not a full repeal of the IMD Exclusion which also 
affects treatment for mental health, but rather is finely 
targeted to repeal the ban for the SUD treatment that is so 
sorely needed today amid the opioid epidemic.
    Another bill is H.R. 2687, the Medicaid CARE Act, sponsored 
by Congressman Bill Foster of Illinois, which would turn the 
current exclusion into a cap on Medicaid reimbursement, under 
which programs could be reimbursed for residential SUD 
treatment for up to 40 beds in a program for up to 60 days.
    These are just two ways that Congress can end one of the 
most formidable barriers to treatment, and immediately help 
increase capacity and beds in every State.
    Opioid addiction and the thousands of American lives it 
takes each year does not respect political parties, regional 
differences, racial or ethnic backgrounds or even age.it is an 
equal opportunity killer that we need to confront together as 
the People's House.
    Thank you for allowing me to share this time with you 
today, and I look forward to working closely with you in a 
bipartisan way to save our fellow Americans.

                Prepared statement of Hon. Anna G. Eshoo

    Thank you, Chairman Burgess and Ranking Member Green, for 
holding this listening session and giving Members of the House 
the opportunity to speak about the tragic impacts of the opioid 
crisis in their districts. This crisis claims 142 lives each 
day and has killed more people than our deadliest wars. Over 2 
million people have a prescription opioid addiction, 591,000 
have a heroin addiction, and we've seen overdose deaths triple 
in the last 13 years. Opioid abuse touches every American and 
doesn't discriminate. It affects mothers, fathers, children and 
even newborn babies.
    I've heard from substance abuse treatment facilities in my 
congressional district and they report that the number of young 
people walking through their doors with addiction have 
strikingly increased in the past decade. This is a national 
crisis. These drugs are crippling a generation of America's 
youth.
    President Trump appropriately announced that he would 
declare it a national emergency in August, yet it has been 62 
days since he made that announcement and no emergency 
declaration has been filed.
    Instead, in the months since the President announced that 
he would declare the opioid crisis a national emergency, we've 
seen constant attacks on the very health care system that 
provides treatment and services to those suffering from opioid 
addiction. Medicaid and CHIP provide insurance coverage for 30 
percent of people suffering from opioid addiction. Medicaid has 
repeatedly been targeted by attempts to repeal the Affordable 
Care Act and now, through the Majority's tax reform plan. It's 
hypocritical to claim that you are committed to fighting this 
catastrophic crisis and then, at every turn, undermine the 
systems in place to treat and support those who struggle with 
addiction.
    Last Congress, we took important steps through the 
Comprehensive Addiction and Recovery Act and 21st Century Cures 
Act to address and treat opioid abuse, but both of these pieces 
of legislation must secure funding from Congress. We have to 
make good on the promises we made to those Americans who suffer 
from opioid addiction and fund the programs that they rely on 
to receive the treatment and support they need.
    Any future approach this committee or the administration 
takes must address the entire spectrum of addiction, from 
prevention, to crisis response, to treatment and recovery. A 
law and order approach that only punishes prescription drug 
abusers does a disservice to our country and impedes progress 
toward addressing this epidemic.

              Prepared statement of Hon. Alcee L. Hastings

    Mr. Chairman, thank you for holding this important hearing 
about how the opioid epidemic is affecting communities 
nationwide. Today, I would specifically like to discuss the 
importance of repealing or reforming the Medicaid Institutions 
for Mental Diseases exclusion, which is a barrier to 
residential treatment for low-income people.
    Unfortunately, Mr. Chairman, one of my counties, Palm Beach 
County, Florida, saw nearly 600 fatal overdoses last year, 
mostly related to opioids. The number of fatal opioid overdoses 
has gone up 230 percent in the past 2 years, overwhelming 
police, firefighters, hospitals, and morgues. In fact, the 
Opioid crisis has been declared a public health emergency by 
Florida Governor Rick Scott.
    Recovering drug users are flocking to South Florida from 
everywhere--drawn by a world-renowned drug treatment industry. 
Some find good centers and a path to recovery. Others fall 
victim to corrupt operators and wind up homeless, without 
money, and in the most tragic cases, dead.
    Substance use disorder (SUD) plagues the United States both 
socially and economically. The cost of substance abuse and drug 
addiction to our health care system totals $705 billion 
annually, where the emotional costs of drug addiction, on 
family, friends and those battling addiction, cannot be 
calculated.
    An estimated 23.1 million Americans ages 12 or older needed 
treatment for substance abuse in 2012; however, only 2.5 
million of them actually received treatment. This shortfall is 
due primarily to the limited availability of substance use 
disorder services, particularly for those in need of 
residential care to address chronic addiction.
    Last year, I introduced a bill to amend title XIX of the 
Social Security Act and remove the exclusion of coverage for 
services in institutions of mental diseases (IMD) under 
Medicaid. My legislation is designed to enable more Americans 
who suffer from SUD to gain equal access to the treatment 
necessary for their long-term recovery.
    Under current law, Medicaid beneficiaries are barred access 
to community-based residential treatment for severe conditions 
due to the IMD exclusion that prohibits reimbursement care of 
patients at facilities with more than 16 beds. This nonsensical 
exclusion has effectively deterred facilities from serving 
those in dire need of care.
    Eliminating the IMD exclusion will allow those who suffer 
from severe substance use disorders to have equal access to 
treatment, to achieve stable, long-term recovery, and to become 
productive members of society. The IMD elimination will also 
reduce the health, public safety, and economic consequences 
associated with addiction.
    Addiction must be treated like any other chronic disease in 
this country, with a full continuum of treatment options based 
on the person's level of need. Current Medicaid policy hinders 
States' efforts to make this continuum available to Medicaid 
patients. My legislation would remove this Federal payment 
prohibition for behavioral health services provided in 
residential settings. Such a removal would improve access to 
substance use treatment services for millions of Americans 
across the country.
    The President's Commission on Combating Drug Addiction and 
the Opioid Crisis Interim Report recommended that all 50 States 
be granted waiver approvals to eliminate barriers resulting 
from the IMD exclusion. Providing health care services and 
treatment resources to those who suffer from substance abuse is 
critical. In the face of this opioid epidemic, our Nation 
cannot afford to continue to bear the unintended constraints of 
50-year-old provision under Medicaid, which severely impedes 
availability and access to treatment.
    Once again, Mr. Chairman, I want to thank you for holding 
this critically important hearing today, and greatly appreciate 
the opportunity to testify for your subcommittee.

               Prepared statement of Hon. David P. Joyce

    I would like to thank Chairman Burgess, Ranking Member 
Green, and the other Members of the Energy and Commerce 
Subcommittee on Health for holding this important and timely 
hearing. As an Ohio Member of Congress, and a former prosecutor 
of 25 years, I have seen firsthand the devastation caused by 
this epidemic.
    This is why I introduced my legislation, the Stem the Tide 
of Overdose Prevalence from Opiate Drugs Act of 2017, or the 
STOP OD Act. I went straight to the source to craft this bill, 
gathering input from the healthcare experts that are treating 
overdose patients on a daily basis. Cleveland Clinic, 
MetroHealth, and University Hospitals were instrumental in the 
drafting of the STOP OD Act, and endorsed it in its final form. 
The bill also has the support of the Fraternal Order of Police 
(FOP), Community Anti-Drug Coalitions of America (CADCA), and 
the Association of the United States Navy (AUSN). We wanted to 
know what our local communities needed, so we took their 
invaluable feedback, developed a bill that would provide 
resources where necessary, and then identified a savings 
measure to pay for those resources.
    As a Congress, we have made progress in this arena, but 
there is more work to be done. As an original cosponsor of my 
colleague's Comprehensive Addiction and Recovery Act of 2015, I 
was proud when that piece of critical legislation passed both 
Chambers and was signed into law. My legislation is intended to 
be complementary to that effort. Although CARA roll-out is 
still a work in progress, more and more victims are overdosing 
every day, and our communities in Ohio are still communicating 
the need for more resources. The longer we wait to provide 
these resources, the harder this epidemic will be to address in 
the future. This is a downhill snowball and we need more 
firepower.
    First and foremost, the STOP OD Act would make available 
grants for not more than $150 million annually for 2 years to 
provide access to life-saving Naloxone, training in the 
administration of the drug, and for coroners and medical 
examiners to test for fentanyl so we can get a better idea of 
just how deep this problem runs. Further, the bill would attach 
a fee of $80 to drug-related offenses to ensure criminals that 
are enabling the supply and demand of the drug trade pay into 
mitigating the consequences of their actions. The fee goes 
toward paying for the grant programs under this bill, and after 
2 years toward paying down the Federal debt.
    The STOP OD Act also makes available grants for not more 
than $75 million annually for 2 years to expand educational 
efforts to prevent opiate abuse, promote treatment and 
recovery, and promote the understanding that addiction is a 
chronic disease. The educational grants, coupled with the 
Naloxone grants, total $450 million. That's the maximum grant 
allocation. In addition to the fee for drug offenses, this bill 
contains a pay-for to completely cover the maximum grant 
allocation. I worked with GAO to identify savings of at least 
$500 million by extending the current data center consolidation 
initiative. That effort is set to sunset in 2018, but the STOP 
OD Act would authorize the extension of that program for 2 more 
years, and would put those savings toward these grants, which 
will save lives and prevent further addiction. This bill works 
on the front end and the back end to address this crisis. 
Naloxone can resuscitate a victim of overdose. Meanwhile, we 
can utilize the other grant pool to educate our communities 
about the dangers of these drugs. We need a multifaceted 
approach to tackling this problem. This legislation is an 
important step toward our shared goal: ending the opiate drug 
overdose epidemic that is ravaging our great Nation. Moreover, 
I want to note that, as of this week, my legislation has a 
total of 46 bipartisan cosponsors, exactly evenly split between 
Republicans and Democrats, and spanning 20 States. It's clear 
that no matter which side of the aisle you are on, your 
community has probably been affected by this epidemic, and you 
want to take even more action to address it. That's what I am 
seeing when talking to my colleagues, and the bottom line here 
is: this bill will do some good.
    Thank you again for holding this hearing, and for inviting 
members outside the committee to weigh in and contribute our 
legislative proposals for your deliberation moving forward. I 
am happy to answer any questions regarding my legislation. I 
appreciate your time and consideration.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Prepared statement of Hon. Stephen F. Lynch

    Good morning. Chairman Burgess, Ranking Member Green, and 
members of the Energy and Commerce Subcommittee on Health, 
thank you for the opportunity to submit my testimony for the 
record, and thank you for holding this important hearing.
    Mr. Chairman, my State of Massachusetts was hit early on 
and has suffered greatly from this crisis. In the late 1990's, 
South Boston saw a disturbing uptick in the number of teen 
deaths, many of which were related to Oxycontin and heroin 
abuse. At the time, I worked to help establish the Cushing 
House Recovery Home for Adolescents, a drug and alcohol 
rehabilitation clinic in South Boston for teenagers. This 
initiative was just one of the many that the Commonwealth, at 
the State and local levels, has undertaken as part of a 
multifaceted approach to tackling this problem. Other 
initiatives include instituting a Prescription Monitoring 
Program, making addiction treatment facilities and services 
more accessible, increasing awareness of the scope of the 
epidemic, working with doctors to reduce the length of time 
that they prescribe opioids, and supporting innovative 
intervention efforts to reduce the rate of overdose deaths.
    Recent State statistics are showing that we are making an 
impact, but that we cannot afford to pull back on these 
efforts. In 2016, 2,107 citizens of Massachusetts died from an 
overdose. That level was an increase of 17 percent compared to 
2015, which saw an increase of 31 percent, and 2014 in which 
the death toll rose by 40 percent. We cannot be satisfied with 
only slowing down the rates of death: we must instead double 
down on the effective and proven initiatives that are saving 
lives.
    This brings me to the concerns I have that the Majority is 
pushing legislation that will undercut the efforts being 
undertaken both in my State and across the country. Recent 
bills to repeal the Affordable Care Act have included 
provisions that undermine Medicaid, which, according to the 
Kaiser Family Foundation, covers 3 in 10 nonelderly adults with 
opioid addiction. In addition, these bills would have allowed 
States to opt out of covering addiction treatment and the 
mental health services that are necessary to ensure that 
recovery is sustainable. Legislative actions such as these will 
only worsen the crisis and threaten the still-fragile progress 
that has been made so far. Separately, I am also concerned by 
the recent omnibus spending package that included a cut of $306 
million to the Substance Abuse and Mental Health Services 
Agency (SAMHSA). These cuts in funding and in coverage will 
only worsen the epidemic.
    Mr. Chairman, our country lost nearly 60,000 of our fellow 
Americans to the opioid epidemic last year. We must ensure that 
we are doing everything in our power to provide those families 
and individuals who are battling addiction with the support and 
help they need to overcome this destructive disease. In 
particular, we must ensure that the programs and initiatives 
that can help them will be funded and available.
    Thank you very much for the opportunity to testify.
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
              Prepared statement of Hon. Richard M. Nolan

    Chairs Walden and Burgess and Ranking Members Pallone and 
Green,
    Thank you for inviting me to submit testimony for today's 
House Energy and Commerce Subcommittee on Health's Member Day.
    Make no mistake about it--the abuse of opioids and other 
prescription drugs has become an epidemic and a crisis of major 
proportion in this country.
    According to the latest figures from the Department of 
Health and Human Services, 33,000 people die every year from 
overdoses.
    And 12.5 million people misuse and abuse opioids and 
prescription drugs every year.
    The fact is--in just a very few generations, we've 
increased the life expectancy in this country from less than 50 
years to nearly 80. And the Centers for Disease Control 
recently concluded that our life expectancy would be even 
higher but for this epidemic of prescription drug misuse.
    With all that in mind--there is probably no more innovative 
or successful intervention program in the country than the 
community-based model being undertaken in Minnesota by CHI-St. 
Gabriel's & Morrison County Prescription Drug Abuse Project.
    Their model--which at my invitation has been presented to 
Congressional staff twice now--has produced tremendous results 
by bringing together doctors, nurses, pharmacists, social 
workers, law enforcement, home health and skilled nursing 
professionals and educators in the communitywide effort you 
will hear about today.
    The results speak for themselves.
    In the community of Little Falls, the four participating 
pharmacies have experienced a 23 percent decrease in controlled 
substance prescriptions.
    324 patients have tapered off controlled substances 
entirely, primarily through the use of suboxone.
    And what that means is--370,000 fewer controlled substances 
have entered the community since the program began. At about $7 
per dose, that's a savings of about $2.6 million every year for 
patients in Morrison County.
    And what's more, in the first 8 months of the program 
alone, pain went from the number one reason people were being 
admitted to the Emergency Room--to not even in the top 20.
    The fact is, doctors are not only managing pain better, but 
they are doing it with many new and effective options that 
don't include long term use of narcotics.
    This program has become a model for our entire Nation, and 
I wanted to share it with the committee today for their 
awareness and examination.
    In closing, thank you for convening this hearing today--and 
helping us all move forward to put an end to this crisis that 
is affecting so many lives and families and communities.

                Prepared statement of Hon. Niki Tsongas

    Mr. Chairman, Ranking Member, and members of the House 
Committee on Energy and Commerce Subcommittee on Health, thank 
you for the opportunity to submit testimony today on the opioid 
epidemic, a health crisis indiscriminately affecting 
communities across this country.
    In my home State of Massachusetts, there were an estimated 
2,107 opioid-related deaths in 2016, an increase of over two-
hundred percent in the last 10 years. To put that increase in 
perspective on a national level, according to news reports, in 
2016, more Americans died of drug overdoses than have ever died 
from car crashes, gun violence, or HIV/AIDS during any single 
year.
    Thanks to the work of this committee, Congress has taken 
several steps to begin to address this crisis, but the stunning 
rise in opioid misuse, addiction and deaths calls on us to do 
more.
    When people become addicted to painkillers, and then lose 
access to their prescription drug, many turn to illegally 
obtaining cheaper, more potent opioids such as heroin and 
synthetic drugs.
    According to the most recent data from the Centers for 
Disease Control and Prevention, across the United States, over 
21,000 overdose deaths were caused by synthetic opioids between 
February 2016 and February 2017, twice as many as the previous 
12-month period. One of the leading contributors to this number 
is fentanyl, a deadly synthetic opioid that can be up to 50 
times stronger than heroin and 100 times more powerful than 
morphine. Fentanyl has become the leading cause of overdose 
deaths nationwide, surpassing heroin in the summer of 2016.
    Although pharmaceutical fentanyl can be misused, most 
fentanyl deaths are linked to illicitly manufactured fentanyl 
and illicit versions of chemically similar compounds known as 
fentanyl analogs.
    In Massachusetts, the proportion of overdose deaths 
attributed to fentanyl is rising at a meteoric rate. At its 
lowest, in the third quarter of 2014, fentanyl was present in 
18 percent of opioid-related deaths in Massachusetts. However, 
in 2016, fentanyl was present in a staggering 69 percent of the 
State's opioid-related deaths, resulting in 1,400 fentanyl-
related deaths in the Commonwealth.
    The primary sources of fentanyl are outside the United 
States, principally Mexico and China. The drug is smuggled 
across the U.S. border or delivered through the mail or private 
carriers. Fentanyl can also be ordered online. And because of 
its extreme potency, fentanyl typically comes in small amounts, 
making it more difficult for authorities to detect.
    That is why earlier this year I introduced bipartisan 
legislation with Congressman Brian Fitzpatrick (R-PA) to 
provide Customs and Border Protection (CBP) with the latest in 
chemical screening devices and scientific support to detect and 
intercept fentanyl and other synthetic opioids.
    Not only would these devices allow law enforcement to 
detect and confiscate fentanyl before it enters the United 
States, but it would also protect law enforcement officers on 
the front lines from exposure to the deadly narcotic, which is 
so powerful that coming into contact with just a few grains can 
be fatal.
    The House Committee on Homeland Security recently passed 
our bill, the International Narcotics Trafficking Emergency 
Response by Detecting Incoming Contraband with Technology, or 
INTERDICT, Act by voice vote and we are now urging House 
leadership to bring it to the floor.
    The INTERDICT Act would be an important step towards 
stemming the rapid influx of illicit synthetic opioids, 
including fentanyl. However, to most effectively have an impact 
on this heart-wrenching epidemic, we must establish a 
comprehensive, fully funded plan at the local, State, and 
Federal level. Congress must continue to demonstrate its 
commitment to ending this epidemic by supporting the programs, 
agencies, organizations and individuals on the front lines.
    We cannot afford to let our friends, family members and 
neighbors suffer under the burden and stigma of addiction and 
mental illness--especially given the scope and magnitude of the 
issue nationwide. My colleagues from all parts of the country, 
both Democrats and Republicans, have heard similar stories from 
their districts and we owe it to our communities to do all we 
can to head off this national epidemic.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
